Semiannual Report
   October 1996
              MESSAGE FROM THE
              INSPECTOR GENERAL


I
    n our Statement of Reinvention                 the respect underlying the "shared
    Principles, adopted in January 1994, the       commitment" should foster recognition of
    Inspectors General emphasize, among            the role of Inspectors General as providing
other things, the need to "[b]uild                 independent and objective audits,
relationships with program managers based          investigations, reviews, analyses, and
on a shared commitment to improving                recommendations, and the role of agency
program operations and effectiveness." This        personnel as providing responsible program
concept of a "shared commitment" holds, in         administration, with the contribution of each
my view, one of the keys to meeting                directed toward the common goal of
successfully the challenges that we face as        promoting and achieving better government.
Inspectors General in the effective
performance of our statutory mission.              As "agents of positive change," we in the
                                                   Office of Inspector General are planting the
The idea of a "shared commitment" between          seeds of, and cultivating, that "shared
Offices of Inspector General and agencies          commitment" as we perform our mission.
over which they have audit and investigative       On the audit side, we continue to receive and
jurisdiction may, on the surface, seem             respond to an increasing number of requests
somewhat novel; however, upon further              from our auditees to lend our expertise,
reflection, any such thought should quickly        proactively, to various projects, programs,
disappear. While it is true that Offices of        and activities with which they are involved.
Inspector General are the entities charged, by     In this regard, we are providing, or have
statute, with the responsibility to "prevent       provided, assistance in a variety of areas,
and detect fraud and abuse," and to                including Indian Self-Determination Act
"promote economy, efficiency, and                  rulemaking, correction of financial
effectiveness" in the operations of                accounting system deficiencies,
government, every public servant has a             Departmental reinvention efforts, issues
similar responsibility. That is because as         related to the U.S. Geological Survey’s map
public servants, we hold a public trust that       inventory and the Minerals Management
requires us, among other things, to ensure to      Service’s Royalty Gas Marketing Pilot
the best of our abilities the integrity and        program, accounting controls and
accountability of the programs and                 procurement practices in the U.S. Virgin
operations over which we have cognizance.          Islands, and financial modernization in
                                                   Guam. Through the combined efforts of
This "shared commitment," then, is simply          Office of Inspector General auditors and our
the embodiment of our responsibilities as          auditees, improvements are being made in
public servants, based on mutual respect for       various programs and activities.
the important role played by each participant
who shares the commitment. In this case,

             Semiannual Report to the Congress: April 1, 1996 - September 30, 1996                 i
On the investigative side, we are continuing    brought together approximately 400
to expand our “Fraud Awareness” Outreach        individuals from several U.S. Attorney’s
program. This initiative is designed to         Offices, the audit and investigative staffs of
enhance our “prevention and detection”          the Office of Inspector General, the
efforts by sensitizing program personnel to     Department’s Office of the Solicitor, and the
indicia of fraud, and enlisting their support   bureaus and offices within the Department
and assistance in the fight against fraud in    to learn about ACE and to discuss its
Departmental programs through increased         applicability to Departmental programs.
vigilance as they perform their daily           The conferences, whose attendees came
responsibilities and the timely referral of     from various parts of the continental United
suspected cases of wrongdoing to the Office     States, as well as from Alaska, Guam, and
of Inspector General. This outreach             the Virgin Islands, brought to life the
initiative has provided an effective vehicle    potential power of a “shared commitment.”
for us to deliver personally our law
enforcement message to Departmental and         A “shared commitment to improving
bureau employees in various locations in the    program operations and effectiveness” is,
United States.                                  unquestionably, one of the keys to better
                                                government. We hope, through our
Finally, we have launched our Affirmative       continued efforts, to make this concept a
Civil Enforcement (ACE) initiative, which       powerful force within the Department of the
will, in our view, provide an effective         Interior.
additional law enforcement tool to be used
to combat fraud and other forms of white-
collar crime in Departmental programs.
Two ACE training conferences, held in
Denver, Colorado, and Arlington, Virginia,
and cosponsored by the Office of Inspector
General and the Department of Justice,
                              CONTENTS
                                                                                                                                                                              Page
Statistical Highlights . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v
Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
  Department Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
  OIG Organization . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
OIG Officewide Initiatives . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Audit Activity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Investigative Matters . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Congressional Hearings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Legislative Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Significant Audits and Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
  Bureau of Indian Affairs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
  Bureau of Land Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
  Bureau of Reclamation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
  U.S. Fish and Wildlife Service . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
  U.S. Geological Survey . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
  Minerals Management Service . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
  National Biological Service . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
  National Park Service . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
  Office of Surface Mining Reclamation and Enforcement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
  Insular Areas . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

Appendices
1 - Summary of Audit Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            33
2 - Audit Reports Issued and Indirect Cost Agreements Negotiated
    During the 6-Month Period Ended September 30, 1996 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                 34
    - Internal Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       34
    - Contract Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         36
    - Single Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       37
    - Indirect Cost Proposals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        50
3 - Monetary Impact of Audit Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                57
4 - Audit Resolution Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          58
    - Table I - Inspector General Audit Reports With Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                    58
    - Table II - Inspector General Audit Reports With Recommendations That
       Funds Be Put To Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            59
    - Table III - Inspector General Audit Reports With Lost or Potential Additional Revenues . . . . . . . . . . . . . . . . . . .                                                 60
5 - Summary of Audit Reports Over 6 Months Old Pending Management Decisions . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                  61
    - Internal Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       61
    - Contract and Grant Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 62
    - Single Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       63
6 - Summary of Internal Audit Reports Over 6 Months Old Pending Corrective Action . . . . . . . . . . . . . . . . . . . . . . . .                                                  66
7 - Non-Federal Funding Included in Monetary Impact of Audit Activities
    During the 6-Month Period Ended September 30, 1996 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                               69
8 - Statutory and Administrative Responsibilities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    70
9 - Cross-References to the Inspector General Act . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      72



                        Semiannual Report to the Congress: April 1, 1996 - September 30, 1996                                                                                       iii
iv   Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
                         STATISTICAL HIGHLIGHTS

Audit Activities
 Audit Reports Issued or Processed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 446
  - Internal Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
  - Contract Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
  - Single Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 390
 Indirect Cost Proposals Negotiated . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 182

Impact of Audit Activities - (Dollar Amounts in Millions)
  Total Monetary Impact . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $63.7
   - Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $11.9
   - Recommendations That Funds Be Put To Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $42.1
   - Lost or Potential Additional Revenues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $9.7
  Internal Audit Recommendations Made . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 91
  Internal Audit Recommendations Resolved . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 69

Administrative Actions Taken by Bureaus
  Matters Referred for Administrative Action . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 72
  Removals/Resignations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
  Employee Suspensions (Totaling 219 days) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
  Reprimands/Counseling . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
  Downgrades . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
  Reassignments/Transfers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
  Other Personnel Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
  Procurement Remedies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
  General Policy Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
  Contractor Suspensions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

Investigative Activities
 Total Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 90
 Cases Closed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 73
 Cases Opened . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 160
 Cases Pending . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 447
 Hotline Complaints Received . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 57
 Hotline Complaint Matters Opened . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
 Hotline Referrals Closed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 188
 Hotline Referrals Pending . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 104

Impact of Investigative Activities
  Indictments/Informations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43
  Convictions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
  Sentencings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
   - Jail . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1,001 months
   - Probation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 828 months
   - Community Service . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 700 hours
  Cases Pending Prosecutive Action as of April 1, 1996 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 150
  Cases Referred for Prosecution This Period . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42


                      Semiannual Report to the Congress: April 1, 1996 - September 30, 1996                                                                                      v
Cases Declined . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Cases Pending Prosecutive Action as of September 30, 1996 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 168
Administrative Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 79
Criminal Judgments/Restitutions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $1,512,311
Civil Judgments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $2,824
Civil Referrals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Civil Declinations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Civil Judgments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
              INTRODUCTION

Department Profile

T
        he Congress created the Department         Conservation, development, and utilization
        of the Interior (DOI) on March 3,          of fish and wildlife resources;
        1849, to manage the Nation’s internal
affairs. As the Nation’s principal                 Coordination of Federal and state
conservation agency, DOI has responsibility        recreation programs;
for most of our nationally owned public
lands and natural resources. This includes         Preservation and administration of the
fostering the use of our land and water            Nation’s scenic and historic areas;
resources; protecting our fish, wildlife, and
biological diversity; preserving the               Operation of Job Corps Conservation
environmental and cultural values of our           Centers and Youth Conservation Corps
national parks and historic places; and            Camps and coordination of other manpower
providing for the enjoyment of life through        and youth training programs;
outdoor recreation. DOI assesses our
mineral resources and works to ensure that         Reclamation of arid lands in the West
their development is in the best interests of      through irrigation; and
all our people by encouraging stewardship
and citizen participation in their care. DOI       Management of hydroelectric power
also has a major responsibility for American       systems.
Indian reservation communities and insular
area governments.                                  DOI is also concerned with the social and
                                                   economic development of the insular areas
DOI has about 70,000 employees, spends             and administers programs providing services
about $9 billion a year, collects revenues of      to Indians and Alaska Natives.
about $6 billion a year, and is geographically
dispersed to over 2,000 locations. The
jurisdiction of DOI includes:

Administration of over 500 million acres of
Federal land and trust responsibilities for
approximately 50 million acres of land,
mostly Indian reservations;

Conservation and development of mineral
and water resources;




             Semiannual Report to the Congress: April 1, 1996 - September 30, 1996              1
                                                   In addition to the Inspector General’s
OIG Organization                                   requirements for semiannual reporting to the
                                                   Secretary of the Interior and the Congress in
                                                   accordance with the Inspector General Act

T
       o cover DOI’s many and varied
       activities, the Office of Inspector         of 1978 (Public Law 95-452), as amended,
       General (OIG) has a budget of $24           OIG’s mission encompasses a wide array of
million and has 271 full-time employees.           audit and investigative responsibilities (see
Employees are under the direction of the           Appendix 9). These responsibilities include
Assistant Inspectors General for Audits,           OIG’s review of various programs and
Investigations, and Administration and are         activities within DOI in accordance with
assigned to the headquarters office in             numerous public laws, Office of
Washington, D.C., and field offices in:            Management and Budget (OMB) circulars,
                                                   and criminal and civil investigative
Agana, Guam; Rapid City, South Dakota;             authorities (see Appendix 8).
Albuquerque, New Mexico; Sacramento,
California; Arlington, Virginia; St. Paul,         The Inspector General recommends policies
Minnesota; Billings, Montana; St. Thomas,          for and conducts, supervises, or provides
U.S. Virgin Islands; Lakewood, Colorado;           coordination between DOI and other
Tulsa, Oklahoma; and Phoenix, Arizona              Federal, state, and local government agencies
                                                   for matters that promote economy and
OIG provides policy direction for and              efficiency and that prevent and detect fraud,
conducts, supervises, and coordinates all          waste, and mismanagement. In the insular
audits, investigations, and other activities in    areas of Guam, American Samoa, the U.S.
DOI designed to promote economy and                Virgin Islands, and the Commonwealth of
efficiency or prevent and detect fraud, waste,     the Northern Mariana Islands, OIG performs
and mismanagement. The Inspector General           the functions of government comptroller
is DOI’s focal point for independent and           through audits of revenues, receipts,
objective reviews of the integrity of              expenditures, and property in accordance
operations; is the central authority concerned     with the Insular Areas Act of 1982
with the quality, coverage, and coordination       (48 U.S.C. 1422). OIG has additional audit
of the audit and investigative services of         responsibilities in the Federated States of
DOI; and reports directly to the Secretary of      Micronesia, the Republic of the Marshall
the Interior on these matters. The Inspector       Islands, and the Republic of Palau pursuant
General provides the means for keeping the         to the Compact of Free Association Act of
Secretary and the Congress fully and               1985 (Public Law 99-239). OIG’s
currently informed about problems and              organizational chart is included on the
deficiencies relating to the administration of     following page.
DOI programs and operations and the
necessity for corrective action.




2            Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
     U.S. DEPARTMENT OF THE INTERIOR
              OFFICE OF INSPECTOR GENERAL


                        INSPECTOR GENERAL


                    1




Semiannual Report to the Congress: April 1, 1996- September 30, 1996   3
             OIG OFFICEWIDE INITIATIVES


                                                  conference were to foster improvements in
Continuation of                                   efficiency and effectiveness of OIG
Internal Reviews                                  operations through a coordinated team
                                                  approach and to foster long-range planning
                                                  through preparation of an OIG strategic


I
     n our last Semiannual Report, we             plan. The conference was supported by
     reported that we were in the process of      presentations from Government and non-
     performing internal reviews of our           Government speakers and facilitators and
operations to help ensure that we are             was designed to promote creative thought
operating as efficiently and effectively as       and discussion and to assist in the
possible. In addition to this ongoing effort      development of a draft strategic plan to meet
within individual units of the OIG, in            the increasing demands and challenges of our
September, we conducted a management              times.
training conference, which brought together
managers from throughout the OIG and
which had as its central theme "agents of
positive change." The objectives of the




4           Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
               AUDIT ACTIVITY

              Summary of Audit Results

O
          IG auditors issued or processed 446      improve the efficiency and effectiveness of
          audit reports during this period.        programs and operations. In addition, our
          Appendix 1 summarizes audit              auditors continued to be engaged in various
activities, and Appendix 2 lists the audit         audit efforts in which we joined forces with
reports issued or processed and the indirect       other audit entities to accomplish specified
cost proposals negotiated. Monetary                purposes.
findings in these reports totaled $63.7
million, which was composed of questioned          During this reporting period, we continued
costs, funds to be put to better use, and lost     our proactive and joint audit efforts in areas
or potential additional revenues. Appendix 3       previously reported, including our work in
summarizes the monetary impact of audit            connection with the Indian Self-
activities. During this 6-month period, OIG        Determination Act Negotiated Rulemaking
resolved $26.7 million of monetary findings.       Committee, the correction of financial
Appendix 4 provides summary information            accounting system weaknesses and
of resolution activity, Appendix 5 provides a      deficiencies within bureaus, the development
listing of audit reports over 6 months old         of DOI’s new personnel/payroll system, the
pending management decisions, and                  streamlining and reengineering of DOI’s
Appendix 6 provides a summary of resolved          travel program, and our participation on task
audits over 6 months old pending final             forces responsible for developing accounting
action. Appendix 7 identifies the non-             and auditing guidance. Additional proactive
Federal funds (from audits of insular area         and joint audit efforts are described below.
governments) included in the monetary
impact of audit activities.                        Audit Assistance Improves
                                                   Management and Control of
Proactive and Joint Audit                          USGS’s Map Inventory
Efforts
                                                   Several OIG auditors have been working
As "agents of positive change" and in              with U.S. Geological Survey (USGS)
keeping with the Government’s reinvention          officials to resolve problems surrounding the
goals, OIG’s proactive and joint audit efforts     USGS’s inventory of maps and books that
continued throughout this reporting period.        had caused the OIG to qualify its opinion of
In addition to our traditional audit activities,   the USGS’s financial statements for fiscal
our auditors continued to devote a                 year 1995 and resulted in the USGS
significant amount of time in consulting with      initiating its Inventory Assessment and
and providing technical assistance to              Management Project to develop and



             Semiannual Report to the Congress: April 1, 1996 - September 30, 1996                5
implement solutions. As a result of joint          Coordinated GAO and OIG
efforts, the USGS has made significant             Efforts Enhance Efficiency of
progress in establishing accurate inventory
                                                   Financial Statement Audits
counts, establishing inventory quantities
based on product demand, and reducing
                                                   OIG and General Accounting Office (GAO)
significantly excess inventory levels.
                                                   auditors are working as a team on audits of
                                                   the bureaus’ financial statements. As
Requested Review Results in                        required by the Chief Financial Officers Act
More Efficient and Effective                       of 1990, GAO is auditing the financial
Operations Within the Office                       statements of the Federal Government, and
of Hearings and Appeals                            OIG is auditing the financial statements of
                                                   DOI and its bureaus. To prevent the
At the request of the Director, Office of          duplication of audit efforts, reduce the
Hearings and Appeals, OIG undertook a              amount of audit work that GAO must
review to determine whether the Hearings           perform, and reduce the disruption to the
Division was managing its case work load in        bureaus’ daily operations, OIG has
an efficient and effective manner. Our             coordinated its audit efforts in the areas that
review identified areas where cost savings         GAO is focusing on within DOI.
could be achieved and/or the efficiency of
case monitoring and processing could be            Audits of Accounting
improved as follows: (1) some of the field         Controls, Procurement
offices could be consolidated; (2) clerical        Practices, and Grant
pools could be established to enhance case
                                                   Administration Procedures
processing; (3) the automated case tracking
systems for Indian probate and public lands        Conducted in Cooperation
cases could be enhanced; and (4) the               With FEMA’s OIG
automated Indian probate case processing
system developed by a Hearings and Appeals         Under a cooperative agreement, OIGs of the
task force could be utilized more fully. We        Federal Emergency Management Agency
found that relocating and consolidating            (FEMA) and DOI, with participation from
certain field offices would result in cost         the U.S. Virgin Islands Bureau of Audit and
savings of about $161,000 in the first year        Control, conducted reviews of accounting
and about $747,000 per year thereafter. The        controls, procurement practices, and grant
Director agreed to implement all four of our       administration procedures of various
recommendations, which related to achieving        agencies of the Virgin Islands Government.
cost savings and improving the efficiency of       These proactive reviews were conducted in
case monitoring and processing.                    anticipation of the receipt by the Virgin
                                                   Islands Government of FEMA-approved
                                                   disaster grants in the aftermath of Hurricane
                                                   Marilyn, which struck the Virgin Islands on
                                                   September 15, 1995, causing major damage
                                                   to public and private structures and


6            Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
prompting the President to issue a major           the Center’s procedures for billing customers
disaster declaration. As a result of this          for its services. Based on the work of the
ongoing effort, seven audit reports were           Task Force, the Center’s cost allocation
issued during this period, which offered           procedures and billing rates were revised to
recommendations related to managing,               more closely reflect the cost of providing
controlling, and expending the disaster            services to DOI’s client offices.
grants. These reports were provided to the
Secretary of the Interior for use in his report    Requested Audit Reviews
to the Congress, as required by Section            Royalty-in-Kind Concept
203(b) of the Omnibus Insular Areas Act of
1992. The results of our audit efforts are
                                                   At the request of the Minerals Management
detailed in the "Significant Audits and
                                                   Service (MMS), we reviewed MMS’s
Investigations" section of this report.
                                                   natural gas royalty-in-kind pilot project, the
                                                   Royalty Gas Marketing Pilot. The Pilot
Financial Modernization                            project involves the taking of royalty gas in
Project Receives Audit                             kind (that is, accepting gas production
Assistance                                         instead of receiving cash payments) and
                                                   immediately selling the gas to marketers at or
At the request of the Governor of Guam,            near the lease sites through competitively
OIG’s North Pacific Region has begun a             awarded contracts. MMS’s objective in
review of the Government of Guam’s                 conducting this project was to streamline the
Financial Management Modernization                 royalty collection process and to improve the
Project. The purpose of this review is to          efficiency of gas valuations without
assist the Government in evaluating the            decreasing revenue collections. We found
project before the Governor submits                that MMS was effective in administering the
proposed legislation on budget reform.             Pilot and had demonstrated the feasibility of
According to the Government, the Project           taking gas royalties in kind as an alternative
was undertaken to address the inadequacy of        to the royalty-in-value system. However, as
existing budgetary and financial management        an alternative to taking gas in kind and
techniques and systems to meet the demands         subsequently marketing it, MMS should
of Guam’s government and Guam’s growing            explore the concept of taking and using the
economy.                                           gas. This concept, although more
                                                   administratively challenging, could offer
Auditor Participates on                            financial benefits to the U.S. Treasury. The
Interior Service Center Task                       results of our audit efforts on the royalty-in-
                                                   kind concept are detailed in the "Significant
Force
                                                   Audits and Investigations" section of this
                                                   report.
At the request of the Office of the Assistant
Secretary for Policy, Management and
Budget, an OIG auditor participated on an
Interior Service Center Task Force to review



             Semiannual Report to the Congress: April 1, 1996 - September 30, 1996              7
           INVESTIGATIVE MATTERS


D
         uring the past 6 months, the Office       The ACE initiative also allows us more
         of Investigations has conducted           flexibility in our investigative program and
         successful investigations that            the opportunity to create a larger deterrent
resulted in 43 indictments/informations,           effect with increased financial penalties.
28 convictions, and financial recoveries of        With the vast natural and valuable resources
$1,515,135. In addition to these                   that are entrusted to DOI, OIG believes it is
investigative activities, we have focused on       essential to employ all available sanctions to
special initiatives designed to enhance our        safeguard DOI programs.
law enforcement efforts.
                                                   In June, OIG and the Department of Justice
OIG Initiatives                                    (DOJ) cosponsored an ACE training
                                                   conference in Denver, Colorado, for DOI
                                                   and OIG elements located in the western
Affirmative Civil                                  United States. Attended by over 150 people,
Enforcement (ACE) Training                         the Denver conference brought together
Conference                                         various personnel from DOJ, several U.S.
                                                   Attorney’s offices, the audit and investigative
The Affirmative Civil Enforcement (ACE)            staffs of the OIG, the Office of the Solicitor,
program, a white-collar fraud initiative that      and many DOI bureaus. Through a
targets fraud in Federal procurement and           combination of presentations and workshops
programs, is a major initiative within the         led by individuals from each of the
OIG. Through the ACE program, the OIG              participating entities, the conference
believes that it can better utilize available      attendees learned the applicability of the
resources in investigating fraud directed at       ACE laws and the opportunities that the
DOI programs and activities. By focusing           program provides for combating fraud in
on investigations that involve fraudulent          DOI programs. During this reporting period,
activity and significant amounts of DOI            we also began planning a second conference,
funds, we can use the civil enforcement            which will be held in the Washington, D.C.,
process to obtain larger monetary recoveries       area in late October for the various DOI
and actually return DOI funds to programs          components responsible for operations in the
that have been victimized by the fraud.            eastern United States.

The OIG, which is responsible for
investigating allegations of fraud in DOI
programs, has traditionally utilized only
criminal statutes to obtain penalties.
However, the ACE initiative provides an
avenue for bringing civil charges against
individuals and companies that defraud DOI.


8            Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
Outreach Program                                  law enforcement officers, and the U.S.
                                                  Territories, OIG was named as one of the
The OIG continues to use and develop its          participants in the DOJ program deputizing
program of making "Fraud Awareness"               OIG special agents as Special Deputy U.S.
presentations to the numerous bureaus             Marshals during the upcoming year. The
throughout DOI and the country. Our               program, which was initiated last year, now
special agents have made presentations to         covers most of the OIGs and has resulted in
managers and employees that have focused          the formulation of a Memorandum of
on informing and educating DOI officials in       Understanding (MOU) with each respective
recognizing and reporting suspected               department. The MOU establishes the policy
fraudulent activity related to their specific     and guidelines for full law enforcement
programs. OIG has made such presentations         authority in the performance of criminal
in Washington, D.C.; Pennsylvania;                investigative activities. This should prove to
Kentucky; Georgia; Montana; California;           be very beneficial and assist greatly in
Colorado; and Arizona. We have found that         carrying out investigative activities that
"Fraud Awareness" presentations assist DOI        require law enforcement powers such as
personnel in better understanding the types       serving search warrants and making arrests
of activities that should be reported to OIG      incident to criminal activity or at the
for audit or investigative followup.              instruction of the Assistant U.S. Attorney.
                                                  This is a significant step in eliminating
                                                  repetitive and burdensome administrative
Memorandum of                                     requirements which, in some cases, meant
Understanding With                                that individual deputations had to be
Department of Justice                             obtained for each particular investigation.
                                                  The DOJ/OIG agreement is effective through
Because OIG has operated almost uniformly         August 1997 and will be reassessed at that
with blanket deputation authority for             time. We welcome the opportunity to
approximately 10 years because of the             participate with DOJ in this program
necessity of conducting investigations of         throughout the coming year.
criminal acts pertaining to violations
involving the Bureau of Indian Affairs (BIA),




            Semiannual Report to the Congress: April 1, 1996 - September 30, 1996             9
            CONGRESSIONAL HEARINGS


D
         uring this reporting period, the          dating back as far as October 1982. These
         Inspector General testified before        nine reports contained 63 recommendations
         two Congressional subcommittees           for corrective action based on weaknesses or
and the Legislature of the U.S. Virgin Islands     deficiencies identified during the audits.
as follows:
                                                   Regarding the audit report on the
Commonwealth of the                                management of public lands, the Inspector
Northern Mariana Islands                           General reported that the Commonwealth
                                                   had lost $118.4 million on completed
Audits
                                                   exchanges of public land, could lose an
                                                   additional $70.1 million on pending
On June 26, 1996, Inspector General
                                                   exchanges, and lost revenues of $25.1
Wilma A. Lewis testified before the
                                                   million on exchanged public land that was
Subcommittee on Native American and
                                                   leased to a developer by landowners. She
Insular Affairs, Committee on Resources,
                                                   noted that these problems arose because the
U.S. House of Representatives, on the
                                                   Commonwealth did not exchange public land
Federal-Commonwealth of the Northern
                                                   for private land of comparable value, use
Mariana Islands initiatives and related
                                                   current land valuations in land exchanges,
legislative reforms on labor, immigration,
                                                   and consider the revenue that could be
and law enforcement. Specifically, the
                                                   realized from the commercial development of
Inspector General was asked to comment on
                                                   public land exchanged. In addition, she
OIG audits performed on the
                                                   reported that because policies and
Commonwealth during the past 3 years,
                                                   procedures were not implemented properly
including a discussion of an audit report,
                                                   to ensure that appropriate lease agreements
issued in March 1996, on the management of
                                                   were established and were managed
public lands, and to discuss the
                                                   effectively, lease revenues of $565,000 were
Commonwealth’s response and constructive
                                                   lost and the Government may lose additional
actions, or lack thereof, to resolve issues
                                                   lease revenues of $469.2 million over the
raised in the audit reports.
                                                   unexpired period of the 12 leases that we
                                                   reviewed.
The Inspector General testified that, during
the past 3 years, the OIG has issued nine
                                                   The Inspector General noted that the
audit reports to Commonwealth officials.
                                                   Commonwealth did not respond to our
These audits covered a variety of financial
                                                   November 1995 draft report but that we
and program areas and included audits
                                                   received a response from the Governor after
whose objective was to report on the
                                                   our March 1996 final audit report was
Commonwealth’s implementation of
                                                   issued. However, Commonwealth officials
recommendations made in audit reports
                                                   did not agree with or adequately address all


10           Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
of our recommendations; therefore, six of the      needs, and its ability to carry out its
seven recommendations were unresolved.             operations in an efficient and cost-effective
(On August 8, 1996, the Inspector General          manner.
sent a followup letter to the Governor
requesting additional information for the          In addition to questions posed during the
unresolved recommendations. However, a             hearing, the Subcommittee submitted four
response had not been received as of               written questions to the Inspector General
September 30, 1996. The letter was also            regarding the Commonwealth’s land
provided to the Subcommittee.)                     exchanges. Specifically, the Subcommittee
                                                   requested the aggregate cost of all the
Regarding responses to audit reports, the          amounts identified in the Inspector General’s
Inspector General testified that                   statement, an updated estimate of the lost
Commonwealth officials reported that they          revenues resulting from the mismanagement
had implemented 36 of the 54 audit                 of public lands in the Commonwealth,
recommendations made by OIG during the             information on other audits conducted in the
past 3 years and that 9 of the remaining 18        Commonwealth and on the timeliness of
recommendations had been resolved.                 responses, and the actions recommended to
However, she also noted that followup              ensure the proper and adequate accounting
reports on earlier recommendations                 of public funds in the Commonwealth.
concerning the Capital Development Funds
and the Economic Development Loan Fund             In her July 10, 1996, response to the
showed that, although recommendations had          questions, the Inspector General stated that
been reported as resolved, they were not           the monetary amounts identified in the nine
always implemented. Further,                       reports cited in her statement totaled $770.8
recommendations reported as implemented            million; that OIG did not have the additional
were not always implemented fully or               information needed to update the estimated
effectively.                                       $25.1 million of lost revenues; that 2 grant
                                                   audits were performed and 17 single audits
The Inspector General concluded her                were reviewed and processed during the past
testimony by stating that the long-range           3 years; and that implementation of audit
strategy developed by the OIG for the              recommendations and future technical
Commonwealth has focused, and will                 assistance by the Federal Government would
continue to focus, on revenues and                 help ensure the proper and adequate
expenditures of government operations. The         accounting of public funds in the
emphasis was on these areas, according to          Commonwealth.
the Inspector General, because our audits
have repeatedly raised questions about the         The Subcommittee also submitted written
Commonwealth’s ability to raise sufficient         questions to the Inspector General relating to
revenues locally to fund government                certain disputes over property interests on
operations and a portion of its infrastructure     Water Island in the U.S.Virgin Islands.
                                                   Specifically, the Subcommittee requested the
                                                   amount of the annual lease rents being



             Semiannual Report to the Congress: April 1, 1996 - September 30, 1996             11
collected by DOI from each lessee and the          Statement, issued in May 1996, was not
amount of rents being collected from all of        initiated after the 1992 expiration of the
the sublessees, including those in Sprat Bay.      lease; and what DOI’s position was on the
Because of the Inspector General’s prior           value of the possessory interest in the hotel
involvement in related litigation involving        on Water Island and what the Court had
Water Island while she served as an                ruled on this issue.
Associate Solicitor for DOI’s Office of the
Solicitor, she recused herself from this           The General Counsel stated that he had no
matter, and all questions were referred to         information to directly respond to these
Richard N. Reback, the Chief of Staff and          questions. However, the General Counsel
General Counsel in the OIG.                        cited our September 1985 audit report
                                                   "Lease to Water Island, U.S. Virgin Islands,"
The Chief of Staff and General Counsel’s           which stated that from 1972 through 1981,
July 9, 1996, response to the Subcommittee         documentation was not available to verify
stated that the United States lease agreement      that the rent was actually paid or received or
with the master lessee required payment of a       to substantiate the lessee’s gross receipts.
fixed rent of $3,000 per calendar year, plus 3     That audit report also noted that the interests
percent of gross receipts over $200,000 but        of the Federal Government were not
not more than $300,000 and 4 percent of            adequately protected by the terms and
gross receipts over $300,000. The most             conditions established in the lease; that is, the
recent information on the amount of annual         lease placed DOI in an "unfavorable
rental payments is contained in our March          position" because when the lease expired, it
1988 audit report entitled "Water Island           allowed the lessee to occupy the island
Rental Payments." The report states that the       indefinitely until a successor was found and
master lessee paid rent of $221,031 and            fair compensation was paid for possessory
$43,018 for calendar years 1985 and 1986,          interests.
respectively. The General Counsel further
explained that DOI does not collect rents or       Bureau of Land Management
fees from any sublessee, including those in        Nevada Land Exchanges
Sprat Bay, but that the master lessee collects
annual rents of $25 or $100 from each of its
sublessees and an annual rent of $100 from         On July 30, 1996, Inspector General
Sprat Bay.                                         Wilma A. Lewis testified before the
                                                   Subcommittee on National Parks, Forests,
The Subcommittee also asked whether the            and Lands, U.S. House of Representatives,
requirement to collect rent ended or changed       about OIG’s audit of land exchange activities
at the expiration of the 40-year lease;            conducted in the State of Nevada by the
whether rents were being properly collected        Bureau of Land Management (BLM).
and accounted for; what management
practices had contributed to the delay in
resolving the transfer of title to Water Island
properties; why the Environmental Impact



12           Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
The Inspector General stated that while            that land exchanges are processed in full
BLM’s Nevada State Office had acquired             compliance with applicable laws and
some high quality properties by exchanging         regulations.
lands with private entities (proponents), it
did not consistently follow prescribed land        The Inspector General stated further that the
exchange regulations or procedures and             audit found that in three of the four
ensure that fair and equal value was received      exchanges reviewed, the State Office
in completing three of the four exchanges we       exchanged a total of 446 acres of Federal
reviewed. She explained that this occurred         land within the land sale area designated by
because State Office management wanted to          the Santini-Burton Act (Public Law 96-586).
expedite the exchanges, given that the             She explained that Santini-Burton legislation
proponent had willing buyers available or          does not specifically prohibit BLM from
land purchase options that were close to           exchanging lands in the sale area under the
expiring. In other instances, management           authorities provided by the Federal Land
proceeded with an exchange in a certain            Policy and Management Act. However, she
manner without documenting the rationale           said it was clear that the Congress intended
used to support the action. As a result, the       proceeds from the sale of lands within the
State Office exchanged BLM land for 2,461          designated area to be used to offset the costs
acres of private land, valued at $2.7 million,     incurred for the Lake Tahoe Basin land
that was not in conformance with current           acquisitions in order to keep the costs of
land-use plans and therefore had no                enacting the Santini-Burton legislation
discernible mission-related purpose. In            nominal. In that regard, the Inspector
addition, the Government may have lost             General said that because these lands were
about $4.4 million in completing three of the      exchanged rather than sold, sales revenues of
exchanges reviewed. She also indicated that        at least $9.2 million were not generated, of
the State Office has a unique opportunity to       which about $7.8 million would have been
use its highly marketable Las Vegas lands to       remitted to the U.S. Treasury to repay
acquire more land for mission-related              incurred Lake Tahoe Basin land acquisition
purposes and could take maximum                    costs. She noted that at the time of our
advantage of this opportunity by introducing       review, the Lake Tahoe Basin acquisition
competition into the disposal process for the      costs of $93 million reportedly exceeded the
Las Vegas lands. To improve operations in          sales revenues remitted to the U.S. Treasury
these areas, the Inspector General                 by about $40 million. Accordingly, the
recommended that the Director of the               Inspector General said that recommendations
Nevada State Office institute competitive          were made that the Director of the Nevada
procedures (sale or competitive exchange)          State Office should use the land sales
into the land disposal process, take               process, except in compelling circumstances,
appropriate action to have unneeded                when disposing of its Santini-Burton Act
easements removed from Federal lands               lands until the sales revenues generated
before processing transactions for the             closely approximate the Lake Tahoe Basin
exchange or sale of those lands, and establish     acquisition costs.
the controls necessary to ensure                   In a related issue, the Inspector General



             Semiannual Report to the Congress: April 1, 1996 - September 30, 1996             13
stated that the State Office initiated an          The Inspector General stated, "There is
exchange of 25 acres of BLM’s Las Vegas            reason for the Government [of the U.S.
area lands, valued at $665,000, in order to        Virgin Islands] to pause before embarking on
obtain a defunct bowling alley with the            a course of this magnitude." Citing basic
intention of using this facility as an             Federal grant guidelines contained in OMB
administrative complex for the Tonopah             Circular A-87 and the "Uniform
Resource Area. She said she provided               Administrative Requirements for Grants and
information on this exchange because such          Cooperative Agreements to State and Local
exchanges may not represent the most               Governments" (the Common Rule), the
effective use of Federal land and because          Inspector General noted that several
BLM personnel said that additional                 impediments existed for the proposed
proposals to acquire administrative facilities     course of action as follows:
through land exchanges may be forthcoming
based on the precedent set at Tonopah.                     - To the extent that unexpended
                                                   Federal funds are used to make payments to
Legislature of the                                 employees whose positions were not funded
                                                   by the specific grant programs from which
U.S. Virgin Islands
                                                   the unexpended funds were taken, such costs
                                                   would be unallowable in accordance with
On September 27, 1996, Inspector General
                                                   Circular A-87 (Attachment A, Sections C.1a,
Wilma A. Lewis testified by teleconference
                                                   C.1b, and C.1d).
before the Committee of the Whole of the
Legislature of the U.S. Virgin Islands about
                                                           - Although Circular A-87
basic guidelines for the use of Federal grant
                                                   (Attachment A, Section C.1h) and the
funds by state and local governments. The
                                                   Common Rule (Subpart C, Section .23)
Legislature was considering, as part of the
                                                   allow carryover funds and unobligated
Government of the Virgin Islands fiscal year
                                                   balances of Federal grants to be used, if
1997 operating budget, a proposal to use
                                                   permitted by the specific grant program, for
unexpended Federal grant funds to pay a
                                                   obligations in subsequent periods, no
portion of retroactive salary increases due
                                                   provision is made for the use of unobligated
Virgin Islands Government employees. The
                                                   balances for the payment of obligations
proposal, contained in Section 10 of Bill No.
                                                   incurred in prior periods.
21-0265, would have appropriated
$40 million in unexpended Federal funds,
                                                            - Each Federal grant program has
along with $8.9 million in savings from
                                                   very specific program requirements and
unfilled vacant positions and $15 million
                                                   restrictions as to how program funds are to
from the Virgin Islands Transportation Trust
                                                   be used.
Fund, to pay the salary increases to locally
and Federally funded employees.
                                                   The Inspector General suggested that the
                                                   most prudent course of action for the Virgin
                                                   Islands Government would be to: (1)
                                                   determine the specific Federal grant



14           Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
programs and related unexpended balances          As of October 1, 1996, the Legislature was
that make up the $40 million and (2) contact      still debating Section 10 of Bill No. 21-0265.
each of the appropriate Federal grantor
agencies to determine under what conditions,
if any, the unexpended balances can be used
for retroactive salary increases
to Virgin Islands Government employees.




            Semiannual Report to the Congress: April 1, 1996 - September 30, 1996            15
            LEGISLATIVE REVIEW


D
        uring this reporting period, OIG           OIG commented that the provision providing
        reviewed several hundred legislative       up to 2 percent of available agency
        items and, where appropriate,              appropriations for financial management
provided comments. OIG performed these             system improvements, particularly in this
reviews to monitor legislative proposals and       time of budgetary constraints, would present
evaluate their potential for promoting             an undue hardship on the remaining
economy and efficiency and preventing              programs of an agency.
fraud, waste, and mismanagement in the
programs and operations of DOI, as required        OIG also provided comments on S 1579,
by Section 4(a)(2) of the Inspector General        Single Audit Act Amendments of 1996.
Act of 1978, as amended.                           OIG supported passage of the Act,
                                                   particularly that portion providing for the
OIG provided comments on S 1130, The               Director of the Office of Management and
Accounting Standardization Act of 1995, in         Budget to designate a Federal clearinghouse
response to OMB’s request for views. The           to identify recipients that expend $300,000
purpose of the proposed Act was to provide         or more in Federal awards during the
a uniform consistency of accounting by a           recipient’s fiscal year but did not undergo an
Federal entity, increase the accountability of     audit, as required by the Single Audit Act.
Federal financial management, and increase
Federal agencies’ ability to monitor budget        OIG noted that agencies typically track only
execution.                                         the awards they have made and typically do
                                                   not aggregate all the awards made to an
OIG did not support the passage of the             entity. Thus, an entity that ought to be
proposed Act. OIG commented that the               undergoing an audit under the Single Audit
requirements of the proposed Act duplicated        Act sometimes is not. A Federal
existing auditing requirements. Further, OIG       clearinghouse, as proposed in the
disagreed with the requirement that                amendments, would be in a better position
individuals found not to comply substantially      than an individual agency to identify all
with the proposed Act should be identified,        awards made to a single entity and thus
because actually identifying such individuals      ensure that the required audit was performed.
would be extremely difficult and would be
without any foreseeable benefit. Finally,




16           Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
             SIGNIFICANT AUDITS AND
             INVESTIGATIONS
                                                   $1.2 million to rectify. BIA agreed with all
Bureau of Indian                                   seven of our recommendations to correct the
Affairs                                            deficiencies.

                                                   School Grant Expenditures
Deficiencies in Road                               Not Supported Adequately
Construction Program Cited
                                                   We identified grant expenditures made by the


A
          lthough the Indian reservation roads     Circle of Nations Wahpeton Indian School
          we reviewed were generally well          totaling about $117,650 which occurred
          constructed, some road construction      during school years 1993-1994 and 1994-
projects contained planning and design             1995 that were not adequately supported or
deficiencies and/or construction deficiencies      that were not in conformance with applicable
that were avoidable. These planning and            Federal cost principles. In addition, the
design deficiencies included incomplete and        financial statements audit for the school year
inaccurate project plans and specifications,       ended June 30, 1994, reported that School
inaccurate surveys and inadequate analyses         expenditures exceeded revenues by about
of site conditions, and projects that were         $290,000. Further, BIA did not comply with
started late in the construction season. The       key provisions of the September 1994
plans and designs contained deficiencies           memorandum of agreement between the
primarily because BIA rushed to award              Wahpeton Indian School Board and BIA’s
contracts or complete work to obligate funds       Office of Indian Education Programs
so that unused funds would not have to be          pertaining to BIA’s funding and oversight
returned to the Federal Highway                    responsibilities. Specifically, financial
Administration; had inexperienced personnel        resources needed to fund the School’s
performing road construction tasks; and did        program for implementing its therapeutic
not review plans and specifications                community school model were not identified,
adequately. Consequently, completion of the        implementation team reports were not
projects was delayed, and excess costs of          prepared timely, and a school support team
about $3.3 million were incurred. In               was not established. Further, the School
addition, some deficiencies occurred because       Board and relevant state and local agencies
BIA did not adequately monitor or control          of North Dakota had not completed an
the performance of construction crews and          agreement regarding child protection and law
did not verify both the test results of            enforcement because jurisdictional issues
materials and the quantities and qualities of      related to the School had not been resolved.
materials used. These construction                 Finally, the School did not prepare an annual
deficiencies resulted in excess costs of about     written plan required by the Improving


             Semiannual Report to the Congress: April 1, 1996 - September 30, 1996            17
America’s School Act of 1994 for the               because experienced Area Office credit staff
therapeutic model in a timely manner. As           retired and were not replaced. Of the seven
such, we concluded that the School’s               recommendations contained in our report,
implementation of the therapeutic model will       BIA concurred with the four
be impacted adversely if these issues are not      recommendations regarding debt collection
resolved. The report made no                       and was asked to reconsider its response to
recommendations because the purpose of our         the two recommendations pertaining to
review was to determine, and subsequently          collateral for guaranteed loans and one
present information on, whether grant funds        recommendation on renegotiating loan
were spent in accordance with grant                repayment provisions.
agreements and whether BIA complied with
the September 1994 agreement. However,             Credit Card Used Illegally
our report identified several matters that
adversely impacted the School’s                    A former game warden for a California
implementation of the therapeutic model, and       Indian tribe used a tribal government credit
we believe that BIA should focus its efforts       card to obtain personal goods and services in
on completing implementation of the                excess of $8,700. The credit card was used
agreement. We requested and received               to purchase firearms that included an AK-47
comments from both BIA and the School              rifle, an UZI 9 mm assault weapon, and a 12-
regarding the grant expenditures and the           gauge shotgun. The subject pled guilty to
actions that BIA and the School took to            one count of a five-count indictment
implement the therapeutic model. In its            charging embezzlement of tribal funds. As
responses, neither BIA nor the School              part of the plea agreement, the subject
adequately addressed the issues in the report.     agreed to cooperate in the investigation and
                                                   subsequently testified as a Government
Improvements in                                    witness in a related trial. The subject was
Administration of Delinquent                       sentenced to 3 years of probation and was
Loans Needed                                       ordered to pay $625 in restitution to the
                                                   tribe.
BIA’s Phoenix Area Office did not
adequately administer delinquent loans.            Grant School Funds
Specifically, the Area Office: (1) did not         Embezzled
aggressively pursue the collection of
delinquent loans totaling about $14.7 million;     An OIG investigation disclosed that three
(2) did not adequately secure its interest in,     former employees of a BIA grant school in
appraise, and liquidate collateral for 21 of       Arizona converted over $150,000 in school
the 33 loans reviewed; and (3) canceled or         funds to personal use. All subsequently pled
waived interest totaling $3.4 million on a         guilty after being indicted by a Federal grand
direct loan without proper authority. These        jury in Phoenix, Arizona.
deficiencies existed because required debt
collection practices and collateral liquidation
were not routinely performed, primarily


18           Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
On February 12, 1996, the first employee           Three Sentenced for
was sentenced to 5 years of probation and          Embezzlement and Theft
was ordered to pay $19,354.54 in restitution
to the school. The second employee was             A state senator, the chairman of a
sentenced on February 26, 1996, to 15              midwestern state’s band of Indians, and the
months in prison and 3 years of probation          band’s secretary/treasurer were indicted in an
and was ordered to pay $98,744.47 in               extensive criminal conspiracy to steal
restitution to the school. (Sentencing of          approximately $1 million from the band.
these two employees was reported in our last       During April 1996, the state senator, who
Semiannual Report.) The third employee             served as the band’s attorney during the
was sentenced during this reporting period to      period covered in the indictment, was
4 months in prison, 4 months of home               convicted of multiple criminal charges,
detention, and 3 months of supervised              including conspiracy, mail fraud, and theft
probation and was ordered to pay                   totaling approximately $630,000. The
$51,763.88 in restitution to the school.           chairman was convicted of conspiracy and
                                                   theft totaling $550,000, and the secretary/
Fraud in Obtaining Loan                            treasurer was convicted of conspiracy.
Discovered
                                                   In September 1996, the state senator was
An OIG investigation disclosed that the            sentenced to 57 months in prison, 3 years of
former credit officer of a South Dakota            supervised release, and 600 hours of
Indian tribe conspired with a husband and          community service and was ordered to pay
wife in a fraudulent scheme to obtain a            $25,600 in fines and $400,000 in restitution
$215,000 BIA direct loan. The husband and          to the tribe. Following his conviction, the
wife used the $215,000 in loan proceeds to         individual resigned from the senate, and his
purchase a business from the credit officer        license to practice law was suspended. The
and then defaulted on the full amount of the       chairman, who resigned from his position,
loan. The investigation also disclosed that        was sentenced to 33 months in prison and 2
the credit officer had previously falsified BIA    years of supervised release and was ordered
and other documents to obtain a $150,000           to pay $150 in fines and $66,440 in
loan through a private lending institution         restitution to the tribe. The
insured by the Federal Deposit Insurance           secretary/treasurer was sentenced to 12
Corporation.                                       months of home detention and 2 years of
                                                   probation and was ordered to pay $7,500 in
The husband and wife each pled guilty to one       fines and $31,412 in restitution to the tribe.
false statement count and were each
sentenced to 5 years of probation, were fined      Indian Tribal Funds
$1,550, and were ordered to pay $107,500 in        Embezzled
restitution. In June 1996, the credit officer
pled guilty to one false statement count and       In November 1992, the Federal Bureau of
was scheduled to be sentenced in October           Investigation requested OIG audit and
1996.                                              investigative assistance with a financial


             Semiannual Report to the Congress: April 1, 1996 - September 30, 1996             19
investigation at an Arizona Indian school.        based on supporting documentation, 700
A subsequent OIG audit and investigation          (8 percent) of the more than 9,200 required
showed that between l990 and l992, the            inspection items at the seven field offices had
school’s business manager improperly wrote        not been inspected for at least 5 years. In
checks totaling $102,000 to himself. In May       addition, none of these field offices had
1995, a Federal grand jury in Phoenix,            properly classified inactive oil and gas wells,
Arizona, returned a three-count indictment        BLM’s minimum bond requirements were
charging the business manager with                often not sufficient to protect the
embezzlement of $102,000 in Indian tribal         Government in the event that a lease
funds. In April 1996, the subject entered         operator defaulted, and BLM routinely
into a plea agreement and pled guilty to          approved lease assignments without
embezzlement and theft from an Indian tribal      considering bond adequacy. As a result of
organization. The subject was sentenced to        insufficient bonds, the Government has
15 months in prison, was ordered to pay           plugged, since fiscal year 1991, 131 orphan
restitution of $102,000, and was fined $500.      wells, at a cost of about $1.6 million, and is
                                                  currently liable for plugging over 300
                                                  additional orphan wells, at a cost estimated
Bureau of Land                                    to exceed $3 million. In addition to cost,
Management                                        orphan wells may contaminate groundwater
                                                  and other resources. BLM concurred with
                                                  all 11 of our recommendations to improve
Inspection and Enforcement                        controls over the inspection and enforcement
Program Improvements                              program and to ensure that inactive wells are
Needed                                            properly reviewed and sufficiently bonded.

Although BLM generally complied with the          Fair and Equal Value Not
requirement of the Federal Oil and Gas            Always Received in Land
Royalty Management Act for inspecting             Exchanges
annually all Federal and Indian oil and gas
leases that had significant production or a       While some high quality properties were
history of regulatory noncompliance (as           acquired by exchanging lands with private
defined by BLM), improvements were                entities, BLM’s Nevada State Office did not
needed to more effectively accomplish             consistently follow land exchange regulations
program objectives. Specifically, 908 (61         or procedures and did not ensure that fair
percent) of 1,482 inspections conducted to        and equal value was received in completing
ensure overall production accountability          three of the four exchanges we reviewed. As
were performed on leases that had minimal         a result, the State Office exchanged 2,461
production, including 46 production               acres of private land, valued at $2.7 million,
inspections of leases that had no production;     that was not in conformance with current
65 (55 percent) of the 118 inspections            land-use plans and therefore had no
conducted at seven field offices were either      discernible mission-related purpose. In
incomplete or performed inadequately; and,        addition, the Government may have lost


20          Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
revenues of $4.4 million in completing three        Occupancy Trespass
of the four exchanges reviewed. Also, the           Resolution Not Actively
State Office exchanged rather than sold land
                                                    Pursued
within the land sale area designated by the
Santini-Burton Act. While the Act does not
                                                    Four of the five BLM resource areas we
specifically prohibit land exchanges, we
                                                    visited did not assign a high priority to
believe, based on our General Counsel’s
                                                    resolving occupancy trespass, including
legal review of the legislation, it is clear that
                                                    occupancy trespass on unpatented mining
the Congress intended the lands within the
                                                    claims, and were not systematically
designated area to be sold to offset the costs
                                                    identifying, recording, and resolving
incurred for Lake Tahoe Basin land
                                                    occupancy trespass cases. During fiscal
acquisition. We concluded that because 446
                                                    years 1993 and 1994, the four resource areas
acres of Federal land were exchanged rather
                                                    had identified only 10 and resolved only 14
than sold, the Government relinquished the
                                                    occupancy trespass cases out of a backlog of
opportunity to repay about $7.8 million of
                                                    160 such cases. BLM Resource Area
the costs incurred to acquire Basin land. At
                                                    Managers who assigned a low priority to the
the time of our review, the Government had
                                                    resolution of occupancy trespass stated that
a shortfall of $53 million for Basin land
                                                    they did so because of the cumbersome and
acquisitions, based on $93 million of costs
                                                    costly processes required for resolution,
incurred against $40 million of revenues
                                                    concern for the safety of employees involved
collected. Furthermore, we believe that the
                                                    in trespass cases, and the need to focus on
State Office may not have acted in the
                                                    other activities with higher priorities. In
Government’s best interests in exchanging
                                                    contrast, the remaining resource area, which
25 acres of BLM’s Las Vegas area lands,
                                                    had assigned a high priority to resolving
valued at $665,000, to obtain a defunct
                                                    occupancy trespass, had identified and
bowling alley for use as an administrative
                                                    recorded 88 new cases of trespass and
complex for the Tonopah Resource Area.
                                                    resolved 107 cases during the same period.
BLM officials concurred with the three
                                                    Trespass on the public lands created health
recommendations regarding land exchanges.
                                                    and safety hazards, restricted public access,
Regarding the Santini-Burton Act, we asked
                                                    and resulted in cleanup costs of up to
BLM to reconsider its response to the
                                                    $27,000 per instance. We verified, through
recommendation regarding submission of
                                                    site visits, the existence of significant
accounting reports and to provide an
                                                    amounts of trash and violations of local
additional response to the recommendation
                                                    building, fire, health, and sanitation codes.
regarding the use of land sales except in
                                                    We also noted during the site visits that
compelling circumstances.
                                                    fences and "No Trespassing" signs restricted
                                                    public access to rivers and other recreation
                                                    areas, and that significant cleanup needed to
                                                    be performed. BLM concurred with our two
                                                    recommendations to promulgate regulations
                                                    concerning mining occupancy trespass and
                                                    financial guarantees and to instruct Resource


              Semiannual Report to the Congress: April 1, 1996 - September 30, 1996           21
Area Managers to work with local law              completed by BLM. We also noted that the
enforcement to address the threat of violence     Bureau of Reclamation (BOR) had generally
to BLM employees. We revised, and                 identified and reported to BLM lands that
requested BLM to reconsider, the two              were no longer needed for the purposes for
recommendations relating to developing an         which they were withdrawn. BLM and BOR
action plan for resolving existing cases and      generally agreed with our three
seeking appropriate legislative changes to        recommendations to address the processing
provide a range of penalties for occupancy        of the land withdrawal reviews already
trespass.                                         completed and to complete the remaining
                                                  withdrawal reviews.
Compliance With Withdrawn
Lands Mandate Inadequate                          Bureau of
Although the Federal Land Policy and              Reclamation
Management Act of 1976 required the
Secretary of the Interior to review, by           Policy for Valuation of
October 1991, certain existing land
                                                  Project Facilities Proposed
withdrawals and to recommend to the
President whether to continue, modify, or         for Sale Nearly Completed
terminate the withdrawals, we found that
none of the 4,100 withdrawals, covering           BOR had made considerable progress in
about 46 million acres, as estimated by BLM,      implementing the three recommendations
had been processed through DOI. Also,             contained in our prior audit report on the
BLM had completed another 335 withdrawal          valuation of project facilities proposed for
reviews that were forwarded for DOI               sale. Specifically, BOR issued a framework
processing and was holding another 1,057          policy for the title transfer of facilities
reviews that were completed by its field          proposed for sale. However, the framework
offices pending DOI action on the 335             policy did not fully address the title transfer
reviews previously submitted. We believe          of complicated projects and did not require
that the reviews were not processed through       the development of a range of valuation
DOI because of disagreements between              methods to determine the fair value of
BLM and the Office of the Solicitor               projects. In addition, non-Federal entities
concerning procedures for conducting the          interested in acquiring facilities continued to
withdrawal reviews and because of DOI’s           present, directly to the Congress, sales
lack of emphasis in completing the                legislation that was not in compliance with
withdrawal reviews. As a result, BLM              BOR policy or that did not protect the
estimated that about 25 million acres of          interests of project beneficiaries and the
withdrawn public lands were no longer             general taxpayers. By expanding the
needed for the purposes for which they were       framework policy to address these issues,
withdrawn, including 8.7 million acres of         BOR should enhance its ability to complete
land withdrawals recommended for                  its plans to transfer the ownership of projects
termination in the 1,392 reviews currently        and facilities at a fair return and protect the



22          Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
interests of the taxpayers. Since BOR had         Internal Control
implemented or partially implemented the          Improvements Over
prior report’s recommendations, we made no
                                                  Development Fund Needed
additional recommendations.
                                                  BOR generally complied with the legislative
Improvements to Financial                         requirements that apply to receipts and
Administration of                                 expenditures of the Lower Colorado River
Conservation Commission                           Basin Development Fund for fiscal year
Instituted                                        1995. However, BOR could strengthen its
                                                  internal controls if it would formulate written
The Utah Reclamation Mitigation and               procedures to account for Fund receipts and
Conservation Commission was generally             expenditures. Also, BOR had not completed
established in accordance with the                its required Central Arizona Project reports
Reclamation Projects Authorization and            on Fund activity for fiscal years 1994 and
Adjustment Act of 1992 (Public Law 102-           1995. BOR concurred with our
575). However, we confirmed that the              recommendation to develop procedures to
Commission had not established adequate           account for Fund receipts and expenditures
financial and administrative policies and         and implemented our recommendation to
procedures, as reported by the Commission’s       complete the two Project reports.
contracted certified public accountant in a
June 1995 audit report. As a result, the          Contractor’s Claim Not
Commission’s accounting records of the            Substantiated
receipt and expenditure of funds for fiscal
years 1994 and 1995 were not auditable.           We performed audits of resubmitted claimed
Thus, we could not determine whether              costs for a contractor and two
administrative and mitigation funds were          subcontractors. The original claims were
expended in accordance with the Act.              audited during 1995. The contractor
However, we found that the Commission             proposed and filed claimed costs of
was actively pursuing the necessary               $31,040,071 for constructing a visitors
corrective actions to implement sound             center and parking structure at Hoover Dam,
administrative and financial management           Nevada. The contractor’s portion of the
systems in response to the certified public       claimed amount was $17,540,572. We
accountant’s report. Accordingly, our report      questioned $7,349,810 of this amount
contained no recommendations.                     because the costs were for unsupported field
                                                  labor costs, direct costs covered by the
                                                  modified contract, unsupported forecasted
                                                  direct costs, bid errors, materials and
                                                  services not supported or allowed, excess
                                                  home office overhead costs resulting from
                                                  using the proposed overhead rate instead of
                                                  the audited rate, profit, bond and insurance



            Semiannual Report to the Congress: April 1, 1996 - September 30, 1996             23
costs associated with the other questioned
costs, unallowed costs of money expenses,         U.S. Fish and
and unallowed requests for equitable
adjustment and claim preparation costs.
                                                  Wildlife Service
A subcontractor that performed excavation,        Costs Claimed Under Grants
blasting, filling, grading, and other work at     Questioned
the site claimed costs of $2,496,438 as part
of the $31,040,071 claim. We questioned           We audited funds expended for sport fish
costs of $752,873 because they were               and wildlife restoration and endangered
financing costs that were unallowed, bond         species grants for Guam and the
and insurance costs that were not incurred,       Commonwealth of the Northern Mariana
excess home office overhead expenses that         Islands. The audits were in the resolution
resulted from using the claimed rate versus       process at the end of this reporting period.
the audited rate, and direct costs that were
already covered by the modified subcontract.      In the first audit, we reviewed $751,242 of
                                                  the $3,240,175 expended from October 1990
A second subcontractor that performed             through September 1994 by the Government
concrete reinforcement work required under        of Guam. Of this amount, we questioned
the contract claimed $2,045,462 as part of        $321,194, which consisted of unsupported
the $31,040,071 claim. We questioned costs        personal services costs of $165,358 and
of $822,533 for field costs, second-tier          related indirect costs of $37,130;
subcontractor expenses, office overhead,          procurement costs of $41,423, in which
profit, bond and insurance expenses, and          vendor selection was not adequately
contract modifications already settled            supported; unsupported sole source
because these costs were unallowable or           procurement costs of $31,034; costs of
unsupported or exceeded actual costs.             $33,800 for the improper use of grant funds;
                                                  and unsupported travel costs of $12,449.
The contractor filed a claim in the U.S.
Court of Federal Claims, but no court date        In the second audit, we reviewed $1,000,263
has been set. Therefore, audits of the            of the $1,240,523 expended from October
contract and the subcontracts were in the         1992 through September 1994 by the
resolution process at the end of this             Commonwealth of the Northern Mariana
reporting period.                                 Islands. Of this amount, we questioned
                                                  $858,267, which consisted of excess indirect
                                                  costs of $116,425; unsupported personal
                                                  services costs of $655,215; unsupported
                                                  travel costs of $21,834; procurement costs
                                                  of $41,401, in which vendor selection was
                                                  not adequately supported; costs of $2,331
                                                  for the improper use of grant funds; and
                                                  indirect costs of $21,061 related to



24          Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
questioned direct costs. In addition, the          our recommendations and agreed to
Commonwealth government did not collect            implement the remaining three
approximately $30,000 in boat slip rental          recommendations, which pertained to using
fees, as required under the Boating Access         statistical methods for ensuring accurate
Program.                                           inventory counts, establishing and
                                                   implementing an inventory reduction
                                                   program, and ensuring that maps are
U.S. Geological                                    recorded in the Federal Financial Inventory
Survey                                             System.


Production and Storage of                          Employee Sentenced for
Maps and Books Need                                Embezzlement
Improvement                                        A USGS employee in Wyoming signed and
                                                   improperly issued 74 USGS third-party draft
The USGS was not effectively managing the          payments, totaling $32,050. The employee
production and storage of maps and books.          falsified contract documents in an attempt to
Specifically, the USGS had not conducted           conceal the embezzlement. Seventy-two of
physical inventories and updated inventory         the drafts were made payable to a non-DOI
records, implemented an inventory reduction        individual, who negotiated the drafts and
plan, formalized methods for ordering maps,        split the proceeds with the USGS employee.
and established time requirements for              The employee also issued two other drafts to
processing printing requests. As a result,         an associate, who cashed the drafts and gave
inventory records were inaccurate, excess          the money to the employee. On November
maps and books were being printed and              29, 1995, a Federal grand jury indicted the
stored, and a large portion of the inventory       employee and the non-DOI individual on one
was excess and obsolete. OIG had reported          count of conspiracy and three counts of
on these conditions in a prior audit, but the      embezzlement of public funds.
USGS had not fully implemented the prior
audit’s recommendations. We concluded              In February 1996, the non-DOI individual
that the $83.7 million balance reported in the     pled guilty to one count of conspiracy to
fiscal year 1994 financial statements for          defraud the Government, and the employee
inventory held for sale could not be               pled guilty to theft of Government funds.
substantiated because the formula for              On March 29, 1996, the non-DOI individual
computing the inventory balance contained          was sentenced to 12 months in prison and 3
errors; the USGS did not have accurate             years of supervised probation and was
historical cost data; and inventory records        ordered to participate in drug and alcohol
were inaccurate. We also concluded that            treatment and to pay $5,000 in restitution to
these deficiencies could not be corrected in       the USGS. (This sentencing was reported in
time to provide a reliable inventory balance       our last Semiannual Report.)
for the fiscal year 1995 financial statements.
The USGS took corrective action for two of



             Semiannual Report to the Congress: April 1, 1996 - September 30, 1996            25
On May 1, 1996, the USGS employee was             Settlement Negotiation Procedures."
sentenced to 3 years of supervised probation      Specifically, based on our review of 10
and 6 months of home confinement and was          settlements, we found that MMS’s files did
ordered to participate in drug and alcohol        not contain adequate documentation for the
treatment and to pay $14,703.05 in                estimated values of the issues to be settled
restitution to the USGS. The employee was         and the arguments for reducing the values of
removed from his position at the USGS.            issues for 6 settlements, and did not explain
                                                  why the estimated values of 9 issues, totaling
Instructor’s Academic                             about $312 million, were reduced by about
                                                  $94 million at settlement. In addition,
Credentials Misrepresented
                                                  contrary to its "Negotiation Procedures,"
                                                  MMS neither offered two Indian tribes the
A Colorado corporation and its president
                                                  opportunity to separately negotiate their
who were responsible for performing training
                                                  issues related to one of the settlements nor
for the Mine Safety and Health
                                                  included the tribes in the settlement
Administration and the Occupational Safety
                                                  negotiations. As a result of the
and Health Administration were
                                                  documentation deficiencies, there was
administratively suspended from all Federal
                                                  insufficient information for us to determine
contracting. The suspension, requested by
                                                  whether the settlements were negotiated in
OIG, was implemented after investigation
                                                  the best interests of the Government, states,
disclosed that the corporation’s president
                                                  Indian tribes, and Indian allottees.
falsely represented that he had a master’s
                                                  Specifically, we could not determine whether
degree and a Ph.D. during a hazardous
                                                  issues were improperly omitted from
materials training course presented to USGS
                                                  negotiations or whether royalty values were
employees. The corporation’s president had
                                                  reduced unnecessarily. The monetary
presented safety training courses to
                                                  amounts involved in the royalty settlements
employees of the USGS, the U.S. Bureau of
                                                  are significant. For example, from April
Mines, and BOR in eight states.
                                                  1993 through March 1995, MMS negotiated
                                                  97 settlements, which will result in additional
Minerals                                          royalty payments and interest on late
                                                  payments of about $322 million. MMS
Management                                        agreed with our recommendation that it
                                                  should offer Indian tribes the opportunity to
Service                                           exclude their issues from global settlements
                                                  and to be included in negotiations of issues in
Royalty Settlement                                appropriate cases. We requested MMS to
Negotiations Not                                  reconsider its response to our two remaining
                                                  recommendations related to settlement
Documented Sufficiently
                                                  documentation.
MMS did not always conduct royalty
settlement negotiations in accordance with
its "Minerals Management Service


26          Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
Weaknesses in Royalty-in-                          volumes recorded on the production reports
Kind Concept Cited                                 with sales volumes recorded on the royalty
                                                   reports, generated more exceptions
In a special review performed at the request       (differences) than MMS could resolve, even
of MMS, we found that MMS was effective            after a threshold was established below
in administering the Royalty Gas Marketing         which MMS did not research or resolve the
Pilot program in the Gulf of Mexico and had        exceptions. We estimated the royalty value
demonstrated the feasibility of taking gas         of unresolved exceptions below the threshold
royalties in kind for the gas produced as an       to be about $1.7 million annually and the
alternative to the royalty-in-value (cash          current backlog of unresolved exceptions
payments) system. However, the Pilot’s             over the threshold to be about $21.2 million.
design was not representative of overall gas       Although the Code of Federal Regulations
operations in the Gulf; revenue neutrality         provides remedies for underpaid royalties,
was not achieved, in that revenues collected       such as late payment interest charges and
did not equal what would have been received        civil penalties (for general noncompliance
had royalties been taken in value; marketing       with the Federal Oil and Gas Royalty
strategies such as warranting the volumes of       Management Act), these remedies have not
gas delivered to the contract market,              provided an adequate deterrent against
packaging gas volumes in the sizes most            noncompliance. Interest rates prescribed
desired by industry, and packaging lease           under the Code have been low, and the
groups along the most logical transportation       assessment and collection of penalties for
routes were not considered; and weak               general noncompliance have involved lengthy
administrative controls contained in the           and time-consuming procedures, which have
initial design of the program resulted in 17 of    been difficult for MMS to implement. In
the original 36 lease groups in the invitation     addition, MMS has not assessed fees to
for bids containing incorrect price index          recover its annual costs of $2.1 million for
points. Although our report contained no           resolving discrepancies resulting from
formal recommendations, we requested that          inaccurate reporting. We recommended that
MMS consider these issues in its further           MMS pursue the submission of specific
study of the royalty-in-kind concept.              legislation through DOI that would authorize
                                                   penalties to be assessed for substantial
                                                   underpayment of royalties. MMS said that it
Oil and Gas Production and
                                                   agreed "in principle" with our
Sales Not Always Reported                          recommendation but would defer action until
                                                   the impact of the Federal Oil and Gas
MMS has not been successful in ensuring            Royalty Simplification and Fairness Act,
that all lessees and operators comply with its     enacted on August 13, 1996, could be
requirements to accurately and timely report       determined.
the production and sale of oil and gas from
Federal and Indian leases. This occurred
because of the lack of a strong deterrent
against noncompliance. MMS’s volume
comparison process, which compares sales


             Semiannual Report to the Congress: April 1, 1996 - September 30, 1996           27
Company’s Training
Certification Revoked
                                                  National Park
                                                  Service
An OIG investigation determined that a
Louisiana company approved by MMS to
                                                  Emergency Assistance Fees
provide mandatory safety training to offshore
oil field workers was not meeting MMS’s           Not Administered
minimum requirements for training time and        Consistently
course content. The investigation revealed
that a safety course in the operation and         The National Park Service (NPS) had
maintenance of safety equipment of an             developed highly skilled and effective staffs
offshore oil platform that should have taken      for providing emergency medical and search
32 hours was being conducted in 12 hours.         and rescue services to those individuals
On August 1, 1996, MMS revoked the                needing assistance in park units and had
company’s approval to conduct MMS safety          taken action to recover, from park visitors,
training.                                         some of its costs for providing emergency
                                                  services. However, NPS had not established
                                                  uniform procedures for recovering, from
National Biological                               specific beneficiaries, costs associated with
                                                  providing emergency assistance; was not
Service                                           depositing funds recovered into the U.S.
                                                  Treasury account, as required by regulations;
Fraudulent Claims Submitted                       and had included inadequate contract
                                                  provisions in service fee collection
An OIG investigation determined that two          agreements with non-Federal entities. As a
National Biological Service (NBS)                 result, cost recovery practices among park
employees in Washington, D.C., embezzled          units and park visitors were not consistent;
$11,329.38 from a DOI imprest fund by             costs for emergency medical and search and
creating and submitting 49 fraudulent claims      rescue services for fiscal year 1993,
for reimbursement. The two employees pled         estimated to be at least $4.5 million, were
guilty in the U.S. District Court for the         not recovered from the specific beneficiaries;
District of Columbia to one count of theft of     and fee collections totaling
public funds. One employee was sentenced          $757,800 were inappropriately retained by
to 2 years of probation and was ordered to        park units. The report was in the resolution
pay $1,500 in restitution. Sentencing for the     process at the end of this reporting period.
second employee is pending. Both
employees have resigned from NBS.




28          Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
Improvements in Travel                             overhead, general and administrative
Management Needed                                  expenses, and fixed fees that were in excess
                                                   of actul costs incurred. The unsupported
Although the policies and procedures               costs were for charges involving mobilization
established by NPS’s Denver Service Center         and demobilization, critical path
for extended travel of construction                management, project direction, engineering,
supervisors were in compliance with Federal        training, general and administrative expenses,
and DOI requirements, the Service Center           and fixed fees.
did not adequately justify its decisions to pay
construction supervisors per diem instead of       In our second audit, of asbestos abatement,
relocating them, in accordance with its            we identified cost exceptions of $43,935 of
internal guidelines; paid fixed rates for          the $1,134,255 billed by the subcontractor.
lodging that exceeded the travelers’ actual        These costs pertained to costs billed for
costs; and paid for some items claimed on          direct labor, labor burden, insurance,
travel vouchers that were not authorized. As       overhead expenses, and fixed fees that were
a result, NPS made per diem overpayments           in excess of costs incurred. Both audits were
totaling $42,517 in fiscal years 1993 through      in the resolution process at the end of this
1995. The deficiencies occurred because            reporting period.
construction supervisors and their immediate
supervisors did not always fulfill their           Settlement in Misuse of
responsibilities in the areas of authorizing,      Government Aircraft
approving, incurring, and claiming long-term       Reached
travel costs. NPS agreed with our five             An OIG investigation disclosed that on two
recommendations to improve the Service             occasions in late 1994, an NPS pilot in a
Center’s travel management.                        southwestern state leased an airplane
                                                   through the Office of Aircraft Services for
Subcontractors’ Costs                              apparent personal use. Aircraft Services
Questioned                                         then billed the cost of these flights to NPS.
                                                   Under the terms of a settlement agreement
In 1994, NPS issued an $11.1 million               negotiated between the U.S. Attorney’s
contract to renovate utilities at a historic       Office and the employee in August 1996, the
location. Of the subcontracts issued by the        employee paid the U.S. Government
primary contractor, one was for electrical         $2,824.20. Administrative action against the
work for $775,697 and another was for              employee is pending.
asbestos abatement for $1.2 million. In our
audit of the electrical work, in which the
contractor billed costs of $197,122, we
questioned $36,585, which consisted of cost
exceptions of $22,291 and unsupported costs
of $14,294. The cost exceptions identified
were for billed costs involving direct labor,
fringe benefits, insurance and payroll taxes,


             Semiannual Report to the Congress: April 1, 1996 - September 30, 1996            29
Office of Surface                                  Insular Areas
Mining                                             U.S. Virgin Islands
Reclamation
                                                   Improvements in Contract
and Enforcement                                    Administration and
                                                   Construction Oversight
Fraudulent Travel Vouchers
                                                   Needed
Cited
                                                   Based on our review of DOI grants for the
An assistant director and a construction           construction and renovation of health care
branch supervisor with the Division of             facilities, we determined that improvements
Abandoned Lands, Commonwealth of                   were needed in the policies and procedures
Kentucky, were sentenced in the U. S.              of the Government of the U.S. Virgin Islands
District Court, Frankfort, Kentucky, after an      regarding contract administration and
OIG investigation disclosed that the assistant     construction oversight. Specifically, because
director made fraudulent statements on             of inadequate oversight, there was minimal
travel vouchers submitted to the                   assurance for 11 contracts, totaling $7.7
Commonwealth and that the construction             million, that the Government received the
branch supervisor had a financial interest in      most favorable prices, terms, and conditions;
companies involved in coal mining                  liquidated damages of $302,000 had not
operations. The DOI, through the Office of         been assessed against four contractors that
Surface Mining Reclamation and                     did not complete work within required time
Enforcement (OSM), funds Kentucky’s                frames; and 59 change orders, totaling $3.9
Division of Abandoned Lands.                       million, were issued because original plans
                                                   and specifications were not sufficiently
The assistant director was sentenced to 4          detailed. In addition, we found that six grant
months of home detention and 3 years of            drawdowns, totaling $3.8 million, were not
probation and was ordered to pay $19,534 in        posted to the correct accounts; the
restitution. The construction branch               Government was billed $1.4 million for on-
supervisor was sentenced to 3 years of             site representation services that should have
probation and 100 hours of community               been provided by the Department of Public
service and was prohibited from being              Works; $4 million could be spent on
employed with the Commonwealth of                  renovations to a health care facility that will
Kentucky during the probation period.              not accommodate all of the clinical services
                                                   originally intended for the facility; and
                                                   advance payments of $1.4 million were made
                                                   to a contractor for equipment that was never
                                                   installed at the St. Thomas Hospital.




30           Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
The Governor concurred with all nine of our        and accounted for in accordance with FEMA
recommendations, including the                     requirements and other applicable laws and
recommendations that the Department of             regulations. However, individual agencies
Property and Procurement should monitor            need to take actions to strengthen controls
compliance with the competitive                    and to enforce compliance with existing
procurement requirements of the Virgin             policies and procedures.
Islands Code and enforce existing policies
and procedures related to the assessment of                - Subgrantee Accounting Controls.
liquidated damages and to the issuance of          The Virgin Islands Port Authority had not
change orders.                                     identified the cause of duplicate charges that
                                                   occurred after Hurricane Hugo to ensure that
Hurricane-Related Audits                           similar errors did not occur with regard to
Conducted Jointly                                  Hurricane Marilyn disaster funds; did not
                                                   always show time allocation information on
On September 15, 1995, Hurricane Marilyn           the time sheets of employees who worked on
struck the U.S. Virgin Islands, causing major      more than one project; and issued two
damage to public and private structures and        contracts, totaling about $1.4 million,
prompting the President to issue a major           without obtaining competitive proposals or
disaster declaration. As a result, as of July 2,   documenting why competition was not
1996, FEMA had approved disaster grants of         practicable. The Port Authority
$109.6 million ($98.8 million as the Federal       implemented corrective actions to resolve all
share and $10.8 million as the local share)        three of our recommendations.
for the Virgin Islands Office of Management
and Budget. The Offices of Inspector               The Virgin Islands Police Department had
General of FEMA and DOI, with                      not established procedures and controls that,
participation from the Virgin Islands Bureau       in our opinion, would address the specific
of Audit and Control, conducted reviews            disaster record-keeping requirements for
under a cooperative agreement that covered         FEMA or the Virgin Islands Government.
four functional areas: overall grant               Also, the Police Department did not have
administration, subgrantee accounting              accounting staff assigned to process
controls, hurricane-related contracting, and       hurricane-related transactions. The Police
community disaster loans. As of September          Department concurred with our two
30, 1996, seven final reports had been issued      recommendations to correct these
during this reporting period, which are            deficiencies.
summarized as follows:
                                                          - Hurricane-Related Contracting.
         - Grant Administration. Overall,          The U.S. Army Corps of Engineers awarded
the Government of the U.S. Virgin Islands          hurricane-related contracts using required
and its independent agencies had developed         competitive procurement procedures and, in
procedures, systems, and controls that, if         general, effectively monitored the work
implemented, should be adequate to ensure          performed by contractors. During our audit,
that disaster assistance funds are disbursed       the Corps noted that it would ensure that it



             Semiannual Report to the Congress: April 1, 1996 - September 30, 1996            31
had a sufficient number of inspectors on-site              - Community Disaster Loans. The
to monitor the work of contractors and that        Government of the U.S. Virgin Islands did
a job tracking database system would be in         not account for the Hurricane Hugo Disaster
place at the start of the actual recovery          Loan in accordance with the requirements of
process.                                           the Code of Federal Regulations. This
                                                   occurred because the Government did not
The Department of Education and the                maintain adequate data in its centralized
Department of Public Works did not always          financial management system to account for
comply with procurement requirements for           Disaster Loan funds received and disbursed
repairs to public schools. As a result, there      and to track these funds. Therefore,
was little assurance that the Government           Government departments and agencies
received the most favorable prices, terms,         individually compiled disaster-related
and conditions with regard to the                  expense information. However, that
construction services acquired. Specifically,      information was commingled with
acquisitions of construction and other related     information on normal operating expenses
services were based on purchase orders             and expenses reimbursed through Damage
rather than on formal contracts; competitive       Survey Reports. As a result, some
negotiation procedures were not always             unreimbursed disaster-related expenditures
used; and procurement files did not                claimed against the Disaster Loan were not
adequately document whether competitive            reimbursable in accordance with Disaster
bids or proposals were solicited, the results      Loan provisions. In addition, the
of such solicitations, and, if competition was     Government could not provide
not used, the reasons why not. Further, the        documentation to support all the
purchase orders for construction services          unreimbursed disaster-related expenditures
were issued without the involvement or             claimed against the Disaster Loan. The
approval of the Commissioner of Property           Virgin Islands Director of Management and
and Procurement, as required by the Virgin         Budget concurred with our recommendation
Islands Code. In its response to the draft         to ensure that cost centers are established for
report, the Department of Property and             categories of costs to be charged against
Procurement stated that policies and               Community Disaster Loans and said that our
procedures for procuring goods and services        recommendation to develop policies and
under "public exigency" provisions of the          procedures for proper record keeping for
Virgin Islands Code were being established         Community Disaster Loans had been
and implemented to address our                     implemented.
recommendation. Also, on July 18, 1996,
the Commissioner of Property and
Procurement issued a directive regarding the
emergency procurement requirements.




32           Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
                                       APPENDIX 1
                           SUMMARY OF AUDIT ACTIVITIES
                      APRIL 1, 1996, THROUGH SEPTEMBER 30, 1996

                                   AUDITS PERFORMED BY:
                                             OTHER FEDERAL
                                                AUDITORS            NON-FEDERAL
                                              (With Review and        AUDITORS
                                                Processing by       (With Review and
                                                  OIG Staff)         Processing by
                       OIG STAFF                                       OIG Staff)




                       Internal and
                      Contract Audits         Contract Audits         Single Audits        TOTAL

REPORTS ISSUED TO:

Department/ Office
   of the Secretary
                                        3                       0                     13            16

  Fish and Wildlife
         and Parks                      10                      0                     78            88

     Indian Affairs                     6                       0                 233              239

     Insular Areas                      9                       0                     16            25

Land and Minerals
     Management                         7                       6                     36            49

Water and Science                       9                       6                     14            29

          Subtotal                      44                  12                    390              446

INDIRECT COST RATES NEGOTIATED FOR:

 Indian Tribes and
     Organizations                 127                          0                      0           127

    State Agencies                      55                      0                      0            55

          Subtotal                 182                          0                      0           182

TOTAL                              226                      12                    390              628




            Semiannual Report to the Congress: April 1, 1996 - September 30, 1996                   33
                                                                APPENDIX 2

     AUDIT REPORTS ISSUED AND INDIRECT COST AGREEMENTS
       NEGOTIATED DURING THE 6-MONTH PERIOD ENDED
                      SEPTEMBER 30, 1996


     This listing includes all internal, contract, and single audit reports issued and indirect cost agreements negotiated during the 6-month period ended
     September 30, 1996. It provides report number, title, issue date, and monetary amounts identified in each report (*funds to beput to better use,
     **questioned costs, ***unsupported costs (unsupported costs are included in questioned costs), and ****lost or potential additional revenues).




                                                    96-I-1266 ADMINISTRATION                                  BUREAU OF
INTERNAL AUDITS                                     OF DELINQUENT LOANS BY
                                                    THE PHOENIX AREA OFFICE,                                  RECLAMATION
BUREAU OF INDIAN                                    BUREAU OF INDIAN AFFAIRS
                                                                                                              96-I-822 OFFICE OF
AFFAIRS                                             (9/30/96) *$3,400,000
                                                                                                              MANAGEMENT AND BUDGET
                                                                                                              CIRCULAR A-76 STUDY OF
96-I-870 ROAD CONSTRUCTION                          BUREAU OF LAND                                            AIRCRAFT SERVICES FOR THE
PROGRAM, BUREAU OF INDIAN                           MANAGEMENT                                                PACIFIC NORTHWEST REGION,
AFFAIRS (6/17/96) *$4,500,000
                                                                                                              BUREAU OF RECLAMATION
                                                    96-I-1025 NEVADA LAND                                     (6/10/96)
96-I-995 SELECTED ASPECTS
                                                    EXCHANGE ACTIVITIES,
OF THE CIRCLE OF NATIONS
                                                    BUREAU OF LAND MANAGEMENT
WAHPETON INDIAN
                                                    (7/15/96) *$6,900,000 &                                   96-I-869 CONTRACTING
SCHOOL (6/25/96)
                                                    ****$8,026,000                                            WITH THE ENVIRONMENTAL
                                                                                                              CHEMICAL CORPORATION FOR
96-I-1082 FIRE FIGHTER                                                                                        A FOCUSED FEASIBILITY
                                                    96-I-1265 OCCUPANCY
PAYROLL, ALBUQUERQUE                                                                                          STUDY FOR WATER TREATMENT
                                                    TRESPASS RESOLUTION,
AREA OFFICE, BUREAU OF INDIAN                                                                                 SERVICES, BUREAU OF
                                                    BUREAU OF LAND MANAGEMENT
AFFAIRS (8/7/96)                                                                                              RECLAMATION (6/17/96)
                                                    (9/30/96)
96-I-1142 REVENUES AND                                                                                        96-I-1026 FOLLOWUP OF
                                                    96-I-1267 INSPECTION AND
EXPENSES OF THE ELEM                                                                                          RECOMMENDATIONS
                                                    ENFORCEMENT PROGRAM AND
CASINO (8/20/96)                                                                                              CONCERNING THE VALUATION
                                                    SELECTED RELATED
                                                    ACTIVITIES, BUREAU OF                                     OF PROJECT FACILITIES
96-I-1245 FOLLOWUP OF                               LAND MANAGEMENT (9/30/96)                                 PROPOSED FOR SALE, BUREAU
RECOMMENDATIONS                                     *$1,600,000                                               OF RECLAMATION (7/29/96)
CONCERNING BUREAU OF
INDIAN AFFAIRS                                                                                                96-I-1033 LOWER COLORADO
                                                    96-I-1268 WITHDRAWN
ACCOUNTABILITY AND                                                                                            RIVER BASIN DEVELOPMENT
                                                    LANDS, DEPARTMENT OF THE
CONTROL OVER ARTWORK                                                                                          FUND, BUREAU OF
                                                    INTERIOR (9/30/96)
AND ARTIFACTS IN MAIN                                                                                         RECLAMATION (7/30/96)
AND SOUTH INTERIOR BUILDINGS
(9/30/96)
                                                                                                              96-I-1141 UTAH
                                                                                                              RECLAMATION MITIGATION
                                                                                                              AND CONSERVATION
                                                                                                              COMMISSION (8/27/96)




34               Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
                                                                NATIONAL PARK
                                96-E-966 FINANCIAL
INSULAR AREAS                   REPORTING SYSTEM FOR THE        SERVICE
                                FEDERAL EMERGENCY
                                MANAGEMENT AGENCY’S             96-I-757 NATIONAL PARK
Guam                                                            SERVICE FINANCIAL
                                COMMUNITY DISASTER
                                LOAN TO THE GOVERNMENT          STATEMENTS FOR FISCAL
96-I-803 DIESEL LIQUID                                          YEAR 1995 (4/30/96)
FUEL TAX AND MASS TRANSIT       OF THE VIRGIN ISLANDS
AUTOMOTIVE SURCHARGE            (6/28/96)
                                                                96-I-806 EMERGENCY
COLLECTIONS FOR FISCAL                                          MEDICAL AND SEARCH AND
YEAR 1995, GOVERNMENT OF        96-E-1113 PROCUREMENT
                                PRACTICES FOR                   RESCUE SERVICES, NATIONAL
GUAM (5/24/96)                                                  PARK SERVICE (6/10/96)
                                HURRICANE-RELATED REPAIRS
                                TO PUBLIC SCHOOLS,              *$4,501,000
U.S. Virgin Islands             GOVERNMENT OF THE VIRGIN
                                ISLANDS (8/13/96)               96-I-1036 SELECTED
                                                                ADMINISTRATIVE ACTIVITIES
96-I-722 GRANTS FOR THE                                         AT THE DENVER SERVICE
CONSTRUCTION OF HEALTH          MINERALS                        CENTER AND THE
CARE FACILITIES,                                                ADMINISTRATIVE PROGRAM
GOVERNMENT OF THE VIRGIN        MANAGEMENT
                                                                CENTER, NATIONAL PARK
ISLANDS (5/3/96) *$1,702,000    SERVICE                         SERVICE (8/9/96)

96-E-801 PROCUREMENT            96-I-786 ROYALTY GAS            96-I-1259 EXTENDED
PRACTICES RELATED TO            MARKETING PILOT, MINERALS       TRAVEL BY CONSTRUCTION
HURRICANE MARILYN, U.S.         MANAGEMENT SERVICE              SUPERVISORS OF THE DENVER
ARMY CORPS OF ENGINEERS         (5/20/96)                       SERVICE CENTER, NATIONAL
(5/24/96)                                                       PARK SERVICE (9/26/96)
                                96-I-1255 SELECTED
96-E-827 ACCOUNTING             ACTIVITIES OF THE ROYALTY
                                MANAGEMENT SYSTEM,              OFFICE OF THE
CONTROLS FOR DISASTER
ASSISTANCE FUNDS,               MINERALS MANAGEMENT             SECRETARY
DEPARTMENT OF PROPERTY          SERVICE (9/30/96)
AND PROCUREMENT,                *$2,160,000 &                   96-I-769 OFFICE OF THE
GOVERNMENT OF THE VIRGIN        ****$1,700,000                  SECRETARY FINANCIAL
ISLANDS (5/31/96)                                               STATEMENTS FOR FISCAL
                                96-I-1264 NEGOTIATED            YEARS 1994 AND 1995
96-E-828 ACCOUNTING             ROYALTY SETTLEMENTS,            (5/2/96)
CONTROLS FOR DISASTER           MINERALS MANAGEMENT
ASSISTANCE FUNDS, POLICE        SERVICE (9/30/96)               96-I-1055 CASE WORK LOAD
DEPARTMENT, GOVERNMENT OF                                       MANAGEMENT AT THE
THE VIRGIN ISLANDS                                              HEARINGS DIVISION, OFFICE
                                MULTI-OFFICE AUDITS             OF HEARINGS AND APPEALS,
(5/31/96)
                                                                DEPARTMENT OF THE
                                96-I-1063 DEPARTMENT OF         INTERIOR (7/24/96)
96-E-829 ACCOUNTING             THE INTERIOR CONSOLIDATED
CONTROLS FOR DISASTER                                           *$3,149,000
                                FINANCIAL STATEMENTS FOR
ASSISTANCE FUNDS, VIRGIN        FISCAL YEAR 1995 (7/25/96)
ISLANDS PORT AUTHORITY
(5/31/96)
                                                                U.S. GEOLOGICAL
                                                                SURVEY
96-E-868 ACCOUNTING
CONTROLS FOR DISASTER                                           96-I-1239 INVENTORY
ASSISTANCE FUNDS, ROY L.                                        MANAGEMENT
SCHNEIDER HOSPITAL,                                             AND VALUATION, NATIONAL
GOVERNMENT OF THE VIRGIN                                        MAPPING DIVISION, U.S.
ISLANDS (6/5/96)                                                GEOLOGICAL SURVEY (9/30/96)




             Semiannual Report to the Congress: April 1, 1996 - September 30, 1996            35
                               96-E-823 BURNS AND ROE          96-E-1049 HARRISON AND
CONTRACT AUDITS                SERVICES CORPORATION,           PALMER, INC., COSTS
                               INCURRED COSTS FOR              INCURRED UNDER NATIONAL
BUREAU OF LAND                 CALENDAR YEAR 1992              PARK SERVICE CONTRACT NO.
MANAGEMENT                     (5/30/96)                       1443CX300094906 DURING FISCAL
                                                               YEAR 1995 (7/19/96) **$36,585 &
96-E-540 COMPUTER              96-E-1050 PCL CIVIL              ***$14,294
SCIENCES CORPORATION,          CONSTRUCTORS, INC., CLAIM
SYSTEM SCIENCES DIVISION,      SUBMITTED UNDER BUREAU OF       96-E-1081 GENERAL
COST OF FACILITIES             RECLAMATION CONTRACT NO.        CONSTRUCTION SERVICES,
CAPITAL FOR FISCAL YEAR 1992   1-CC-30-09150 (7/19/96)         INC., COSTS BILLED
(4/18/96)                      *$752,873                       UNDER NATIONAL PARK SERVICE
                                                               CONTRACT NO. 1443CX300094906
96-E-723 COMPUTER              96-E-1054 HARRIS/ARIZONA        (7/31/96) **$43,935
SCIENCES CORPORATION,          REBAR, INC., CLAIM
SYSTEM SCIENCES DIVISION,      SUBMITTED UNDER BUREAU OF       U.S. BUREAU OF MINES
ALLOCATION BASES FOR           RECLAMATION CONTRACT NO.
FISCAL YEAR 1992               1-CC-30-09150 (7/22/96)
                               *$822,533                       96-E-854 SPACE MARK,
(4/18/96)
                                                               INC., INCURRED COSTS
                                                               FOR PERIOD JULY 25, 1994,
96-E-792 IBM                   MINERALS                        THROUGH MARCH 31, 1996,
CORPORATION GOVERNMENT         MANAGEMENT                      UNDER CONTRACT
SYSTEMS, INCURRED COSTS
                               SERVICE                         NO.1432-S0349006 (6/4/96)
FOR FISCAL YEAR ENDED
SEPTEMBER 30, 1995
(5/10/96) **$169,057           96-E-1129 AMERICAN
                               MANAGEMENT SYSTEMS
                                                               U.S. FISH AND WILDLIFE
96-E-862 HALLIBURTON           OPERATIONS CORPORATION,         SERVICE
NUS ENVIRONMENTAL              INC., INCURRED COSTS FOR
CORPORATION, INCURRED          CALENDAR YEARS 1991 AND         96-E-889 EXPENDITURES
COSTS FOR FISCAL               1992 (8/15/96)                  CLAIMED BY THE
YEAR 1990 (6/4/96)                                             COMMONWEALTH
                               NATIONAL PARK                   OF THE NORTHERN MARIANA
96-E-951 COMPUTER              SERVICE                         ISLANDS FOR FISCAL YEARS 1993
SCIENCES CORPORATION,                                          AND 1994 UNDER FEDERAL AID
SYSTEM SCIENCES DIVISION,                                      GRANTS FROM THE U.S. FISH AND
                               96-E-724 J.C.M. CONTROL
TIMEKEEPING PRACTICES                                          WILDLIFE SERVICE (6/10/96)
                               SYSTEMS, INC., COSTS
(7/2/96)                                                       **$858,267 & ***$718,450
                               INCURRED DURING FISCAL
                               YEAR ENDED DECEMBER 31, 1994,
BUREAU OF                                                      96-E-1010 EXPENDITURES
                               UNDER NATIONAL PARK SERVICE
                                                               CLAIMED BY THE GOVERNMENT
RECLAMATION                    CONTRACT NO. 1443CX300094906
                                                               OF GUAM UNDER FEDERAL AID
                               (5/7/96) **$57,853 & ***$450
                                                               GRANTS FROM THE U.S. FISH AND
96-E-510 BURNS AND ROE                                         WILDLIFE SERVICE FROM
SERVICES CORPORATION,          96-E-802 CAPITOL
                                                               OCTOBER 1, 1990,
INCURRED COSTS FOR             MECHANICAL CONTRACTORS,
                                                               THROUGH SEPTEMBER 30, 1994
CALENDAR YEAR 1991 (4/18/96)   INC., COSTS BILLED UNDER
                                                               (7/3/96) **$321,194 & ***$287,394
                               NATIONAL PARK SERVICE
96-E-727 PCL                   CONTRACT NO.
CONSTRUCTION SERVICES,         1443CX300094906 (5/20/96)
INC., CLAIM SUBMITTED          **$2,984
UNDER BUREAU OF
RECLAMATION CONTRACT NO.
1-CC-30-09150 (4/17/96)
*$7,349,810




36          Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
U.S. GEOLOGICAL                     96-A-670 ST. CROIX            96-A-736 NATIVE
                                    CHIPPEWA OF WISCONSIN,        AMERICAN FAMILY SERVICES,
SURVEY                              FISCAL YEAR ENDED             INC., FISCAL YEAR ENDED
                                    SEPTEMBER 30, 1993            SEPTEMBER 30, 1995
96-E-849 UNIVERSITY OF              (4/4/96) **$41,784            (4/22/96)
COLORADO, COST PROPOSAL
SUBMITTED TO THE                    96-A-671 PENOBSCOT            96-A-739 FORT INDEPENDENCE
U.S. GEOLOGICAL SURVEY              INDIAN NATION, FISCAL         RESERVATION RESTRICTED
FOR COOPERATIVE AGREEMENT           YEAR ENDED                    FUNDS, FISCAL YEAR ENDED
NO. 1434-CR-96-AG-A00775            SEPTEMBER 30, 1995 (4/4/96)   DECEMBER 31, 1993 (4/24/96)
(6/4/96)
                                    96-A-672 SKY PEOPLE           96-A-740 FORT INDEPENDENCE
96-E-1052 COMPUTER                  HIGHER EDUCATION,             RESERVATION, FISCAL YEAR
SCIENCES CORPORATION,               FISCAL YEAR ENDED             ENDED DECEMBER 31, 1994
SYSTEM SCIENCES DIVISION,           SEPTEMBER 30, 1995            (4/24/96)
INCURRED COSTS FOR FISCAL           (4/4/96)
YEAR 1991 (8/6/96)                                                96-A-742 TANANA CHIEFS
                                    96-A-678 MAKAH TRIBAL         CONFERENCE, INC., FISCAL
96-E-1062 PHYCOTECH,                COUNCIL, FISCAL YEAR          YEAR ENDED JUNE 30, 1994
TERMINATION SETTLEMENT              ENDED SEPTEMBER 30, 1994      (4/25/96)
PROPOSAL SUBMITTED TO               (4/11/96)
THE U.S. GEOLOGICAL SURVEY                                        96-A-743 SAGINAW
FOR CONTRACT NO.                    96-A-679 MAKAH TRIBAL         CHIPPEWA INDIAN TRIBE,
1434-94-C-40145 (8/6/96) *$11,843   COUNCIL, FISCAL YEAR          FISCAL YEAR ENDED
                                    ENDED SEPTEMBER 30, 1995      SEPTEMBER 30, 1995
                                    (4/11/96)                     (4/25/96)
SINGLE AUDITS
                                    96-A-688 MICCOSUKEE           96-A-744 COUSHATTA
BUREAU OF INDIAN                    CORPORATION, FISCAL YEAR      TRIBE OF LOUISIANA,
                                    ENDED SEPTEMBER 30, 1995      FISCAL YEAR ENDED
AFFAIRS                             (4/11/96)                     DECEMBER 31, 1993
                                                                  (4/25/96)
96-A-657 NATIVE VILLAGE
                                    96-A-719 COLUMBIA RIVER
OF GAMBELL, FISCAL YEAR
                                    INTER-TRIBE FISH              96-A-745 LOWER ELWHA
ENDED DECEMBER 31, 1994
                                    COMMISSION, FISCAL YEAR       TRIBE COUNCIL,
(4/4/96)
                                    ENDED DECEMBER 31, 1994       FISCAL YEAR ENDED
                                    (4/17/96)                     SEPTEMBER 30, 1995 (4/25/96)
96-A-658 PUEBLO DE SAN
FELIPE, FISCAL YEAR ENDED
                                    96-A-720 DELAWARE TRIBE       96-A-746 BLACK MESA
JANUARY 31, 1995 (4/3/96)
                                    OF WESTERN OKLAHOMA,          COMMUNITY SCHOOL BOARD,
                                    FISCAL YEAR ENDED             INC., FISCAL YEAR ENDED
96-A-660 ROCK POINT
                                    SEPTEMBER 30, 1993            JUNE 30, 1995 (4/25/96)
SCHOOL, INC., FISCAL YEAR
                                    (4/17/96)
ENDED JUNE 30, 1995
                                                                  96-A-747 OGLALA LAKOTA
(4/3/96)
                                    96-A-721 APACHE TRIBE         COLLEGE, FISCAL YEAR
                                    OF OKLAHOMA, FISCAL YEAR      ENDED SEPTEMBER 30, 1995
96-A-664 TAOS PUEBL0
                                    ENDED SEPTEMBER 30, 1993      (4/25/96)
CENTRAL MANAGEMENT
                                    (4/17/96)
SYSTEM, FISCAL YEAR ENDED
                                                                  96-A-754 DELAWARE
DECEMBER 31, 1994
                                    96-A-728 GOSHUTE              TRIBE OF WEST OKLAHOMA,
(4/3/96)
                                    RESERVATION CONFEDERATED      FISCAL YEAR ENDED
                                    TRIBES, FISCAL YEAR ENDED     SEPTEMBER 30, 1994 (4/30/96)
96-A-669 UTE MOUNTAIN
                                    SEPTEMBER 30, 1994
UTE TRIBE, FISCAL YEAR
                                    (4/25/96) **$1,682
ENDED SEPTEMBER 30, 1993
(4/3/96)




               Semiannual Report to the Congress: April 1, 1996 - September 30, 1996             37
96-A-755 TYME MAIDU              96-A-783 FLAGSTAFF              96-A-833 BLACKFEET
TRIBE BERRY CREEK                BORDERTOWN DORMITORY            TRIBE, FISCAL YEAR ENDED
RANCHERIA, FISCAL YEAR           BOARD, INC., FISCAL YEAR        SEPTEMBER 30, 1994
ENDED SEPTEMBER 30, 1995         ENDED SEPTEMBER 30, 1995        (5/30/96) **$1,280
(4/30/96)                        (5/7/96)
                                                                 96-A-834 BAD RIVER
96-A-756 DE COCHITI              96-A-789 LITTLE WOUND           TRIBE OF LAKE SUPERIOR
PUEBLO, FISCAL YEAR              SCHOOL BOARD, INC.,             CHIPPEWA INDIANS, FISCAL
ENDED DECEMBER 31, 1995          FISCAL YEAR ENDED               YEAR ENDED
(5/1/96)                         JUNE 30, 1995 (5/14/96)         SEPTEMBER 30, 1994
                                                                 (6/20/96) **$102,068
96-A-758 GOSHUTE                 96-A-790 EIGHT NORTHERN
RESERVATION CONFEDERATED         INDIAN PUEBLOS COUNCIL,         96-A-835 NEBRASKA
TRIBES, FISCAL YEAR ENDED        INC., FISCAL YEAR ENDED         INDIAN TRIBAL DEVELOPMENT
SEPTEMBER 30, 1993               MARCH 31, 1995 (5/14/96)        CORPORATION, FISCAL YEAR
(5/1/96) **$28,147                                               ENDED SEPTEMBER 30, 1993
                                 96-A-791 WYANDOTTE              (5/29/96)
96-A-759 LAC COURTE              TRIBE OF OKLAHOMA, FISCAL
OREILLES BAND OF LAKE            YEAR ENDED                      96-A-843 FOUR WINDS
SUPERIOR CHIPPEWA INDIANS        SEPTEMBER 30, 1995 (5/10/96)    ELEMENTARY SCHOOL, FISCAL
OF WISCONSIN, FISCAL YEAR                                        YEAR ENDED JUNE 30, 1993
ENDED SEPTEMBER 30, 1994         96-A-810 DALLAS                 (5/31/96)
(5/1/96) **$1,004                INTER-TRIBAL CENTER,
                                 FISCAL YEAR ENDED               96-A-844 WOLF POINT
 96-A-765 COOK INLET             JUNE 30, 1990 (5/23/96)         PUBLIC SCHOOLS, FISCAL
TRIBAL COUNCIL, INC.,                                            YEAR ENDED JUNE 30, 1995
FISCAL YEAR ENDED                96-A-811 DALLAS                 (5/29/96)
SEPTEMBER 30, 1995               INTER-TRIBAL CENTER,
(5/2/96)                         FISCAL YEAR ENDED               96-A-846 UNITED TRIBES
                                 JUNE 30, 1991 (5/23/96)         TECHNICAL COLLEGE, FISCAL
96-A-766 NORTHWEST                                               YEAR ENDED JUNE 30, 1994
INDIAN FISHERIES                 96-A-812 DALLAS                 (5/30/96)
COMMISSION, FISCAL YEAR          INTER-TRIBAL CENTER,
ENDED SEPTEMBER 30, 1995         FISCAL YEAR ENDED               96-A-847 CHEYENNE RIVER
(5/2/96)                         JUNE 30, 1992 (5/23/96)         COMMUNITY COLLEGE,
                                                                 FISCAL YEAR ENDED
96-A-773 TOHONO O'ODHAM          96-A-813 DALLAS                 SEPTEMBER 30, 1994 (5/30/96)
NATION, FISCAL YEAR ENDED        INTER-TRIBAL CENTER, INC.,
SEPTEMBER 30, 1992               AND AFFILIATE, FISCAL           96-A-851 SKOKOMISH
(5/9/96) **$348,222              YEAR ENDED JUNE 30, 1993        INDIAN TRIBAL COUNCIL,
                                 (5/23/96)                       FISCAL YEAR ENDED
96-A-779 EGEGIK VILLAGE                                          SEPTEMBER 30, 1994
COUNCIL, FISCAL YEAR             96-A-816 ALEUTIAN/PRIBILOF      (5/30/96)
ENDED JUNE 30, 1995               ISLANDS ASSOCIATION,
(5/7/96)                         INC., FISCAL YEAR ENDED         96-A-852 COCOPAH INDIAN
                                 SEPTEMBER 30,1995 (5/21/96)     TRIBE, FISCAL YEAR ENDED
96-A-780 ST. MICHAEL’S                                           SEPTEMBER 30, 1991
ASSOCIATION FOR SPECIAL          96-A-830 SOUTHERN UTE           (6/27/96)
EDUCATION, INC., FISCAL          COMMUNITY ACTION
YEAR ENDED                       PROGRAMS, INC.,                 96-A-853 COCOPAH INDIAN
SEPTEMBER 30, 1995 (5/7/96)      FISCAL YEAR ENDED               TRIBE, FISCAL YEAR ENDED
                                 DECEMBER 31, 1995 (5/29/96)     DECEMBER 31, 1992
                                                                 (6/27/96) **$2,518




38            Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
96-A-855 NATIVE VILLAGE          96-A-873 YOMBA SHOSHONE         96-A-892 KARUK TRIBE OF
OF FORT YUKON,                   TRIBE, FISCAL YEAR ENDED        CALIFORNIA, FISCAL YEAR
FISCAL YEAR ENDED                DECEMBER 31, 1994               ENDED SEPTEMBER 30, 1995
SEPTEMBER 30, 1993 (5/30/96)     (6/6/96) **$12,160              (6/11/96)

96-A-856 NATIVE VILLAGE          96-A-874 1854 AUTHORITY,        96-A-900 STONE CHILD
OF FORT YUKON, FISCAL            FISCAL YEAR ENDED               COLLEGE, FISCAL YEAR
YEAR ENDED                       DECEMBER 31, 1995               ENDED SEPTEMBER 30, 1994
SEPTEMBER 30, 1995 (5/30/96)     (6/6/96)                        (6/11/96)

96-A-857 BIG LAGOON              96-A-875 GRAND PORTAGE          96-A-903 SHIPROCK
RANCHERIA, FISCAL YEAR           RESERVATION TRIBAL              RESERVATION DORMITORY
ENDED DECEMBER 31, 1992          COUNCIL, FISCAL YEAR            SCHOOL BOARD ASSOCIATION,
(5/30/96)                        ENDED SEPTEMBER 30, 1995        INC., FISCAL YEAR ENDED
                                 (6/6/96) **$53,309              JUNE 30, 1994 (6/12/96)
96-A-858 MESA GRANDE
BAND OF MISSION INDIANS,         96-A-882 ALAMO NAVAJO           96-A-904 ISLETA PUEBLO,
FISCAL YEAR ENDED                SCHOOL BOARD, INC.,             FISCAL YEAR ENDED
DECEMBER 31, 1994                FISCAL YEAR ENDED               DECEMBER 31, 1994
(5/30/96)                        JUNE 30, 1995 (6/6/96)          (6/27/96)

96-A-859 CHEYENNE RIVER          96-A-883 ROUGH ROCK             96-A-907 BLACKFEET
COMMUNITY COLLEGE,               COMMUNITY SCHOOL, INC.,         COMMUNITY COLLEGE, FISCAL
FISCAL YEAR ENDED                FISCAL YEAR ENDED               YEAR ENDED
SEPTEMBER 30, 1992 (5/31/96)     JUNE 30, 1994 (6/6/96)          SEPTEMBER 30, 1993 (6/14/96)
                                 **$22,330
96-A-860 COQUILLE                                                96-A-908 BLACKFEET
ECONOMIC DEVELOPMENT             96-A-884 FORT BERTHOLD          COMMUNITY COLLEGE,
CORPORATION, FISCAL YEAR         COMMUNITY COLLEGE, INC.,        FISCAL YEAR ENDED
ENDED DECEMBER 31, 1994          FISCAL YEAR ENDED               SEPTEMBER 30, 1994 (6/14/96)
(5/30/96)                        SEPTEMBER 30, 1992
                                 (6/6/96)                        96-A-909 SOUTHERN UTE
96-A-861 TORRES MARTINEZ                                         INDIAN TRIBE, FISCAL YEAR
DESERT CAHUILLA                  96-A-885 FORT BERTHOLD          ENDED SEPTEMBER 30, 1995
INDIANS, FISCAL YEAR             COMMUNITY COLLEGE, INC.,        (6/18/96)
ENDED SEPTEMBER 30, 1995         FISCAL YEAR ENDED
(5/30/96)                        SEPTEMBER 30, 1993              96-A-910 HOPLAND BAND
                                 (6/6/96)                        OF POMO INDIANS, FISCAL
96-A-865 SISSETON-WAHPETON                                       YEAR ENDED
COMMUNITY COLLEGE, FISCAL        96-A-886 FORT BERTHOLD          SEPTEMBER 30, 1994 (6/18/96)
YEAR ENDED JUNE 30, 1995         COMMUNITY COLLEGE, INC.,
(6/4/96)                         FISCAL YEAR ENDED               96-A-920 SANTA FE
                                 SEPTEMBER 30, 1994              INDIAN SCHOOL, INC.,
96-A-871 YOMBA SHOSHONE          (6/6/96)                        FISCAL YEAR ENDED
TRIBE, FISCAL YEAR ENDED                                         JUNE 30, 1995 (6/18/96)
DECEMBER 31, 1993                96-A-887 KIOWA TRIBE OF
(6/6/96)                         OKLAHOMA, FISCAL YEAR           96-A-923 RICHFIELD
                                 ENDED DECEMBER 31, 1994         RESIDENTIAL HALL, INC.,
96-A-872 OTOE-MISSOURIA          (6/7/96)                        FISCAL YEAR ENDED JUNE
TRIBE OF INDIANS, FISCAL                                         30, 1995 (6/19/96)
YEAR ENDED                       96-A-891 KARUK TRIBE OF
DECEMBER 31, 1994 (6/6/96)       CALIFORNIA, FISCAL YEAR
                                 ENDED SEPTEMBER 30, 1994
                                 (6/11/96)




              Semiannual Report to the Congress: April 1, 1996 - September 30, 1996             39
96-A-925 HOULTON BAND            96-A-943 SHINGLE                96-A-961 PLEASANT POINT
OF MALISEET INDIANS,             SPRINGS RANCHERIA, FISCAL       SCHOOL, MAINE INDIAN
FISCAL YEAR ENDED                YEAR ENDED                      EDUCATION, FISCAL YEAR
DECEMBER 8, 1995                 DECEMBER 31, 1995 (6/24/96)     ENDED JUNE 30, 1994
(6/20/96)                                                        (6/27/96)
                                 96-A-944 TULALIP
96-A-926 TANANA CHIEFS           TRIBES, FISCAL YEAR ENDED       96-A-962 CAYUGA NATION,
CONFERENCE, INC.,                DECEMBER 31, 1994               FISCAL YEAR ENDED
FISCAL YEAR ENDED                (6/24/96)                       SEPTEMBER 30, 1990
SEPTEMBER 30, 1995 (6/20/96)                                     (6/27/96)
                                 96-A-945 QAWALANGIN
96-A-927 SHOSHONE-PAIUTE         TRIBE OF UNALASKA,              96-A-963 CAYUGA NATION,
TRIBES OF THE DUCK VALLEY        FISCAL YEAR ENDED               FISCAL YEAR ENDED
RESERVATION, FISCAL YEAR         DECEMBER 31, 1995 (6/27/96)     SEPTEMBER 30, 1991
ENDED SEPTEMBER 30, 1994                                         (6/27/96)
(6/20/96)                        96-A-946 EASTERN
                                 SHAWNEE TRIBE OF                96-A-964 INDIAN ISLAND
96-A-928 FORT MCDERMITT          OKLAHOMA, FISCAL YEAR           SCHOOL, MAINE INDIAN
PAIUTE-SHOSHONE TRIBE,           ENDED SEPTEMBER 30, 1995        EDUCATION, FISCAL YEAR
FISCAL YEAR ENDED                (6/27/96)                       ENDED JUNE 30, 1995
DECEMBER 30, 1994 (6/20/96)                                      (6/27/96)
**$1,293                         96-A-947 KLAMATH
                                 TRIBES, FISCAL YEAR ENDED       96-A-965 CAYUGA NATION,
96-A-929 INTER-TRIBAL            DECEMBER 31, 1994               FISCAL YEAR ENDED
COUNCIL, INC., MIAMI,            (6/27/96) **$25,378             SEPTEMBER 30, 1992
OKLAHOMA, FISCAL                                                 (6/27/96)
YEAR ENDED                       96-A-948 NEZ PERCE
SEPTEMBER 30, 1995               TRIBE, FISCAL YEAR ENDED        96-A-967 INDIAN
(6/20/96)                        SEPTEMBER 30, 1995              TOWNSHIP SCHOOL, MAINE
                                 (6/27/96)                       INDIAN EDUCATION, FISCAL
96-A-930 TE-MOAK TRIBE                                           YEAR ENDED JUNE 30, 1994
OF WESTERN SHOSHONE,             96-A-949 KALISPEL               (6/27/96)
FISCAL YEAR ENDED                TRIBE, FISCAL YEAR ENDED
SEPTEMBER 30, 1995               SEPTEMBER 30, 1995              96-A-968 CAYUGA NATION,
(6/20/96)                        (6/27/96)                       FISCAL YEAR ENDED
                                                                 SEPTEMBER 30, 1993
96-A-931 PONCA TRIBE OF          96-A-952 METLAKATLA             (6/27/96)
NEBRASKA, FISCAL YEAR            INDIAN COMMUNITY,
ENDED SEPTEMBER 30, 1995         FISCAL YEAR ENDED               96-A-969 CAYUGA NATION,
(6/20/96) **$46,518              SEPTEMBER 30, 1995 (6/27/96)    FISCAL YEAR ENDED
                                                                 SEPTEMBER 30, 1994
96-A-932 TRENTON INDIAN          96-A-954 OFFICE OF              (6/27/96)
SERVICE AREA, FISCAL YEAR        SUPERINTENDENT, MAINE
ENDED SEPTEMBER 30, 1994         INDIAN EDUCATION, FISCAL        96-A-970 CAYUGA NATION,
(6/20/96)                        YEAR ENDED JUNE 30, 1994        FISCAL YEAR ENDED
                                 (6/27/96)                       SEPTEMBER 30, 1995
96-A-938 PINON                                                   (6/27/96) **$58,943
COMMUNITY SCHOOL BOARD,          96-A-955 WINGATE BOARD
INC., FISCAL YEAR ENDED          OF EDUCATION, INC., THREE       96-A-971 WA HE LUTE
JUNE 30, 1995 (6/18/96)          FISCAL YEARS ENDED              INDIAN COMMUNITY SCHOOL,
**$23,588                        JUNE 30, 1992 (6/27/96)         FISCAL YEAR ENDED
                                                                 JUNE 30, 1993 (6/27/96)
96-A-942 QUINAULT                96-A-957 WAPATO SCHOOL
INDIAN NATION,                   DISTRICT NO. 207, TWO
FISCAL YEAR ENDED                FISCAL YEARS ENDED
SEPTEMBER 30, 1995 (6/20/96)     AUGUST 31, 1995 (6/26/96)




40            Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
96-A-972 LAC COURTE              96-A-982 IN-CARE                96-A-1009 BRISTOL BAY
OREILLES OJIBWA                  NETWORK, INC.,                  NATIVE ASSOCIATION,
COMMUNITY COLLEGE, INC.,         FISCAL YEAR ENDED               FISCAL YEAR ENDED
FISCAL YEAR ENDED                DECEMBER 31, 1995 (6/27/96)     SEPTEMBER 30, 1995
SEPTEMBER 30, 1993 (6/27/96)                                     (7/3/96)
                                 96-A-983 WHITE SHIELD
96-A-973 OMAHA TRIBE OF          SCHOOL, FISCAL YEAR ENDED       96-A-1017 BLACKFEET
NEBRASKA, FISCAL YEAR            JUNE 30, 1993 (6/27/96)         COMMUNITY COLLEGE, FISCAL
ENDED SEPTEMBER 30, 1994                                         YEAR ENDED
(6/27/96) **$33,900              96-A-984 WHITE SHIELD           SEPTEMBER 30,1995 (7/10/96)
                                 SCHOOL, FISCAL YEAR ENDED       **$31,561
96-A-974 SAN JUAN                JUNE 30, 1994 (6/27/96)
SOUTHERN PAIUTE TRIBE,                                           96-A-1021 SHIPROCK
FISCAL YEAR ENDED                96-A-985 WHITE SHIELD           NAVAJO BEHAVIORAL HEALTH
SEPTEMBER 30, 1995               SCHOOL, FISCAL YEAR ENDED       BOARD, INC., FISCAL YEAR
(6/27/96)                        JUNE 30, 1995 (6/27/96)         ENDED DECEMBER 31, 1995
                                                                 (7/10/96)
96-A-975 HANNAHVILLE             96-A-990 MANDAREE
INDIAN COMMUNITY,                PUBLIC SCHOOL DISTRICT          96-A-1022 SAC AND FOX
FISCAL YEAR ENDED                NO. 36, TWO FISCAL YEARS        NATION, FISCAL YEAR ENDED
SEPTEMBER 30, 1995 (6/27/96)     ENDED JUNE 30, 1993             DECEMBER 31, 1994
                                 (7/1/96)                        (7/11/96) **$11,592
96-A-976 CHIEF LESCHI
SCHOOLS, INC., FISCAL            96-A-1002 ABSENTEE              96-A-1023 NATIVE VILLAGE
YEAR ENDED JUNE 30, 1994         SHAWNEE TRIBE OF                OF BARROW, 15 MONTHS
(6/27/96)                        OKLAHOMA, FISCAL YEAR           ENDED DECEMBER 31, 1995
                                 ENDED DECEMBER 31, 1994         (7/11/96)
96-A-977 KEWEENAW BAY            (7/3/96)
INDIAN COMMUNITY, FISCAL                                         96-A-1027 UTE MONTAIN
YEAR ENDED                       96-A-1003 SUQUAMISH             UTE TRIBE, FISCAL YEAR
SEPTEMBER 30, 1995 (6/27/96)     TRIBE, FISCAL YEAR ENDED        ENDED SEPTEMBER 30, 1994
                                 DECEMBER 31, 1995               (7/17/96)
96-A-978 KICKAPOO                (7/3/96)
NATION SCHOOL BOARD,                                             96-A-1028 PICAYUNE
FISCAL YEAR ENDED                96-A-1005 WA HE LUTE            RANCHERIA OF THE
JUNE 30, 1992 (6/27/96)          INDIAN COMMUNITY SCHOOL,        CHUKCHANSI INDIAN TRIBE,
                                 FISCAL YEAR ENDED               FISCAL YEAR ENDED
96-A-979 FORT MCDOWELL           JUNE 30, 1994 (7/11/96)         OCTOBER 31, 1993 (7/18/96)
MOHAVE-APACHE INDIAN
COMMUNITY, FISCAL YEAR           96-A-1006 SINTE GLESKA          96-A-1029 PICAYUNE
ENDED SEPTEMBER 30, 1995         UNIVERSITY, FISCAL YEAR         RANCHERIA OF THE
(6/27/96)                        ENDED SEPTEMBER 30, 1993        CHUKCHANSI INDIAN TRIBE,
                                 (7/11/96)                       FISCAL YEAR ENDED
96-A-980 KICKAPOO                                                OCTOBER 31, 1994 (7/18/96)
NATION SCHOOL BOARD,             96-A-1007 SINTE GLESKA          **$6,103
FISCAL YEAR ENDED                UNIVERSITY, FISCAL YEAR
JUNE 30, 1993 (6/27/96)          ENDED SEPTEMBER 30, 1994        96-A-1030 WICHITA AND
                                 (7/3/96)                        AFFILIATED TRIBES,
96-A-981 SENECA NATION                                           FISCAL YEAR ENDED
OF INDIANS, FISCAL YEAR          96-A-1008 KENAITZE              SEPTEMBER 30, 1995 (7/18/96)
ENDED SEPTEMBER 30, 1995         INDIAN TRIBE, FISCAL YEAR
(8/1/96)                         ENDED SEPTEMBER 30, 1995        96-A-1031 KICKAPOO
                                 (7/3/96)                        TRADITIONAL TRIBE OF
                                                                 TEXAS, FISCAL YEAR ENDED
                                                                 SEPTEMBER 30, 1994 (7/18/96)




              Semiannual Report to the Congress: April 1, 1996 - September 30, 1996             41
96-A-1032 YAKUTAT NATIVE       96-A-1073 NATIVE VILLAGE        96-A-1096 GREAT LAKES
ASSOCIATION, FISCAL YEAR       OF TANANA, FISCAL YEAR          INTER-TRIBAL COUNCIL,
ENDED DECEMBER 31, 1994        ENDED SEPTEMBER 30, 1994        INC., FISCAL YEAR ENDED
(7/18/96)                      (8/1/96)                        JUNE 30, 1993 (8/8/96)

96-A-1038 UNITED SIOUX         96-A-1074 SITKA TRIBE OF        96-A-1097 GREAT LAKES
TRIBES OF SOUTH DAKOTA         ALASKA, FISCAL YEAR ENDED       INTER-TRIBAL COUNCIL,
DEVELOPMENT CORPORATION,       DECEMBER 31, 1992               INC., FISCAL YEAR ENDED
FISCAL YEAR ENDED              (8/1/96)                        JUNE 30, 1994 (8/8/96)
SEPTEMBER 30, 1994
(7/18/96)                      96-A-1075 SITKA TRIBE OF        96-A-1098 GREAT LAKES
                               ALASKA, FISCAL YEAR ENDED       INTER-TRIBAL COUNCIL,
96-A-1039 CROW TRIBE OF        DECEMBER 31, 1993               INC., FISCAL YEAR ENDED
INDIANS, FISCAL YEAR           (8/1/96)                        JUNE 30, 1995 (8/8/96)
ENDED SEPTEMBER 30, 1994
(7/18/96)                      96-A-1076 SITKA TRIBE OF        96-A-1099 SANTEE SIOUX
                               ALASKA, FISCAL YEAR ENDED       TRIBE OF NEBRASKA,
96-A-1040 CHITIMACHA           DECEMBER 31, 1994               FISCAL YEAR ENDED
TRIBE OF LOUISIANA,            (8/1/96)                        SEPTEMBER 30, 1993 (8/8/96)
FISCAL YEAR ENDED                                              **$4,407
DECEMBER 31, 1995              96-A-1088 NINILCHIK
(7/18/96)                      TRADITIONAL COUNCIL,            96-A-1119 NATIVE VILLAGE
                               FISCAL YEAR ENDED               OF OUZINKIE, FISCAL YEAR
96-A-1041 SICANGU OYATE        SEPTEMBER 30, 1993              ENDED SEPTEMBER 30, 1994
HO, INC., FISCAL YEAR          (8/8/96)                        (8/15/96)
ENDED JUNE 30, 1995
(7/18/96)                      96-A-1089 NINILCHIK             96-A-1120 SENECA-CAYUGA
                               TRADITIONAL COUNCIL,            TRIBE OF OKLAHOMA,
96-A-1056 KUSKOKWIN            FISCAL YEAR ENDED               FISCAL YEAR ENDED
NATIVE ASSOCIATION,            SEPTEMBER 30, 1994              SEPTEMBER 30, 1995 (8/15/96)
FISCAL YEAR ENDED              (8/8/96)
SEPTEMBER 30, 1995                                             96-A-1121 NORTHWESTERN
(7/25/96)                      96-A-1090 NINILCHIK             BAND OF THE SHOSHONI
                               TRADITIONAL COUNCIL,            NATION, FISCAL YEAR ENDED
96-A-1069 NAVAJO NATION,       FISCAL YEAR ENDED               DECEMBER 31, 1993
FISCAL YEAR ENDED              SEPTEMBER 30, 1995              (8/15/96)
MARCH 31, 1995 (8/1/96)        (8/8/96)
**$261,142                                                     96-A-1122 NORTHWESTERN
                               96-A-1091 CITIZEN BAND          BAND OF THE SHOSHONI
96-A-1070 FLANDREAU            POTAWATOMI INDIANS OF           NATION, FISCAL YEAR ENDED
SANTEE SIOUX TRIBE,            OKLAHOMA, FISCAL YEAR           DECEMBER 30, 1994
FISCAL YEAR ENDED              ENDED SEPTEMBER 30, 1995        (8/15/96) **$8,940
DECEMBER 31, 1993              (8/8/96)
(8/1/96)                                                       96-A-1123 MANDAREE
                               96-A-1092 KICKAPOO TRIBE        PUBLIC SCHOOL DISTRICT
96-A-1071 NATIVE VILLAGE       OF OKLAHOMA, FISCAL YEAR        NO. 36, FISCAL YEAR ENDED
OF TANANA, FISCAL YEAR         ENDED SEPTEMBER 30, 1994        JUNE 30, 1995 (8/13/96)
ENDED SEPTEMBER 1993           (8/8/96) **$13,635
(8/1/96)                                                       96-A-1130 MNI SOSE
                               96-A-1093 MARTY INDIAN          INTERTRIBAL WATER
96-A-1072 FLANDREAU            SCHOOL BOARD, INC.,             RIGHTS COALITION, INC.,
SANTEE SIOUX TRIBE,            FISCAL YEAR ENDED               FISCAL YEAR ENDED
FISCAL YEAR ENDED              JUNE 30, 1995 (8/8/96)          DECEMBER 31, 1995 (8/15/96)
DECEMBER 31, 1994
(8/1/96)




42          Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
96-A-1133 CHUGACHMIUT,          96-A-1150 BOIS FORTE            96-A-1168 SCOTTS VALLEY
FISCAL YEAR ENDED               RESERVATION TRIBAL              BAND OF POMO INDIANS,
SEPTEMBER 30, 1994              COUNCIL, FISCAL YEAR            FISCAL YEAR ENDED
(8/15/96)                       ENDED SEPTEMBER 30, 1995        DECEMBER 31, 1995
                                (8/22/96)                       (8/27/96)
96-A-1134 CHUGACHMIUT,
FISCAL YEAR ENDED               96-A-1151 COLORADO              96-A-1174 DEVILS LAKE
SEPTEMBER 30, 1995              RIVER INDIAN TRIBES,            SIOUX TRIBES, FISCAL YEAR
(8/15/96)                       FISCAL YEAR ENDED               ENDED SEPTEMBER 30, 1994
                                DECEMBER 31, 1994 (8/22/96)     (8/29/96)
96-A-1135 ORUTSARARMUIT
NATIVE COUNCIL,                 96-A-1152 ROSEBUD SIOUX         96-A-1175 LAC DU
FISCAL YEAR ENDED               TRIBE, FISCAL YEAR ENDED        FLAMBEAU BAND OF LAKE
DECEMBER 31, 1993 (8/15/96)     SEPTEMBER 30, 1994              SUPERIOR CHIPPEWA INDIANS
                                (8/22/96)                       OF WISCONSIN, FISCAL YEAR
96-A-1136 ORUTSARARMUIT                                         ENDED SEPTEMBER 30, 1995
NATIVE COUNCIL, FISCAL          96-A-1155 KAW NATION,           (8/29/96)
YEAR ENDED                      FISCAL YEAR ENDED
DECEMBER 31, 1994 (8/15/96)     DECEMBER 31, 1994               96-A-1176 PASCUA YAQUI
**$9,090,034                    (8/22/96)                       TRIBE OF ARIZONA,
                                                                FISCAL YEAR ENDED
96-A-1137 YUROK TRIBE,          96-A-1156 ALTURAS               SEPTEMBER 30, 1995 (8/29/96)
FISCAL YEAR ENDED               RANCHERIA, FISCAL YEAR
SEPTEMBER 30, 1993              ENDED DECEMBER 31, 1994         96-A-1177 FORT MOJAVE
(8/15/96)                       (8/22/96)                       INDIAN TRIBE, FISCAL YEAR
                                                                ENDED SEPTEMBER 30, 1994
96-A-1143 TRINIDAD              96-A-1157 ALTURAS               (8/29/96)
RANCHERIA, FISCAL YEAR          RANCHERIA, FISCAL YEAR
ENDED DECEMBER 31, 1995         ENDED DECEMBER 31, 1995         96-A-1178 LEACH LAKE
(8/20/96)                       (8/22/96)                       RESERVATION, FISCAL YEAR
                                                                ENDED JUNE 30, 1995
96-A-1145 ZUNI PUEBLO,          96-A-1163 OGLALA SIOUX          (8/29/96)
FISCAL YEAR ENDED               TRIBE, FISCAL YEAR ENDED
DECEMBER 31, 1993               DECEMBER 31, 1994               96-A-1181 NORTH FORK
(8/22/96)                       (8/22/96) **$24,135             MONO RANCHERIA,
                                                                FISCAL YEAR ENDED
96-A-1146 CIBECUE               96-A-1164 HO-CHUNK              DECEMBER 31, 1995 (8/28/96)
COMMUNITY EDUCATION             NATION, FISCAL YEAR ENDED
BOARD, INC., FISCAL YEAR        JUNE 30, 1995 (8/22/96)         96-A-1182 TABLE BLUFF
ENDED JUNE 30, 1994                                             RESERVATION, FISCAL YEAR
(8/22/96) **$2,719              96-A-1165 OGLALA SIOUX          ENDED DECEMBER 31, 1993
                                TRIBAL PUBLIC SAFETY            (8/28/96)
96-A-1147 AK-CHIN INDIAN        COMMISSION, FISCAL YEAR
COMMUNITY, FISCAL YEAR          ENDED SEPTEMBER 30, 1995        96-A-1189 NEWHALEN TRIBAL
ENDED DECEMBER 31, 1995         (8/22/96)                       COUNCIL, FISCAL YEAR ENDED
(8/22/96)                                                       SEPTEMBER 30, 1995 (8/29/96)
                                96-A-1167 CENTRAL COUNCIL OF
96-A-1148 PUEBLO OF             THE TLINGIT AND HAIDA           96-A-1191 BAY MILLS
LAGUNA, FISCAL YEAR             INDIAN TRIBES OF ALASKA,        INDIAN COMMUNITY,
ENDED FEBRUARY 28, 1994         FISCAL YEAR ENDED               FISCAL YEAR ENDED
(8/22/96) **$12,692             DECEMBER 31, 1995               DECEMBER 31, 1995 (8/29/96)
                                (8/27/96)
96-A-1149 MOAPA BAND OF                                         96-A-1192 LAS VEGAS
PAIUTES, FISCAL YEAR                                            PAIUTE TRIBE, FISCAL YEAR
ENDED DECEMBER 31, 1995                                         ENDED DECEMBER 31, 1995
(8/22/96)                                                       (8/29/96)




             Semiannual Report to the Congress: April 1, 1996 - September 30, 1996             43
96-A-1193 WAHPETON             96-A-1208 NATIVE VILLAGE        96-A-1248 MUSCOGEE
INDIAN SCHOOL, FISCAL          OF KOTZEBUE, FISCAL YEAR        (CREEK) NATION,
YEAR ENDED JUNE 30, 1995       ENDED DECEMBER 31, 1995         FISCAL YEAR ENDED
(8/29/96) **$3,354             (9/5/96)                        SEPTEMBER 30, 1995 (9/26/96)

96-A-1194 PORCUPINE            96-A-1209 PUYALLUP TRIBE        96-A-1257 MANDAREE
SCHOOL, FISCAL YEAR ENDED      OF INDIANS, FISCAL YEAR         PUBLIC SCHOOL DISTRICT
JUNE 30, 1995 (8/29/96)        ENDED SEPTEMBER 30, 1994        NO. 36, FISCAL YEAR ENDED
                               (9/5/96) **$7,829               JUNE 30, 1994 (9/27/96)
96-A-1200 NOOKSACK
INDIAN TRIBE, FISCAL YEAR      96-A-1210 COCOPAH INDIAN        96-A-1263 ORGANIZED
ENDED DECEMBER 31, 1994        TRIBE, FISCAL YEAR ENDED        VILLAGE OF KAKE,
(9/5/96)                       DECEMBER 31, 1993               FISCAL YEAR ENDED
                               (9/5/96)                        DECEMBER 31, 1995 (9/30/96)
96-A-1201 COAST INDIAN
COMMUNITY OF THE               96-A-1211 COCOPAH INDIAN        BUREAU OF LAND
RESIGHINI RANCHERIA,           TRIBE, FISCAL YEAR ENDED        MANAGEMENT
FISCAL YEAR ENDED              DECEMBER 31, 1994
DECEMBER 31, 1995              (9/5/96)
                                                               96-A-659 CLALLAM
(9/5/96)
                                                               COUNTY, WASHINGTON,
                               96-A-1212 SAN CARLOS
                                                               FISCAL YEAR ENDED
96-A-1202 IOWA TRIBE OF        APACHE TRIBE, FISCAL YEAR
                                                               DECEMBER 31, 1994
KANSAS AND NEBRASKA,           ENDED SEPTEMBER 30, 1994
                                                               (4/3/96)
FISCAL YEAR ENDED              (9/5/96)
DECEMBER 31, 1995
                                                               96-A-661 MUSSELSHELL
(9/5/96)                       96-A-1213 EASTERN BAND
                                                               COUNTY, MONTANA, TWO
                               OF CHEROKEE INDIANS,
                                                               FISCAL YEARS ENDED
96-A-1203 EMMONAK TRIBAL       FISCAL YEAR ENDED
                                                               JUNE 30, 1995 (4/4/96)
COUNCIL, FISCAL YEAR           SEPTEMBER 30, 1995
ENDED DECEMBER 31, 1995        (9/5/96)
                                                               96-A-673 WYTHE COUNTY,
(9/5/96)
                                                               VIRGINIA, FISCAL YEAR
                               96-A-1240 UNITED CROW
                                                               ENDED JUNE 30, 1995
96-A-1204 JAMESTOWN            BAND, INC., FISCAL YEAR
                                                               (4/4/96)
S'KLALLAM TRIBE,               ENDED DECEMBER 31, 1995
FISCAL YEAR ENDED              (9/24/96)
                                                               96-A-674 GILES COUNTY,
SEPTEMBER 30, 1995
                                                               VIRGINIA, FISCAL YEAR
(9/5/96)                       96-A-1241 PUEBLO OF ZIA,
                                                               ENDED JUNE 30, 1995
                               FISCAL YEAR ENDED
                                                               (4/4/96)
96-A-1205 MOORETOWN            DECEMBER 31, 1995
RANCHERIA, FISCAL YEAR         (9/26/96)
                                                               96-A-675 SCOTT COUNTY,
ENDED DECEMBER 31, 1995
                                                               VIRGINIA, FISCAL YEAR
(9/5/96)                       96-A-1242 NATIVE VILLAGE
                                                               ENDED JUNE 30, 1995
                               OF DEERING, FISCAL YEAR
                                                               (4/4/96)
96-A-1206 CHEYENNE-ARAPAHO     ENDED AUGUST 31, 1995
TRIBES OF OKLAHOMA,            (9/25/96) **$3,108
                                                               96-A-677 FRANKLIN
FISCAL YEAR ENDED
                                                               COUNTY, VIRGINIA, FISCAL
DECEMBER 31, 1994              96-A-1246 KOOTENAI TRIBE
                                                               YEAR ENDED JUNE 30, 1995
(9/5/96) **$4,117              OF IDAHO, FISCAL YEAR
                                                               (4/4/96)
                               ENDED SEPTEMBER 30, 1995
96-A-1207 SKAGIT SYSTEM        (9/25/96) **$4,327
                                                               96-A-680 GRAYSON
COOPERATIVE, FISCAL YEAR
                                                               COUNTY, VIRGINIA, FISCAL
ENDED DECEMBER 31, 1995        96-A-1247 WINNEBAGO
                                                               YEAR ENDED JUNE 30, 1995
(9/5/96)                       TRIBE OF NEBRASKA,
                                                               (4/4/96)
                               FISCAL YEAR ENDED
                               SEPTEMBER 30, 1994 (9/26/96)




44          Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
96-A-681 PATRICK COUNTY,       96-A-936 NEW MEXICO             96-A-1187 LAKE COUNTY,
VIRGINIA, FISCAL YEAR          ENVIRONMENT DEPARTMENT,         MONTANA, THREE FISCAL
ENDED JUNE 30, 1995            FISCAL YEAR ENDED               YEARS ENDED JUNE 30, 1995
(4/4/96)                       JUNE 30, 1994 (6/19/96)         (8/25/96)

96-A-682 PULASKI               96-A-956 AURORA COUNTY,         96-A-1188 GLACIER COUNTY,
COUNTY, VIRGINIA, FISCAL       SOUTH DAKOTA, TWO               MONTANA, TWO FISCAL
YEAR ENDED JUNE 30, 1995       FISCAL YEARS ENDED DECEMBER     YEARS ENDED JUNE 30, 1995
(4/4/96)                       31, 1995 (6/26/96)              (8/25/96)

96-A-697 MONTGOMERY            96-A-959 DUBUQUE COUNTY,        96-A-1214 YELM COMMUNITY
COUNTY, VIRGINIA, FISCAL       IOWA, FISCAL YEAR ENDED         SCHOOL DISTRICT NO. 2,
YEAR ENDED JUNE 30, 1995       JUNE 30, 1995 (6/26/96)         FISCAL YEAR ENDED
(4/11/96)                                                      AUGUST 31, 1995 (9/5/96)
                               96-A-1018 PHILLIPS COUNTY,
96-A-698 OKANOGAN              MONTANA, FISCAL YEAR ENDED      96-A-1216 FLATHEAD
COUNTY, WASHINGTON,            JUNE 30, 1995 (7/10/96)         COUNTY, MONTANA, TWO
FISCAL YEAR ENDED                                              FISCAL YEARS ENDED
DECEMBER 31, 1994              96-A-1043 LARIMER               JUNE 30, 1995 (9/5/96)
(4/11/96)                      COUNTY, COLORADO,
                               FISCAL YEAR ENDED               96-A-1218 CHENEY SCHOOL
96-A-725 NORTH SLOPE           DECEMBER 31, 1995               DISTRICT NO. 360,
BOROUGH, ALASKA, FISCAL        (7/17/96)                       FISCAL YEAR ENDED
YEAR ENDED JUNE 30, 1995                                       AUGUST 31, 1995 (9/5/96)
(4/17/96)                      96-A-1044 FALLON COUNTY,
                               MONTANA, FISCAL YEAR            96-A-1249 YAVAPAI
96-A-730 POWDER RIVER          ENDED JUNE 30, 1995             COUNTY, ARIZONA, FISCAL
COUNTY, MONTANA, FISCAL        (7/17/96)                       YEAR ENDED JUNE 30, 1995
YEAR ENDED JUNE 30,1995                                        (9/25/96)
(4/17/96)                      96-A-1057 JUAB COUNTY,
                               UTAH, FISCAL YEAR ENDED         96-A-1251 DAWSON COUNTY,
96-A-732 MARICOPA              DECEMBER 31, 1995               MONTANA, FISCAL YEAR
COUNTY, ARIZONA, FISCAL        (7/23/96)                       ENDED JUNE 30, 1995
YEAR ENDED JUNE 30, 1995                                       (9/25/96)
(4/17/96)                      96-A-1060 PIMA COUNTY,
                               ARIZONA, FISCAL YEAR            BUREAU OF
96-A-815 KITTITAS              ENDED JUNE 30, 1995             RECLAMATION
COUNTY, WASHINGTON,            (7/23/96)
FISCAL YEAR ENDED
                                                               96-A-662 KEWEAH DELTA
DECEMBER 31, 1994              96-A-1061 NATIONAL
                                                               WATER CONSERVATION
(5/21/96)                      SCIENCE TEACHERS
                                                               DISTRICT, FISCAL YEAR
                               ASSOCIATION, FISCAL YEAR
                                                               ENDED JUNE 30, 1995
96-A-819 ROSEBUD               ENDED MAY 31, 1995
                                                               (4/3/96) **$8,549
COUNTY, MONTANA, FISCAL        (7/23/96)
YEAR ENDED JUNE 30, 1995
                                                               96-A-696 JUNEAU,
(5/21/96)                      96-A-1108 CASCADE
                                                               ALASKA, FISCAL YEAR
                               COUNTY, MONTANA, FISCAL
                                                               ENDED JUNE 30, 1995 (4/11/96)
96-A-876 SHERIDAN              YEAR ENDED JUNE 30, 1995
COUNTY, MONTANA, FISCAL        (8/9/96)
                                                               96-A-820 DEPARTMENT OF
YEAR ENDED JUNE 30, 1995
                                                               WATER AND POWER, CITY OF
(6/4/96)                       96-A-1110 NATIONAL
                                                               LOS ANGELES, FISCAL YEAR
                               INDIAN JUSTICE CENTER,
                                                               ENDED JUNE 30, 1995
                               INC., TWO FISCAL YEARS
                                                               (5/21/96)
                               ENDED DECEMBER 31, 1995
                               (8/9/96)




            Semiannual Report to the Congress: April 1, 1996 - September 30, 1996              45
96-A-840 MARICOPA                Guam                           Republic of the Marshall
STANFIELD IRRIGATION AND                                        Islands
DRAINAGE DISTRICT, TWO           96-A-821 GUAM ECONOMIC
FISCAL YEARS ENDED               DEVELOPMENT AUTHORITY,         96-A-738 REPUBLIC OF
DECEMBER 31, 1995                FISCAL YEAR ENDED              THE MARSHALL ISLANDS
(5/31/96)                        SEPTEMBER 30, 1995             PRIVATE INDUSTRY COUNCIL,
                                 (5/24/96)                      INC., FISCAL YEAR ENDED
96-A-899 WYOMING, TWO
                                                                JUNE 30, 1994 (4/24/96)
FISCAL YEARS ENDED               96-A-848 UNIVERSITY OF
JUNE 30, 1994 (6/11/96)          GUAM, FISCAL YEAR ENDED        96-A-788 REPUBLIC OF
                                 SEPTEMBER 30, 1995             THE MARSHALL ISLANDS
96-A-1019 UPPER SAN              (5/30/96)                      PRIVATE INDUSTRY COUNCIL,
GABRIEL VALLEY MUNICIPAL
                                                                INC., FISCAL YEAR ENDED
WATER DISTRICT, FISCAL           96-A-902 GUAM TELEPHONE        JUNE 30, 1993 (5/10/96)
YEAR ENDED JUNE 30, 1995         AUTHORITY, FISCAL YEAR
(7/10/96)                        ENDED SEPTEMBER 30,1995        96-A-1117 REPUBLIC OF
                                 (6/13/96)                      THE MARSHALL ISLANDS,
96-A-1058 LINCOLN
                                                                FISCAL YEAR ENDED
COUNTY, MONTANA, TWO             96-A-917 GUAM AIRPORT          SEPTEMBER 30, 1995
FISCAL YEARS ENDED               AUTHORITY, FISCAL YEAR         (8/12/96)
JUNE 30, 1995 (7/24/96)          ENDED SEPTEMBER 30, 1995
                                 (6/18/96)                      U.S. Virgin Islands
96-A-1219 GRAND FORKS,
NORTH DAKOTA,                    96-A-996 GUAM COMMUNITY
FISCAL YEAR ENDED                                               96-A-1144 GOVERNMENT OF
                                 COLLEGE, FISCAL YEAR
DECEMBER 31, 1995                                               THE VIRGIN ISLANDS, FISCAL
                                 ENDED SEPTEMBER 30, 1991
(9/5/96)                                                        YEARS 1989 AND 1990 (8/20/96)
                                 (7/3/96)

INSULAR AREAS                    96-A-997 GUAM COMMUNITY        NATIONAL BIOLOGICAL
                                 COLLEGE, FISCAL YEAR           SERVICE
Federated States of Micronesia   ENDED SEPTEMBER 30, 1992
                                 (7/3/96)                       96-A-768 CALIFORNIA, FISCAL
96-A-770 COLLEGE OF                                             YEAR ENDED JUNE 30, 1994
MICRONESIA, TWO                  96-A-1221 SANCTUARY,           (4/29/96)
FISCAL YEARS ENDED               INCORPORATED, TWO
SEPTEMBER 30, 1994               FISCAL YEARS ENDED             NATIONAL PARK SERVICE
(5/3/96)                         SEPTEMBER 30, 1991
                                  (9/6/96)                      96-A-663 RICHMOND,
96-A-941 MICRONESIAN                                            VIRGINIA, FISCAL YEAR
LEGAL SERVICES                   96-A-1233 GUAM HOUSING         ENDED JUNE 30, 1995
CORPORATION, FISCAL YEAR         AND URBAN RENEWAL              (4/4/96)
ENDED DECEMBER 31, 1995          AUTHORITY, FISCAL YEAR
(6/21/96)                        ENDED SEPTEMBER 30, 1993       96-A-665 ACCOKEEK
                                 (9/12/96)                      FOUNDATION, INC.,
Pohnpei                                                         FISCAL YEAR ENDED
                                 96-A-1260 SANCTUARY,           SEPTEMBER 30, 1995
                                 INCORPORATED, FISCAL YEAR      (4/3/96)
96-A-771 POHNPEI FAMILY
                                 ENDED SEPTEMBER 30, 1994
HEADSTART PROGRAM, FISCAL
                                 (9/27/96)                      96-A-666 SPRINGFIELD,
YEAR ENDED MARCH 31, 1995
(5/3/96)                                                        OREGON, FISCAL YEAR
                                                                ENDED JUNE 30, 1995
                                                                (4/4/96)




46           Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
96-A-667 MEMPHIS,                96-A-845 SOUTH CAROLINA         96-A-1079 COLORADO,
TENNESSEE, FISCAL YEAR           DEPARTMENT OF PARKS,            FISCAL YEAR ENDED
ENDED JUNE 30, 1995              RECREATION AND TOURISM,         JUNE 30, 1993 (7/31/96)
(4/4/96)                         FISCAL YEAR ENDED               **$3,000
                                 JUNE 30, 1995 (5/30/96)
96-A-689 NATIONAL                                                96-A-1094 BERING STRAITS
CONFERENCE OF STATE              96-A-916 EUREKA COAL            FOUNDATION, FISCAL YEAR
HISTORIC PRESERVATION            HERITAGE FOUNDATION,            ENDED DECEMBER 31, 1995
OFFICERS, FISCAL YEAR            INC., FISCAL YEAR ENDED         (8/8/96)
ENDED DECEMBER 31, 1995          DECEMBER 31, 1995
(4/11/96)                        (6/18/96)                       96-A-1104 NEW YORK,
                                                                 NEW YORK, FISCAL YEAR
96-A-699 HELENA,                 96-A-935 BOISE,                 ENDED JUNE 30, 1995
MONTANA, FISCAL YEAR             IDAHO, FISCAL YEAR ENDED        (8/6/96)
ENDED JUNE 30, 1995              SEPTEMBER 30, 1995
(4/11/96)                        (6/19/96)                       96-A-1106 MILWAUKEE,
                                                                 WISCONSIN, FISCAL YEAR
96-A-701 FORT WORTH,             96-A-939 GEORGIA TRUST          ENDED DECEMBER 31, 1995 (8/6/96)
TEXAS, FISCAL YEAR               FOR HISTORIC
ENDED SEPTEMBER 30, 1995         PRESERVATION, INC.,             96-A-1111 SPRINGFIELD,
(4/11/96)                        FISCAL YEAR ENDED MARCH 31,     MASSACHUSETTS,
                                 1995                            FISCAL YEAR ENDED
96-A-726 MASSACHUSETTS,          (6/20/96)                       JUNE 30, 1995 (8/9/96)
FISCAL YEAR ENDED
JUNE 30, 1995 (4/17/96)          96-A-953 ARKANSAS               96-A-1127 FISK
                                 HISTORIC PRESERVATION           UNIVERSITY, FISCAL YEAR
96-A-729 MONTANA, TWO            PROGRAM, FISCAL YEAR            ENDED JUNE 30,1 995
FISCAL YEARS ENDED               ENDED JUNE 30, 1995             (8/12/96)
JUNE 30, 1995 (4/17/96)          (6/27/96)
                                                                 96-A-1128 LOS ANGELES,
96-A-731 DETROIT,                96-A-960 DELTA COUNTY,          CALIFORNIA, FISCAL
MICHIGAN, FISCAL YEAR            MICHIGAN, FISCAL YEAR           YEAR ENDED JUNE 30, 1995
ENDED JUNE 30, 1995              ENDED DECEMBER 31, 1995         (8/13/96)
(4/17/96)                        (6/26/96)
                                                                 96-A-1131 BETHUNE MUSEUM
96-A-767 JOHNSTOWN AREA          96-A-1001 MARYLAND,             AND ARCHIVES, INC.,
HERITAGE ASSOCIATION,            FISCAL YEAR ENDED               FISCAL YEAR ENDED
FISCAL YEAR ENDED                JUNE 30, 1995 (7/2/96)          SEPTEMBER 30, 1994
AUGUST 31, 1995 (5/2/96)                                         (8/15/96) **$25,875
                                 96-A-1034 NATIONAL
96-A-818 CHARLOTTE               COUNCIL FOR THE                 96-A-1160 SYRACUSE
COUNTY, FLORIDA,                 TRADITIONAL ARTS, INC.,         UNIVERSITY, FISCAL YEAR
FISCAL YEAR ENDED                FISCAL YEAR ENDED               ENDED JUNE 30, 1995
SEPTEMBER 30, 1995 (5/21/96)     DECEMBER 31, 1995               (8/21/96)
                                 (7/17/96)
96-A-836 ST. PETERSBURG,                                         96-A-1161 LITTLE ROCK,
FLORIDA, FISCAL YEAR             96-A-1042 UNIVERSITY OF         ARKANSAS, FISCAL YEAR
ENDED SEPTEMBER 30, 1995         HAWAII, FISCAL YEAR             ENDED DECEMBER 31, 1995
(5/29/96)                        ENDED JUNE 30, 1995             (8/22/96)
                                 (7/17/96)
96-A-838 BEXAR COUNTY,                                           96-A-1190 APPALACHIAN
TEXAS, FISCAL YEAR ENDED         96-A-1059 BALTIMORE,            TRAIL CONFERENCE, FISCAL
SEPTEMBER 30, 1995               MARYLAND, FISCAL                YEAR ENDED DECEMBER 31, 1995
(5/29/96)                        YEAR ENDED JUNE 30, 1995        (8/29/96)
                                 (7/24/96)




              Semiannual Report to the Congress: April 1, 1996 - September 30, 1996           47
96-A-1215 HUTCHINSON,            96-A-1046 UNIVERSITY OF         U.S. FISH AND WILDLIFE
KANSAS, FISCAL YEAR              CALIFORNIA, FISCAL YEAR         SERVICE
ENDED DECEMBER 31, 1995          ENDED JUNE 30, 1995
(9/5/96)                         (7/18/96)
                                                                 96-A-683 NEBRASKA,
                                                                 FISCAL YEAR ENDED
96-A-1252 HILLSBOROUGH           96-A-1078 NORTHWESTERN
                                                                 JUNE 30, 1994 (4/4/96)
COUNTY, FLORIDA,                 UNIVERSITY, FISCAL YEAR
FISCAL YEAR ENDED                ENDED AUGUST 31, 1995
                                                                 96-A-694 TENNESSEE,
SEPTEMBER 30, 1995 (9/25/96)     (7/31/96)
                                                                 FISCAL YEAR ENDED
                                                                 JUNE 30, 1994 (4/11/96)
96-A-1253 CHICAGO,               96-A-1102 UNIVERSITY OF
ILLINOIS, FISCAL YEAR            PITTSBURGH, FISCAL YEAR
                                                                 96-A-702 NORTH
ENDED DECEMBER 31, 1995          ENDED JUNE 30, 1995
                                                                 CAROLINA, FISCAL YEAR
(9/25/96)                        (8/6/96)
                                                                 ENDED JUNE 30, 1994
                                                                 (4/11/96)
OFFICE OF THE                    96-A-1103 JOHNS HOPKINS
SECRETARY                        UNIVERSITY, FISCAL YEAR
                                                                 96-A-814 IOWA, FISCAL
                                 ENDED JUNE 30, 1995
                                                                 YEAR ENDED JUNE 30, 1994
                                 (8/6/96)
96-A-695 UNIVERSITY OF                                           (5/22/96) **$1,740
DENVER (COLORADO
                                 96-A-1105 VANDERBILT
SEMINARY), TWO FISCAL                                            96-A-817 COLUMBUS, OHIO,
                                 UNIVERSITY, FISCAL YEAR
YEARS ENDED JUNE 30, 1995                                        FISCAL YEAR ENDED
                                 ENDED JUNE 30, 1995
(4/11/96)                                                        DECEMBER 31, 1995
                                 (8/6/96)
                                                                 (5/21/96)
96-A-864 STUTSMAN
                                 96-A-1159 NATIONAL
COUNTY, NORTH DAKOTA,                                            96-A-837 UNIVERSITY OF
                                 ACADEMY OF SCIENCES,
FISCAL YEAR ENDED                                                VERMONT AND STATE
                                 FISCAL YEAR ENDED
DECEMBER 31, 1995                                                AGRICULTURAL COLLEGE,
                                 JUNE 30, 1995 (8/20/96)
(5/31/96)                                                        FISCAL YEAR ENDED
                                                                 JUNE 30, 1995 (5/29/96)
96-A-877 UNIVERSITY OF           OFFICE OF SURFACE
ILLINOIS, FISCAL YEAR            MINING                          96-A-839 MAINE, FISCAL
ENDED JUNE 30, 1995              RECLAMATION AND                 YEAR ENDED JUNE 30, 1994
(6/4/96)                                                         (5/29/96)
                                 ENFORCEMENT
96-A-879 OREGON                                                  96-A-842 NORTH THURSTON
                                 96-A-1107 SOUTHERN ILLINOIS
GRADUATE INSTITUTE OF                                            SCHOOL DISTRICT NO. 3,
                                 UNIVERSITY, FISCAL YEAR ENDED
SCIENCE AND TECHNOLOGY,                                          FISCAL YEAR ENDED
                                 JUNE 30, 1995 (8/9/96)
FISCAL YEAR ENDED                                                AUGUST 31, 1995 (5/29/96)
JUNE 30, 1995 (6/4/96)
                                 U.S. BUREAU OF MINES            96-A-878 COLUMBIA
96-A-880 ITHACA                                                  SCHOOL DISTRICT NO. 400,
COLLEGE, FISCAL YEAR             96-A-888 OHIO                   TWO FISCAL YEARS ENDED
ENDED MAY 31, 1995               UNIVERSITY, FISCAL YEAR         AUGUST 31, 1995 (6/4/96)
(6/4/96)                         ENDED JUNE 30, 1995
                                 (6/7/96)                        96-A-893 NATIVE AMERICAN FISH
96-A-937 UNIVERSITY OF                                           AND WILDLIFE SOCIETY, FISCAL
MICHIGAN, FISCAL YEAR            96-A-1000 AMERICAN              YEAR ENDED
ENDED JUNE 30, 1995              GEOLOGICAL INSTITUTE,           DECEMBER 31, 1994 (6/12/96)
(6/19/96)                        FISCAL YEAR ENDED
                                 DECEMBER 31, 1994               96-A-894 NATIVE
96-A-1045 COLUMBIA               (7/2/96)                        AMERICAN FISH AND WILDLIFE
UNIVERSITY, FISCAL YEAR                                          SOCIETY, FISCAL YEAR
ENDED JUNE 30, 1995                                              ENDED DECEMBER 31, 1995
(7/18/96)                                                        (6/12/96)




48            Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
96-A-901 ALABAMA, TWO            96-A-1095 AMERICAN              96-A-1184 IOWA, FISCAL
FISCAL YEARS ENDED               SPORTFISHING ASSOCIATION,       YEAR ENDED JUNE 30, 1995
SEPTEMBER 30, 1994               FISCAL YEAR ENDED               (8/29/96)
(6/12/96)                        SEPTEMBER 30, 1995
                                 (8/8/96)                        96-A-1185 NEW YORK,
96-A-933 OHIO, FISCAL                                            FISCAL YEAR ENDED
YEAR ENDED JUNE 30, 1995         96-A-1101 FERGUS COUNTY         MARCH 31, 1995 (8/28/96)
(6/19/96)                        CONSERVATION DISTRICT, TWO
                                 FISCAL YEARS ENDED              96-A-1186 BENNETT
96-A-934 RHODE ISLAND            JUNE 30, 1995 (8/6/96)          COUNTY, SOUTH DAKOTA,
AND PROVIDENCE                                                   TWO FISCAL YEARS ENDED
PLANTATIONS, FISCAL YEAR         96-A-1109 INDIANA,              DECEMBER 31, 1995
ENDED JUNE 30, 1994              FISCAL YEAR ENDED               (8/25/96)
(6/19/96)                        JUNE 30, 1994 (8/9/96)
                                                                 96-A-1217 MISSOURI
96-A-998 UNIVERSITY OF           96-A-1124 HOMER CITY,           BOTANICAL GARDEN,
MASSACHUSETTS, FISCAL            ALASKA, FISCAL YEAR ENDED       FISCAL YEAR ENDED
YEAR ENDED JUNE 30, 1995         DECEMBER 31, 1995               DECEMBER 31, 1995
(7/3/96)                         (8/12/96)                       (9/5/96)

96-A-999 NEBRASKA,               96-A-1125 UNIVERSITY OF         96-A-1220 STATE FORESTRY
FISCAL YEAR ENDED                MINNESOTA, FISCAL YEAR          COMMISSION, FISCAL YEAR
JUNE 30, 1995 (7/3/96)           ENDED JUNE 30, 1995 (8/12/96)   ENDED JUNE 30, 1995
                                                                 (9/5/96)
96-A-1004 SOUTH                  96-A-1126 DENNIS ,
CAROLINA, FISCAL YEAR            MASSACHUSETTS, FISCAL           96-A-1250 EDMUNDS
ENDED JUNE 30, 1995              YEAR ENDED JUNE 30,1 995        COUNTY, SOUTH DAKOTA,
(7/3/96)                         (8/12/96)                       TWO FISCAL YEARS ENDED
                                                                 DECEMBER 31, 1995
96-A-1020 PRBO,                  96-A-1132 MEXICO                (9/25/96)
FISCAL YEAR ENDED                DEPARTMENT OF GAME AND
DECEMBER 31, 1995 (7/10/96)      FISH, FISCAL YEAR ENDED         U.S. GEOLOGICAL SURVEY
                                 JUNE 30, 1995 (8/15/96)
96-A-1035 THE INTERNATIONAL      **$1,077                        96-A-700 INSTITUTE OF
CRANE FOUNDATION, INC., FISCAL                                   ECOSYSTEM STUDIES, INC.,
YEAR ENDED                       96-A-1138 NATIONAL              FISCAL YEAR ENDED
DECEMBER 31, 1995 (7/17/96)      FISHING WEEK STEERING           JUNE 30, 1995 (4/11/96)
                                 COMMITTEE, FISCAL YEAR
96-A-1037 KAWERAK, INC.,         ENDED DECEMBER 31, 1995         96-A-905 ASSOCIATION OF
FISCAL YEAR ENDED                (8/15/96)                       BAY AREA GOVERNMENTS,
DECEMBER 31, 1995                                                TWO FISCAL YEARS ENDED
(7/17/96)                        96-A-1139 NATIONAL FISH         JUNE 30, 1995 (6/12/96)
                                 AND WILDLIFE FOUNDATION,
96-A-1048 UNIVERSITY OF          FISCAL YEAR ENDED               96-A-958 UNIVERSITY OF
SOUTHERN MISSISSIPPI,            SEPTEMBER 30, 1995              NOTRE DAME DU LAC, FISCAL
FISCAL YEAR ENDED                (8/15/96)                       YEAR ENDED JUNE 30, 1995
JUNE 30, 1995 (7/18/96)                                          (6/26/96)
                                 96-A-1158 OKLAHOMA,
96-A-1080 WISCONSIN,             FISCAL YEAR ENDED               96-A-1047 UNIVERSITY OF
FISCAL YEAR ENDED                JUNE 30, 1995 (8/21/96)         NEW HAMPSHIRE, FISCAL
JUNE 30, 1994 (7/31/96)                                          YEAR ENDED JUNE 30, 1995
**$24,307                        96-A-1183 MISSISSIPPI,          (7/18/96)
                                 FISCAL YEAR ENDED
                                 JUNE 30, 1995 (8/29/96)




              Semiannual Report to the Congress: April 1, 1996 - September 30, 1996          49
                                96-P-654 MENTASTA LAKE          96-P-706 SANTA FE
INDIRECT COST                   VILLAGE TRADITIONAL             INDIAN SCHOOL, FISCAL
PROPOSALS                       COUNCIL, FISCAL YEAR            YEAR ENDED JUNE 30, 1990
                                ENDED DECEMBER 31, 1996         (4/16/96)
BUREAU OF INDIAN                (4/2/96)
                                                                96-P-707 SANTA FE
AFFAIRS                         96-P-655 CROW CREEK             INDIAN SCHOOL, FISCAL
                                SIOUX TRIBE, FISCAL YEAR        YEAR ENDED JUNE 30, 1996
96-P-642 CHITIMACHA
                                ENDED SEPTEMBER 30, 1995        (4/16/96) *$38,869
TRIBE OF LOUISIANA,
                                (4/3/96)
FISCAL YEAR ENDED
                                                                96-P-709 EASTERN
DECEMBER 31, 1996
                                96-P-656 CROW CREEK             SHAWNEE TRIBE OF
(4/1/96)
                                SIOUX TRIBE, FISCAL YEAR        OKLAHOMA, FISCAL YEAR
                                ENDED SEPTEMBER 30, 1996        ENDED SEPTEMBER 30, 1996
96-P-646 ALABAMA/
                                (4/3/96)                        (4/16/96) *$4,126
QUASSARTE TRIBAL TOWN,
FISCAL YEAR ENDED
                                96-P-676 CONFEDERATED           96-P-710 SAUK-SUIATTLE
SEPTEMBER 30, 1996
                                TRIBES OF THE COLVILLE          INDIAN TRIBE, FISCAL YEAR
(4/2/96)
                                RESERVATION, FISCAL YEAR        ENDED DECEMBER 31, 1996
                                ENDED SEPTEMBER 30, 1996        (4/16/96)
96-P-647 NORTH FORK
                                (4/4/96) *$8,976
MONO RANCHERIA,
                                                                96-P-712 ORGANIZED
FISCAL YEAR ENDED
                                96-P-685 LITTLE RIVER           VILLAGE OF KAKE,
DECEMBER 31, 1996 (4/2/96)
                                BAND OF OTTAWA INDIANS,         FISCAL YEAR ENDED
                                6 MONTHS ENDED                  DECEMBER 31, 1996
96-P-648 HOWONQUET
                                SEPTEMBER 30, 1996              (4/16/96) *$9,649
INDIAN COUNCIL-SMITH
                                (4/9/96)
RIVER RANCHERIA,
                                                                96-P-714 WESTERN APACHE
FISCAL YEAR ENDED
                                96-P-686 SEMINOLE TRIBE         CONSTRUCTION, FISCAL YEAR
DECEMBER 31, 1996 (4/2/96)
                                OF FLORIDA, FISCAL YEAR         ENDED DECEMBER 31, 1996
*$73,417
                                ENDED JUNE 30, 1995             (4/16/96)
                                (4/9/96)
96-P-649 HOWONQUET
                                                                96-P-715 PYRAMID LAKE
INDIAN COUNCIL-SMITH
                                96-P-690 JICARILLA              PAIUTE TRIBAL COUNCIL,
RIVER RANCHERIA,
                                APACHE TRIBE, FISCAL YEAR       FISCAL YEAR ENDED
FISCAL YEAR ENDED
                                ENDED JUNE 30, 1997             DECEMBER 31, 1996
DECEMBER 31, 1994 (4/2/96)
                                (4/10/96) *$694,939             (4/16/96) *$62,717
96-P-650 COAST INDIAN
                                96-P-693 BEAR RIVER             96-P-716 MAKAH TRIBAL
COMMUNITY OF THE
                                BAND OF ROHNERVILLE             COUNCIL, FISCAL YEAR
RESIGHINI RANCHERIA,
                                RANCHERIA, FISCAL YEAR          ENDED SEPTEMBER 30, 1996
FISCAL YEAR ENDED
                                ENDED SEPTEMBER 30, 1996        (4/16/96) *$412,273
DECEMBER 31, 1996
                                (4/10/96) *$3,524
(4/2/96)
                                                                96-P-718 MENOMINEE
                                96-P-704 SAC AND FOX            INDIAN TRIBE OF
96-P-651 QUILEUTE TRIBAL
                                TRIBE OF THE MISSISSIPPI        WISCONSIN, FISCAL YEAR
COUNCIL, FISCAL YEAR
                                IN IOWA, FISCAL YEAR            ENDED SEPTEMBER 30, 1996
ENDED SEPTEMBER 30, 1996
                                ENDED SEPTEMBER 30, 1996        (4/16/96)
(4/2/96) *$2,444
                                (4/11/96)
                                                                96-P-733 CONFEDERATED
96-P-653 CHICKEN RANCH
                                96-P-705 KIALEGEE               TRIBES OF THE GOSHUTE
RANCHERIA, FISCAL YEAR
                                TRIBAL TOWN, FISCAL YEAR        RESERVATION, FISCAL YEAR
ENDED DECEMBER 31, 1996
                                ENDED SEPTEMBER 30, 1996        ENDED SEPTEMBER 30, 1996
(4/2/96)
                                (4/16/96) *$104,521             (4/19/96) *$24,450




50           Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
96-P-734 DEVIL'S LAKE            96-P-764 HUALAPAI               96-P-797 SHERWOOD
SIOUX TRIBE, FISCAL YEAR         TRIBE, FISCAL YEAR ENDED        VALLEY BAND OF POMO
ENDED SEPTEMBER 30, 1993         DECEMBER 31, 1996               INDIANS, FISCAL YEAR
(4/19/96)                        (5/1/96) *$33,065               ENDED DECEMBER 31, 1996
                                                                 (5/14/96) *$18,135
96-P-735 DEVIL'S LAKE            96-P-772 ASSINIBOINE
SIOUX TRIBE, FISCAL YEAR         AND SIOUX TRIBES-FORT           96-P-798 CITIZEN BAND
ENDED SEPTEMBER 30, 1996         PECK RESERVATION, FISCAL        POTAWATOMI INDIANS OF
(4/19/96)                        YEAR ENDED SEPTEMBER 30,        OKLAHOMA, FISCAL YEAR
                                 1996 (5/3/96) *$16,099          ENDED SEPTEMBER 30, 1996
96-P-737 ROCK POINT                                              (5/14/96) *$20,966
COMMUNITY SCHOOL, FISCAL         96-P-777 ALBUQUERQUE
YEAR ENDED JUNE 30, 1997         AREA INDIAN HEALTH BOARD,       96-P-799 CHEYENNE RIVER
(4/22/96) *$13,154               INC., FISCAL YEAR ENDED         SIOUX TRIBE, FISCAL YEAR
                                 SEPTEMBER 30, 1996              ENDED SEPTEMBER 30, 1996
96-P-749 BAD RIVER BAND          (5/3/96) *$53,226               (5/14/96)
OF LAKE SUPERIOR CHIPPEWA
INDIANS, FISCAL YEAR             96-P-778 KICKAPOO TRIBE         96-P-800 NATIVE VILLAGE
ENDED SEPTEMBER 30, 1996         OF OKLAHOMA, FISCAL YEAR        OF BARROW, FISCAL YEAR
(4/26/96)                        ENDED SEPTEMBER 30, 1996        ENDED DECEMBER 31, 1996
                                 (5/3/96)                        (5/16/96) *$1,000
96-P-750 MENOMINEE
TRIBAL ENTERPRISES,              96-P-781 YAKUTAT NATIVE         96-P-804 SUQUAMISH
FISCAL YEAR ENDED                ASSOCIATION, FISCAL YEAR        TRIBE, FISCAL YEAR ENDED
SEPTEMBER 30, 1996               ENDED DECEMBER 31, 1996         DECEMBER 31, 1996
(7/11/96)                        (5/7/96) *$1,014                (5/21/96) *$2,802

96-P-751 IOWA TRIBE OF           96-P-782 SAN CARLOS             96-P-825 ALAMO NAVAJO
OKLAHOMA, FISCAL YEAR            APACHE TRIBE, FISCAL YEAR       SCHOOL BOARD, INC.,
ENDED DECEMBER 31, 1996          ENDED SEPTEMBER 30, 1996        FISCAL YEAR ENDED
(4/26/96) *$2,028                (5/7/96)                        JUNE 30, 1996 (5/28/96)
                                                                 *$70,442
96-P-752 GRAND TRAVERSE          96-P-784 GRAND PORTAGE
BAND OF OTTAWA AND               RESERVATION, FISCAL YEAR        96-P-831 KETCHIKAN
CHIPPEWA INDIANS,                ENDED SEPTEMBER 30, 1997        INDIAN CORPORATION,
FISCAL YEAR ENDED                (5/7/96)                        FISCAL YEAR ENDED
SEPTEMBER 30, 1997 (4/29/96)                                     DECEMBER 31, 1994
                                 96-P-785 LITTLE TRAVERSE        (5/29/96) *$9,134
96-P-753 POKAGON BAND            BAY BAND OF ODAWA INDIANS,
OF POTAWATOMI,                   FISCAL YEAR ENDED               96-P-832 KETCHIKAN
FISCAL YEAR ENDED                DECEMBER 31, 1996 (5/7/96)      INDIAN CORPORATION,
DECEMBER 31, 1996 (4/29/96)                                      FISCAL YEAR ENDED
                                 96-P-793 MOORETOWN              DECEMBER 31, 1996
96-P-760 TEMECULA BAND           RANCHERIA, FISCAL YEAR          (5/29/96) *$9,134
OF LUISENO MISSION               ENDED DECEMBER 31, 1996
INDIANS-PECHANGA INDIAN          (5/10/96) *$3,131               96-P-850 MUSCOGEE CREEK
RESERVATION, FISCAL YEAR                                         NATION HEALTH SYSTEMS,
ENDED JULY 31, 1996              96-P-796 COOK INLET             FISCAL YEAR ENDED
(5/1/96)                         TRIBAL COUNCIL,                 DECEMBER 31, 1996
                                 FISCAL YEAR ENDED               (5/30/96) *$142,109
96-P-763 KAIBAB BAND             SEPTEMBER 30, 1997 (5/14/96)
OF PAIUTE INDIANS,               *$7,498                         96-P-863 REDDING
FISCAL YEAR ENDED                                                RANCHERIA, FISCAL YEAR
DECEMBER 31, 1996 (5/1/96)                                       ENDED DECEMBER 31, 1996
                                                                 (5/31/96)




              Semiannual Report to the Congress: April 1, 1996 - September 30, 1996         51
96-P-866 DULL KNIFE            96-P-915 UNITED TRIBES          96-P-993 NAVAJO NATION,
MEMORIAL COLLEGE, FISCAL       TECHNICAL COLLEGE,              FISCAL YEAR ENDED
YEAR ENDED JUNE 30, 1997       FISCAL YEAR ENDED               SEPTEMBER 30, 1996
(6/6/96)                       JUNE 30, 1996                   (7/1/96)
                               (6/17/96) *$15,738
96-P-867 DULL KNIFE                                            96-P-994 PAWNEE TRIBE
MEMORIAL COLLEGE, FISCAL       96-P-918 SWINOMISH TRIBAL       OF OKLAHOMA, FISCAL YEAR
YEAR ENDED JUNE 30, 1995       COMMUNITY, FISCAL YEAR          ENDED DECEMBER 31, 1996
(6/4/96)                       ENDED DECEMBER 31, 1996         (7/2/96) *$33,785
                               (6/18/96)
96-P-881 LAC VIEUX                                             96-P-1011 LOWER ELWHA
DESERT BAND OF LAKE            96-P-919 TORRES-MARTINEZ        TRIBAL COUNCIL,
SUPERIOR CHIPPEWA              DESERT CAHUILLA INDIANS,        FISCAL YEAR ENDED
INDIANS, FISCAL YEAR           FISCAL YEAR ENDED               SEPTEMBER 30, 1996 (7/9/96)
ENDED DECEMBER 31, 1996        DECEMBER 31, 1997 (6/18/96)
(6/4/96)                                                       96-P-1013 KUIGPAGMIUT,
                               96-P-921 CENTRAL COUNCIL        INC., FISCAL YEAR ENDED
96-P-890 PUYALLUP TRIBE        OF THE TLINGIT AND HAIDA        DECEMBER 31, 1996
OF INDIANS, FISCAL YEAR        INDIAN TRIBES OF ALASKA,        (7/9/96) *$110,088
ENDED DECEMBER 31, 1995        FISCAL YEAR ENDED
(6/11/96)                      DECEMBER 31, 1996 (6/18/96)     96-P-1014 MUSCOGEE (CREEK)
                                                               NATION, FISCAL YEAR ENDED
96-P-896 YSLETA DEL SUR        96-P-922 CENTRAL COUNCIL        SEPTEMBER 30, 1996
PUEBLO, FISCAL YEAR ENDED      OF THE TLINGIT AND HAIDA        (7/9/96)
DECEMBER 31, 1995              INDIAN TRIBES OF ALASKA,
(6/12/96) *$79,005             FISCAL YEAR ENDED               96-P-1015 POJOAQUE
                               DECEMBER 31, 1994 (6/18/96)     PUEBLO, FISCAL YEAR ENDED
96-P-897 YSLETA DEL SUR                                        SEPTEMBER 30, 1996
PUEBLO, FISCAL YEAR ENDED      96-P-986 NATIVE VILLAGE         (7/9/96) *$32,412
DECEMBER 31, 1996              OF GAMBELL, FISCAL YEAR
(6/12/96)                      ENDED DECEMBER 31, 1996         96-P-1016 ACOMA PUEBLO,
                               (6/27/96) *$8,260               FISCAL YEAR ENDED
96-P-898 GANA'A YOO,                                           DECEMBER 31, 1996
LTD., FISCAL YEAR ENDED        96-P-988 NORTHWESTERN           (7/9/96) *$49,611
NOVEMBER 30, 1996              BAND OF THE SHOSHONE
(6/12/96)                      NATION, FISCAL YEAR ENDED       96-P-1024 ST. CROIX TRIBAL
                               DECEMBER 31, 1996               COUNCIL, FISCAL YEAR
96-P-912 WHITE MOUNTAIN        (6/27/96)                       ENDED SEPTEMBER 30, 1996
APACHE TRIBE, FISCAL YEAR                                      (7/11/96)
ENDED APRIL 30, 1997           96-P-989 HOOPA VALLEY
(6/17/96) *$73,443             TRIBE, FISCAL YEAR ENDED        96-P-1065 MILLE LACS
                               SEPTEMBER 30, 1996              BAND OF CHIPPEWA INDIANS,
96-P-913 UNITED TRIBES         (6/28/96) *$44,909              FISCAL YEAR ENDED
TECHNICAL COLLEGE, FISCAL                                      SEPTEMBER 30, 1996
YEAR ENDED JUNE 30, 1992       96-P-991 JEMEZ PUEBLO,          (7/29/96)
(6/17/96)                      FISCAL YEAR ENDED
                               SEPTEMBER 30, 1997              96-P-1066
96-P-914 UNITED TRIBES         (7/1/96) *$14,563               SHOSHONE-PAIUTE TRIBES OF
TECHNICAL COLLEGE, FISCAL                                      THE DUCK VALLEY
YEAR ENDED JUNE 30, 1995       96-P-992 WYANDOTTE              RESERVATION, FISCAL YEAR
(6/17/96)                      TRIBE OF OKLAHOMA,              ENDED SEPTEMBER 30, 1996
                               FISCAL YEAR ENDED               (7/29/96) *$133,927
                               SEPTEMBER 30, 1997 (7/1/96)
                               *$89,126




52          Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
96-P-1077 LAC COURTE             96-P-1169 YOMBA                 96-P-1225 SHOSHONE
OREILLES TRIBAL GOVERNING        SHOSHONE TRIBE, FISCAL          BANNOCK TRIBES,
BOARD, FISCAL YEAR ENDED         YEAR ENDED                      FISCAL YEAR ENDED
SEPTEMBER 30, 1996               DECEMBER 31, 1996               SEPTEMBER 30, 1996 (9/10/96)
(7/31/96)                        (8/27/96) *$4,346               *$559,954

96-P-1086 AKIACHAK NATIVE        96-P-1170 BLACKFEET             96-P-1226 DUCKWATER
COMMUNITY, FISCAL YEAR           TRIBE, FISCAL YEAR ENDED        SHOSHONE TRIBE,
ENDED DECEMBER 31, 1996          SEPTEMBER 30, 1996              FISCAL YEAR ENDED
(8/5/96) *$7,333                 (8/27/96) *$66,614              DECEMBER 31, 1995 (9/10/96)
                                                                 *$63,557
96-P-1087 HOWONQUET              96-P-1171 CROW TRIBE OF
INDIAN COUNCIL OF THE            INDIANS, FISCAL YEAR            96-P-1227 DUCKWATER
SMITH RIVER RANCHERIA,           ENDED SEPTEMBER 30, 1994        SHOSHONE TRIBE,
FISCAL YEAR ENDED                (8/27/96) *$96,936              FISCAL YEAR ENDED
DECEMBER 31, 1996                                                DECEMBER 31, 1996 (9/10/96)
(8/5/96)                         96-P-1172 CROW TRIBE OF         *$36,402
                                 INDIANS, FISCAL YEAR
96-P-1100 PENOBSCOT              ENDED SEPTEMBER 30, 1996        96-P-1228 DUCKWATER
INDIAN NATION,                   (8/27/96) *$75,007              SHOSHONE TRIBE,
FISCAL YEAR ENDED                                                FISCAL YEAR ENDED
SEPTEMBER 30, 1996 (8/7/96)      96-P-1179 AKIAK NATIVE          DECEMBER 31, 1997 (9/10/96)
                                 COMMUNITY, FISCAL YEAR          *$19,203
96-P-1112 CHIPPEWA CREE          ENDED DECEMBER 31, 1996
TRIBE OF THE ROCKY               (8/27/96) *$5,100               96-P-1229 MODOC TRIBE OF
BOYS RESERVATION,                                                OKLAHOMA, FISCAL YEAR
FISCAL YEAR ENDED                96-P-1180 METLAKATLA            ENDED SEPTEMBER 30, 1997
SEPTEMBER 30, 1996 (8/12/96)     INDIAN COMMUNITY,               (9/10/96) *$52,267
*$152,386                        FISCAL YEAR ENDED
                                 SEPTEMBER 30, 1997 (8/27/96)    96-P-1230 CHICKASAW
96-P-1114 TE-MOAK TRIBE          *$58,731                        NATION OF OKLAHOMA,
OF WESTERN SHOSHONE,                                             FISCAL YEAR ENDED
FISCAL YEAR ENDED                96-P-1195 MINNESOTA             SEPTEMBER 30, 1996
SEPTEMBER 30, 1997               CHIPPEWA TRIBE,                 (9/10/96) *$584,448
(8/12/96) *$8,910                FISCAL YEAR ENDED
                                 SEPTEMBER 30, 1996 (8/28/96)    96-P-1231 DELAWARE TRIBE
96-P-1115 LAGUNA PUEBLO,                                         OF WESTERN OKLAHOMA,
FISCAL YEAR ENDED                96-P-1196 BAY MILLS             FISCAL YEAR ENDED
FEBRUARY 29, 1996                COMMUNITY COLLEGE, FISCAL       SEPTEMBER 30, 1996
(8/12/96) *$8,051                YEAR ENDED JUNE 30, 1997        (9/10/96) *$6,533
                                 (8/28/96)
96-P-1116 OSAGE NATION,                                          96-P-1234 SANDIA PUEBLO,
FISCAL YEAR ENDED                96-P-1199 YANKTON SIOUX         FISCAL YEAR ENDED
SEPTEMBER 30, 1996               TRIBE, FISCAL YEAR ENDED        DECEMBER 31, 1996
(8/12/96) *$18,850               DECEMBER 31, 1995               (9/16/96)
                                 (9/4/96)
96-P-1118 ONEIDA TRIBE                                           96-P-1235 RAMAH NAVAJO
OF INDIANS OF WISCONSIN,         96-P-1222 AROOSTOOK BAND        CHAPTER, FISCAL YEAR
FISCAL YEAR ENDED                OF MICMACS, FISCAL YEAR         ENDED DECEMBER 31, 1996
SEPTEMBER 30, 1996               ENDED NOVEMBER 30, 1996         (9/16/96) *$73,519
(8/13/96)                        (9/9/96)
                                                                 96-P-1236 RAMAH NAVAJO
96-P-1162 JAMESTOWN              96-P-1223 TRENTON INDIAN        CHAPTER, FISCAL YEAR
S'KLALLAM TRIBE,                 SERVICES AREA, FISCAL YEAR      ENDED DECEMBER 31, 1994
FISCAL YEAR ENDED                ENDED SEPTEMBER 30, 1996        (9/16/96)
SEPTEMBER 30, 1997 (8/22/96)     (9/9/96) *$93,605




              Semiannual Report to the Congress: April 1, 1996 - September 30, 1996             53
96-P-1237 KWIGILLINOK            96-P-1254 COMMONWEALTH          NATIONAL PARK SERVICE
NATIVE COMMUNITY,                OF THE NORTHERN MARIANA
FISCAL YEAR ENDED,               ISLANDS, FISCAL YEAR            96-P-645 MINNESOTA
DECEMBER 31, 1996 (9/16/96)      ENDED SEPTEMBER 30, 1997        HISTORICAL SOCIETY,
                                 (9/25/96)                       FISCAL YEAR ENDED
96-P-1238 FORT MCDOWELL                                          JUNE 30, 1997 (4/2/96)
MOHAVE-APACHE INDIAN             Guam
COMMUNITY, FISCAL YEAR                                           96-P-684 VIRGINIA
ENDED SEPTEMBER 30, 1996         96-P-940 UNIVERSITY OF          DEPARTMENT OF HISTORIC
(9/16/96) *$21,720               GUAM, FISCAL YEAR ENDED         RESOURCES, FISCAL YEAR
                                 SEPTEMBER 30, 1997              ENDED JUNE 30, 1997
96-P-1243 TAOS PUEBLO,           (6/21/96)                       (4/8/96)
FISCAL YEAR ENDED
DECEMBER 31, 1996                U.S. Virgin Islands             96-P-708 COLORADO
(9/24/96) *$42,206                                               HISTORICAL SOCIETY,
                                 96-P-637 VIRGIN ISLANDS         FISCAL YEAR ENDED
96-P-1244 CONFEDERATED                                           JUNE 30, 1997 (4/16/96)
                                 DEPARTMENT OF HEALTH,
TRIBES OF THE COOS, LOWER
                                 FISCAL YEAR ENDED
UMPQUA, AND SIUSLAW                                              96-P-795 MISSOURI
                                 SEPTEMBER 30, 1996
INDIANS, FISCAL YEAR                                             DEPARTMENT OF NATURAL
                                 (4/1/96)
ENDED DECEMBER 31, 1996                                          RESOURCES, FISCAL YEAR
(9/24/96) *$73,776                                               ENDED JUNE 30, 1997
                                 96-P-741 VIRGIN ISLANDS
                                 DEPARTMENT OF ECONOMIC          (5/13/96)
96-P-1256 NARRAGANSETT
                                 DEVELOPMENT AND
INDIAN TRIBE, FISCAL YEAR                                        96-P-809 WISCONSIN
                                 AGRICULTURE, FISCAL YEAR
ENDED DECEMBER 31, 1996                                          STATE HISTORICAL SOCIETY,
                                 ENDED SEPTEMBER 30, 1996
(9/26/96)                                                        FISCAL YEAR ENDED
                                 (4/24/96)
                                                                 JUNE 30, 1997 (5/21/96)
96-P-1258 NARRAGANSETT
                                 96-P-826 VIRGIN ISLANDS
INDIAN TRIBE, FISCAL YEAR                                        96-P-1064 MASSACHUSETTS
                                 OFFICE OF ADJUTANT
ENDED DECEMBER 30, 1993                                          HISTORICAL COMMISSION,
                                 GENERAL, FISCAL YEAR
(9/26/96)                                                        TWO FISCAL YEARS ENDED
                                 ENDED SEPTEMBER 30, 1996
                                 (5/29/96)                       JUNE 30, 1997 (7/29/96)
96-P-1261 FLANDREAU
SANTEE SIOUX TRIBE,                                              96-P-1083 NORTH CAROLINA
DECEMBER 30, 1996                MINERALS MANAGEMENT
                                                                 DEPARTMENT OF
(9/27/96) *$1,078                SERVICE                         ENVIRONMENT, HEALTH AND
                                                                 NATURAL RESOURCES, FISCAL
96-P-1262 PRAIRIE ISLAND         96-P-1053 COLORADO              YEAR ENDED JUNE 30, 1996
INDIAN COMMUNITY,                DEPARTMENT OF REVENUE,          (8/5/96)
FISCAL YEAR ENDED                FISCAL YEAR ENDED
SEPTEMBER 30, 1996 (9/27/96)     JUNE 30, 1997 (7/23/96)         96-P-1154 MICHIGAN
                                                                 DEPARTMENT OF STATE,
INSULAR AREAS                    MULTI-OFFICE                    FISCAL YEAR ENDED
                                                                 SEPTEMBER 30, 1997
Commonwealth of the Northern     96-P-652 UTAH DIVISION          (8/20/96)
                                 OF STATE HISTORY, FISCAL
Mariana Islands                  YEAR ENDED JUNE 30, 1997        96-P-1197 NEW HAMPSHIRE
                                 (4/2/96) *$7,003                DEPARTMENT OF RESOURCES
96-P-924 COMMONWEALTH
                                                                 AND ECONOMIC DEVELOPMENT,
OF THE NORTHERN MARIANA
                                                                 FISCAL YEAR ENDED
ISLANDS PUBLIC SCHOOL
                                                                 JUNE 30, 1997 (8/30/96)
SYSTEM, FISCAL YEAR ENDED
SEPTEMBER 30, 1997
(6/19/96)




54            Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
96-P-1224 ARKANSAS                96-P-805 INDIANA               96-P-1140 WISCONSIN
DEPARTMENT OF PARKS AND           DEPARTMENT OF NATURAL          DEPARTMENT OF NATURAL
TOURISM, FISCAL YEAR ENDED        RESOURCES, FISCAL YEAR         RESOURCES, FISCAL YEAR
JUNE 30, 1997 (9/9/96) *$70,993   ENDED JUNE 30, 1996            ENDED JUNE 30, 1997
                                  (5/17/96)                      (8/15/96)
96-P-1232 MINNESOTA
DEPARTMENT OF NATURAL             96-P-807 NORTH CAROLINA        96-P-1153 MISSISSIPPI
RESOURCES, FISCAL YEAR            WILDLIFE RESOURCES             DEPARTMENT OF
ENDED JUNE 30, 1997               COMMISSION, FISCAL YEAR        ENVIRONMENTAL QUALITY,
(9/10/96)                         ENDED JUNE 30, 1996            FISCAL YEAR ENDED
                                  (5/21/96)                      JUNE 30, 1997 (8/20/96)
OFFICE OF SURFACE
MINING                            96-P-808 MARYLAND              96-P-1173 COLORADO
                                  DEPARTMENT OF NATURAL          DEPARTMENT OF NATURAL
RECLAMATION AND                   RESOURCES, FISCAL YEAR         RESOURCES, FISCAL YEAR
ENFORCEMENT                       ENDED JUNE 30, 1996            ENDED JUNE 30, 1997
                                  (5/21/96)                      (8/27/96)
96-P-668 VIRGINIA
DEPARTMENT OF MINES,              96-P-824 SOUTH CAROLINA        96-P-1198 NEW MEXICO
MINERALS, AND ENERGY,             DEPARTMENT OF NATURAL          DEPARTMENT OF GAME AND
FISCAL YEAR ENDED                 RESOURCES, FISCAL YEAR         FISH, FISCAL YEAR ENDED
JUNE 30, 1997 (4/3/96)            ENDED JUNE 30, 1997            JUNE 30, 1997 (9/4/96)
                                  (5/28/96)                      *$443,620
96-P-687 WEST VIRGINIA
DIVISION OF ENVIRONMENTAL         96-P-895 PENNSYLVANIA          U.S. GEOLOGICAL SURVEY
PROTECTION, FISCAL YEAR           FISH AND BOAT COMMISSION,
ENDED JUNE 30, 1997               FISCAL YEAR ENDED              96-P-691 IDAHO
(4/9/96)                          JUNE 30, 1997 (6/10/96)        HISTORICAL SOCIETY,
                                                                 FISCAL YEAR ENDED
96-P-748 TEXAS RAILROAD           96-P-906 MISSISSIPPI           JUNE 30, 1997 (4/10/96)
COMMISSION, FISCAL YEAR           DEPARTMENT OF WILDLIFE,
ENDED AUGUST 31, 1997             FISHERIES AND PARKS,           96-P-692 UTAH
(4/26/96)                         FISCAL YEAR ENDED              DEPARTMENT OF NATURAL
                                  JUNE 30, 1997 (6/10/96)        RESOURCES DIVISION OF
U.S. FISH AND WILDLIFE                                           OIL, GAS, AND MINING,
SERVICE                           96-P-1067 NEW HAMPSHIRE        FISCAL YEAR ENDED
                                  FISH AND GAME DEPARTMENT,      JUNE 30, 1997 (4/10/96)
96-P-711 MASSACHUSETTS            FISCAL YEAR ENDED
DEPARTMENT OF                     JUNE 30, 1997 (7/30/96)        96-P-703 IDAHO
ENVIRONMENTAL MANAGEMENT,                                        DEPARTMENT OF PARKS AND
TWO FISCAL YEARS ENDED            96-P-1068 PENNSYLVANIA         RECREATION, FISCAL YEAR
JUNE 30, 1997 (4/16/96)           GAME COMMISSION, FISCAL        ENDED JUNE 30, 1996
                                  YEAR ENDED JUNE 30, 1995       (4/12/96)
96-P-713 MASSACHUSETTS            (7/30/96)
DEPARTMENT OF FOOD AND                                           96-P-761 OREGON
AGRICULTURE, TWO FISCAL           96-P-1084 NORTH DAKOTA         DEPARTMENT OF GEOLOGY
YEARS ENDED                       DEPARTMENT OF GAME AND         AND MINERAL INDUSTRIES,
JUNE 30, 1997 (4/16/96)           FISH, FISCAL YEAR ENDED        FISCAL YEAR ENDED
                                  JUNE 30, 1998 (8/5/96)         JUNE 30, 1997 (5/1/96)
96-P-717 MISSISSIPPI
DEPARTMENT OF WILDLIFE,           96-P-1085 NORTH DAKOTA
FISHERIES AND PARKS,              DEPARTMENT OF GAME AND
FISCAL YEAR ENDED                 FISH, FISCAL YEAR ENDED
JUNE 30, 1996 (4/16/96)           JUNE 30, 1997 (8/5/96)




              Semiannual Report to the Congress: April 1, 1996 - September 30, 1996        55
96-P-762 IDAHO                 96-P-1051 OIL AND GAS BOARD OF
DEPARTMENT OF FISH AND         ALABAMA, FISCAL YEAR
GAME, FISCAL YEAR ENDED        ENDED SEPTEMBER 30, 1997
JUNE 30, 1997 (5/1/96)         (7/19/96)

96-P-774 CALIFORNIA            96-P-1166 ALASKA
DEPARTMENT OF FISH AND         DEPARTMENT OF NATURAL
GAME, FISCAL YEAR ENDED        RESOURCES, FISCAL YEAR
JUNE 30, 1996 (5/3/96)         ENDED JUNE 30, 1997
                               (8/23/96)
96-P-775 CALIFORNIA
DEPARTMENT OF FISH AND
GAME, FISCAL YEAR
ENDED JUNE 30, 1997
(5/3/96)

96-P-776 IDAHO
DEPARTMENT OF WATER
RESOURCES, FISCAL YEAR
ENDED JUNE 30, 1997
(5/3/96)

96-P-787 CALIFORNIA
DEPARTMENT OF PARKS AND
RECREATION, FISCAL YEAR
ENDED JUNE 30, 1997
(5/7/96)

96-P-794 ALASKA
DEPARTMENT OF FISH AND
GAME, FISCAL YEAR ENDED
JUNE 30, 1997 (5/10/96)

96-P-911 OREGON
DEPARTMENT OF FISH AND
WILDLIFE, FISCAL YEAR
ENDED JUNE 30, 1997
(6/17/96) *$91,252

96-P-987 IDAHO
DEPARTMENT OF PARKS AND
RECREATION, FISCAL YEAR
ENDED JUNE 30, 1997
(6/27/96)

96-P-995 WASHINGTON
DEPARTMENT OF WILDLIFE
AND FISH AND PARKS, FISCAL
YEAR ENDED JUNE 30, 1997
(7/3/96)

96-P-1012 UTAH
DEPARTMENT OF NATURAL
RESOURCES DIVISION OF
WILDLIFE RESOURCES,
FISCAL YEAR ENDED
JUNE 30, 1997 (7/9/96)



56          Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
                                       APPENDIX 3
                       MONETARY IMPACT OF AUDIT ACTIVITIES
                      APRIL 1, 1996, THROUGH SEPTEMBER 30, 1996


                                                                  FUNDS TO BE PUT TO
ACTIVITY                            QUESTIONED COSTS                 BETTER USE          REVENUES*


Bureau of Indian Affairs                            $10,293,819            $12,558,241                 0


Bureau of Land Management                              169,057               8,500,000         $8,026,000


Bureau of Reclamation                                     8,549              8,925,216                 0

Insular Areas -
U.S. Virgin Islands                                          0               1,702,000                 0

Minerals Management Service
                                                             0               2,160,000          1,700,000

Multi-Office Audits                                          0                  98,255                 0

National Park Service                                  170,232               4,571,993                 0

Office of the Secretary                                      0               3,149,000                 0


U.S. Fish and Wildlife Service                        1,206,585                443,620                 0


U.S. Geological Survey                                       0                  11,843                 0

Total                                               $11,848,242            $42,120,168         $9,726,000

*Represents lost or potential additional revenues




              Semiannual Report to the Congress: April 1, 1996 - September 30, 1996                    57
                                            APPENDIX 4

                                 TABLE I
          INSPECTOR GENERAL AUDIT REPORTS WITH QUESTIONED COSTS


                                                                                       Unsupported
                                 No. of Reports*          Questioned Costs               Costs**
A. For which no
management decision had
been made by the
commencement of the
reporting period                                   77             $36,915,163                 $2,828,565

B. Which were issued
during the reporting period                        46             $11,848,242                 $1,020,588

     Total (A+B)                                 123              $48,763,405                 $3,849,153

C. For which a
management decision was
made during the reporting
period                                             48               $2,858,144                  $176,892

     (i) dollar value of
       disallowed costs                            34               $2,411,901                  $146,784

     (ii) dollar value of
        costs not
       disallowed                                  25                 $446,243                   $30,108

D. For which no
management decision had
been made by the end of
the reporting period                               75             $45,905,261                 $3,672,261

E. For which no
management decision was
made within six months of
issuance                                           46             $34,544,234                 $2,654,234

*Report totals cannot be reconciled because some reports have dollar amounts in both the allowed and
disallowed categories.

**Unsupported costs are included in questioned costs.




58              Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
                                           APPENDIX 4

                       TABLE II
INSPECTOR GENERAL AUDIT REPORTS WITH RECOMMENDATIONS
            THAT FUNDS BE PUT TO BETTER USE



                                                              No. of Reports*         Dollar Value**
A. For which no management decision had been made by the
commencement of the reporting period
                                                                                44          $247,298,961

B. Which were issued during the reporting period                                80           $42,120,168

   Total (A+B)                                                                 124          $289,419,129

C. For which a management decision was made during th e
reporting period                                                             82***        $23,809,253***

   (i) dollar value of recommendations that were agreed
    to by management                                                            78           $17,386,096

  (ii) dollar value of recommendations that were not
   agreed to by management                                                    7***         $6,423,157***

D. For which no management decision had been made by the
end of the reporting period                                                     42          $265,609,876

E. For which no management decision was made within six
months of issuance                                                              33          $238,009,817

*Report totals cannot be reconciled because some reports have dollar amounts in both the agreed and
disagreed categories.

**Amounts include preaward audits.

***The number of reports and resultant amounts include four claim audit reports totaling $6,313,755 that
were closed because the OIG audited the claims resubmitted by the contractors and issued replacement
audit reports.




            Semiannual Report to the Congress: April 1, 1996 - September 30, 1996                          59
                                      APPENDIX 4

                        TABLE III
 INSPECTOR GENERAL AUDIT REPORTS WITH LOST OR POTENTIAL
                 ADDITIONAL REVENUES



                                                      No. Of Reports*       Dollar Value
A. For which no management decision had
been made by the commencement of the
reporting period                                                      6      $175,342,613
B. Which were issued during the reporting
period                                                                2        $9,726,000
     Total (A+B)                                                      8      $185,068,613
C. For which a management decision was
made during the reporting period                                      0                $0
     (i) dollar value of recommendations
         that were agreed to by management                            0                $0
     (ii) dollar value of recommendations
          that were not agreed to by
          management                                                  0                $0
D. For which no management decision had
been made by the end of the reporting period                          8      $185,068,613
E. For which no management decision was
made within six months of issuance                                    6      $175,342,613
*Report totals cannot be reconciled because some reports have dollar amounts in both
the agreed and disagreed categories.




60          Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
                                                      APPENDIX 5
         SUMMARY OF AUDIT REPORTS OVER 6 MONTHS OLD
              PENDING MANAGEMENT DECISIONS

   This listing includes a summary of internal, contract (except preawards), grant, and single audit reports that were over 6 months old
   on September 30, 1996, and still pending a management decision. It provides report number, title, issue date, number of unresolved
   recommendations, and unresolved amount of monetary benefits identified in the audit report.




                                                94-I-1312 ACCOUNTING FOR                         Guam
INTERNAL                                        FISCAL YEAR 1993
                                                REIMBURSABLE EXPENDITURES
AUDITS                                          OF ENVIRONMENTAL
                                                                                                 92-I-597 SELECTION,
                                                                                                 PROCUREMENT, AND
                                                PROTECTION AGENCY                                ADMINISTRATION OF WATER
BUREAU OF LAND                                  SUPERFUND MONEY (09/30/94) -                     DISTRIBUTION PROJECTS,
MANAGEMENT                                      1 RECOMMENDATION & $564,991                      PUBLIC UTILITY AGENCY OF
                                                UNRESOLVED                                       GUAM, GOVERNMENT OF GUAM
94-I-496 SALE OF MATERIALS                                                                       (03/20/92) -
                                                96-I-644 WORKING CAPITAL                         3 RECOMMENDATIONS &
FROM PUBLIC LANDS, BUREAU
                                                FUND, BUREAU OF                                  $533,000 UNRESOLVED
OF LAND MANAGEMENT
                                                RECLAMATION (3/29/96) -
(03/31/94) - 1 RECOMMENDATION
                                                3 RECOMMENDATIONS &                              93-I-706 SELECTED SPECIAL
& $3,062,000 UNRESOLVED
                                                $35,000,000 UNRESOLVED                           REVENUE FUNDS, GOVERNMENT
BUREAU OF                                                                                        OF GUAM (03/15/93) -
                                                INSULAR AREAS                                    7 RECOMMENDATIONS &
RECLAMATION                                                                                      $39,330,411 UNRESOLVED

92-I-1128 REPAYMENT OF                          American Samoa                                   93-I-1195 IMPACT OF THE
MUNICIPAL AND INDUSTRIAL                                                                         COMPACT OF FREE
WATER SUPPLY INVESTMENT                         93-I-1600 REVIEW OF GRANT                        ASSOCIATION ON THE
COSTS (08/13/92) -                              ADMINISTRATION,                                  GOVERNMENT OF GUAM
1 RECOMMENDATION & $958,000                     DEPARTMENT OF EDUCATION,                         (06/28/93) - 1 RECOMMENDATION
UNRESOLVED                                      AMERICAN SAMOA                                   & $15,911,978 UNRESOLVED
                                                GOVERNMENT (09/30/93) -
92-I-1151 REVIEW OF THE COST                    3 RECOMMENDATIONS &                              94-I-106 REVIEW OF GUAM'S
ALLOCATION FOR THE CENTRAL                      $306,637 UNRESOLVED                              GOVERNMENTWIDE TRAVEL
ARIZONA PROJECT                                                                                  PRACTICES (11/26/93) -
(08/17/92) -                                                                                     16 RECOMMENDATIONS &
3 RECOMMENDATIONS &                             Commonwealth of the                              $1,689,650 UNRESOLVED
$77,000,000 UNRESOLVED
(Resolution is pending outcome of
                                                Northern Mariana Islands                         94-I-980 FOOD STAMP
litigation.)                                                                                     PROGRAM, DEPARTMENT OF
                                                94-I-936 FOLLOWUP OF
                                                                                                 PUBLIC HEALTH AND SOCIAL
93-I-577 PROPOSED DEFERRAL                      RECOMMENDATIONS
                                                                                                 SERVICES (07/25/94) -
OF NOTICE OF SUBSTANTIAL                        CONCERNING THE ECONOMIC
                                                                                                 17 RECOMMENDATIONS &
COMPLETION OF THE CENTRAL                       DEVELOPMENT LOAN FUND,
                                                                                                 $646,028 UNRESOLVED
ARIZONA PROJECT (02/19/93) -                    COMMONWEALTH
2 RECOMMENDATIONS                               DEVELOPMENT AUTHORITY
                                                                                                 95-I-1202 FEDERAL GRANTS
                                                (07/18/94) -
UNRESOLVED (Resolution is                                                                        ADMINISTRATION, GUAM
                                                2 RECOMMENDATIONS
pending outcome of litigation.)                                                                  COMMUNITY COLLEGE (08/22/95)
                                                UNRESOLVED
                                                                                                 1 RECOMMENDATION
                                                                                                 UNRESOLVED
                                                96-I-596 MANAGEMENT OF
                                                PUBLIC LAND,
                                                COMMONWEALTH OF THE
                                                NORTHERN MARIANA
                                                ISLANDS (3/20/96) - 7
                                                RECOMMENDATIONS &
                                                $152,831,364 UNRESOLVED




            Semiannual Report to the Congress: April 1, 1996 - September 30, 1996                                                      61
Republic of the Marshall          95-I-41 DIVISION OF TOURISM,             94-E-919 COSTS CLAIMED BY
                                  DEPARTMENT OF ECONOMIC                   DIVERSIFIED BUSINESS
Islands                           DEVELOPMENT AND                          TECHNOLOGIES CORPORATION
                                  AGRICULTURE, GOVERNMENT                  UNDER CONTRACT
94-I-21 CAPITOL RELOCATION        OF THE VIRGIN ISLANDS                    NO. CBM000147 (06/30/94) -
PROJECT, REPUBLIC OF THE          (10/28/94) -                             $247,414 UNRESOLVED
MARSHALL ISLANDS                  4 RECOMMENDATIONS                        (Circumstances beyond the Bureau's
(10/18/93) -                      UNRESOLVED                               control have delayed resolution of the
2 RECOMMENDATIONS                                                          costs.)
UNRESOLVED
                                  U.S. GEOLOGICAL
                                  SURVEY                                   BUREAU OF
U.S. Virgin Islands
                                                                           RECLAMATION
91-I-467 FOLLOWUP OF              92-I-541 ACCOUNTING FOR
RECOMMENDATIONS                   FISCAL YEAR 1990                         93-E-394 CLAIM FOR
CONTAINED IN REPORT ON THE        REIMBURSABLE EXPENDITURES                ADDITIONAL COMPENSATION
ROAD FUND, GOVERNMENT OF          OF ENVIRONMENTAL                         SUBMITTED BY
THE VIRGIN ISLANDS (02/19/91) -   PROTECTION AGENCY
                                                                           TORNO-AMERICA, INC., UNDER
1 RECOMMENDATION                  SUPERFUND MONEY, WATER
                                                                           CONTRACT NO. 9-SP-40-0770/DC
UNRESOLVED                        RESOURCES DIVISION (03/09/92) -
                                  7 RECOMMENDATIONS &                      (01/08/93) - $2,364,646
                                  $325,261 UNRESOLVED                      UNRESOLVED
92-I-1086 PERSONNEL
MANAGEMENT, GOVERNMENT                                                     95-E-197 REQUEST FOR
OF THE VIRGIN ISLANDS             93-I-144 ACCOUNTING FOR
                                  FISCAL YEAR 1991                         EQUITABLE ADJUSTMENT
(08/03/92) -
6 RECOMMENDATIONS & $51,542       REIMBURSABLE EXPENDITURES                SUBMITTED BY QUALITY
UNRESOLVED                        OF ENVIRONMENTAL                         MECHANICAL CONTRACTORS,
                                  PROTECTION AGENCY                        INC. (11/18/94) - $523,168
                                  SUPERFUND MONEY, WATER                   UNRESOLVED
93-I-363 INMATE CARE,
                                  RESOURCES DIVISION (11/09/92) -
REHABILITATION, AND SAFETY,
                                  2 RECOMMENDATIONS &                      95-E-698 EQUITABLE
BUREAU OF CORRECTIONS,
                                  $940,702 UNRESOLVED
GOVERNMENT OF THE VIRGIN                                                   ADJUSTMENT SUBMITTED BY
ISLANDS (12/31/92) -                                                       KEARNEY ELECTRIC, INC.,
10 RECOMMENDATIONS                94-I-983 ACCOUNTING FOR
                                  FISCAL YEAR 1992                         UNDER CONTRACT NO.
UNRESOLVED                                                                 1-8-30-09150 (03/22/95) - $211,048
                                  REIMBURSABLE EXPENDITURES
                                  OF ENVIRONMENTAL                         UNRESOLVED
93-I-572 SUPPLY AND
                                  PROTECTION AGENCY
EQUIPMENT MANAGEMENT,
DEPARTMENT OF EDUCATION,
                                  SUPERFUND MONEY (07/25/94) -             INSULAR AREAS
                                  2 RECOMMENDATIONS &
GOVERNMENT OF THE VIRGIN
                                  $588,247 UNRESOLVED
ISLANDS (02/19/93) -
9 RECOMMENDATIONS &
                                                                           Republic of the Marshall
$310,000 UNRESOLVED               CONTRACT AND                             Islands
93-I-670 PERSONNEL, PROPERTY      GRANT AUDITS                             95-E-951 GRANT AND TRUST
MANAGEMENT, AND                                                            FUNDS PROVIDED FOR THE
PROCUREMENT PRACTICES,                                                     RONGELAP RESETTLEMENT
BUREAU OF CORRECTIONS,            BUREAU OF INDIAN                         PROJECT, REPUBLIC OF THE
GOVERNMENT OF THE VIRGIN                                                   MARSHALL ISLANDS (05/22/95) -
ISLANDS (03/11/93) -              AFFAIRS
                                                                           $215,960 UNRESOLVED
14 RECOMMENDATIONS &
$265,823 UNRESOLVED               94-E-784 COSTS CLAIMED BY
                                  DIVERSIFIED BUSINESS                     U.S. Virgin Islands
94-I-248 PROPERTY                 TECHNOLOGIES CORPORATION
MANAGEMENT FUNCTIONS,             UNDER CONTRACT                           95-I-1258 SCHOOL LUNCH
POLICE DEPARTMENT,                NO. CBM000047 (06/10/94) -               PROGRAM, DEPARTMENT OF
GOVERNMENT OF THE VIRGIN          $825,170 UNRESOLVED
                                                                           EDUCATION, GOVERNMENT OF
ISLANDS (01/24/94) -              (Circumstances beyond the Bureau's
                                                                           THE VIRGIN ISLANDS (09/12/95) -
3 RECOMMENDATIONS &               control have delayed resolution of the
                                                                           1 RECOMMENDATION
$457,000 UNRESOLVED               costs.)
                                                                           UNRESOLVED




62        Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
MINERALS                                                            93-A-1563 COMMONWEALTH
                                  SINGLE AUDITS                     DEVELOPMENT AUTHORITY,
MANAGEMENT                                                          FISCAL YEAR ENDED
SERVICE                                                             SEPTEMBER 30, 1988 (09/13/93) -
                                  INSULAR AREAS                     52 RECOMMENDATIONS &
                                                                    $4,998,398 UNRESOLVED
92-E-479 SMITHSONIAN
INSTITUTION, INCURRED COSTS       Commonwealth of the               94-A-525 COMMONWEALTH
FOR FISCAL YEAR 1988
(02/18/92) - $62,230 UNRESOLVED
                                  Northern Mariana Islands          DEVELOPMENT AUTHORITY,
                                                                    FISCAL YEAR ENDED
                                                                    SEPTEMBER 30, 1989 (04/15/94) -
93-E-809 SMITHSONIAN              91-A-731 COMMONWEALTH             45 RECOMMENDATIONS &
INSTITUTION, INCURRED COSTS       UTILITIES CORPORATION,            $6,078,308 UNRESOLVED
FOR FISCAL YEAR 1989              FISCAL YEAR ENDED
(03/24/93) - $1,706 UNRESOLVED    SEPTEMBER 30, 1988 (04/26/91) -   94-A-574 COMMONWEALTH
                                  12 RECOMMENDATIONS &              UTILITIES CORPORATION,
93-E-1394 SMITHSONIAN             $6,087,882 UNRESOLVED             FISCAL YEAR ENDED
INSTITUTION, INCURRED COSTS                                         SEPTEMBER 30, 1990 (05/06/94) -
FOR FISCAL YEAR 1990              91-A-803 MARIANA ISLANDS          61 RECOMMENDATIONS &
(08/02/93) - $76,662 UNRESOLVED   HOUSING AUTHORITY, FISCAL         $166,509 UNRESOLVED
                                  YEAR ENDED SEPTEMBER 30,
96-E-26 MBC APPLIED               1986 (05/07/91) -                 94-A-818 COMMONWEALTH
ENVIRONMENTAL SERVICES,           2 RECOMMENDATIONS &               UTILITIES CORPORATION,
INCURRED AND FINAL COSTS          $1,537,321 UNRESOLVED             FISCAL YEAR ENDED
UNDER MINERALS                                                      SEPTEMBER 30, 1991 (06/16/94) -
MANAGEMENT SERVICE                91-A-823 MARIANA ISLANDS          42 RECOMMENDATIONS
CONTRACT NOS. 14-12-0001-         HOUSING AUTHORITY, FISCAL         UNRESOLVED
30294, -30297, AND -30327         YEAR ENDED SEPTEMBER 30,
(10/11/95) - $720,169             1987 (05/10/91) -                 94-A-836 COMMONWEALTH OF
UNRESOLVED                        4 RECOMMENDATIONS &               THE NORTHERN MARIANA
                                  $455,857 UNRESOLVED               ISLANDS, FISCAL YEAR ENDED
                                                                    SEPTEMBER 30, 1993 (06/20/94) -
U.S. BUREAU OF MINES              91-A-824 MARIANA ISLANDS          59 RECOMMENDATIONS
                                  HOUSING AUTHORITY, FISCAL         UNRESOLVED
                                  YEAR ENDED SEPTEMBER 30,
95-E-1393 KEYSTONE COMPUTER       1988 (05/10/91) -                 94-A-1075 NORTHERN
RESOURCES, INC., CLAIM FOR        2 RECOMMENDATIONS &               MARIANAS COLLEGE,
EQUITABLE ADJUSTMENT              $196,593 UNRESOLVED               COMMONWEALTH OF THE
(09/28/95) - $215,415
                                                                    NORTHERN MARIANA ISLANDS,
UNRESOLVED                        92-A-1179 MARIANA ISLANDS         FISCAL YEAR ENDED
                                  HOUSING AUTHORITY,                SEPTEMBER 30, 1991 (07/29/94) -
U.S. FISH AND                     FISCAL YEAR ENDED                 30 RECOMMENDATIONS & $4,600
                                  SEPTEMBER 30, 1989 (08/13/92) -   UNRESOLVED
WILDLIFE SERVICE                  12 RECOMMENDATIONS &
                                  $168,711 UNRESOLVED               94-A-1083 MARIANA ISLANDS
96-E-428 DISTRICT OF                                                HOUSING AUTHORITY, FISCAL
COLUMBIA, COSTS INCURRED          93-A-110 MARIANA ISLANDS          YEAR ENDED SEPTEMBER 30,
UNDER SPORT RESTORATION           HOUSING AUTHORITY, FISCAL         1993 (08/03/94) -
GRANTS FROM THE U.S. FISH         YEAR ENDED SEPTEMBER 30,          5 RECOMMENDATIONS
AND WILDLIFE SERVICE (2/20/96)    1990 (10/26/92) -                 UNRESOLVED
- $11,770 UNRESOLVED              12 RECOMMENDATIONS &
                                  $124,450 UNRESOLVED               95-A-784 COMMONWEALTH
U.S. GEOLOGICAL                                                     PORTS AUTHORITY, FISCAL
                                  93-A-225 MARIANA ISLANDS          YEAR ENDED SEPTEMBER 30,
SURVEY                            HOUSING AUTHORITY, FISCAL         1994 (04/12/95) -
                                  YEAR ENDED SEPTEMBER 30,          10 RECOMMENDATIONS
93-E-339 CLOSING STATEMENT,       1991 (11/19/92) -                 UNRESOLVED
TGS TECHNOLOGY, INC.              8 RECOMMENDATIONS &
(12/22/92) - $520,235             $1,119,377 UNRESOLVED             95-A-1131 COMMONWEALTH OF
UNRESOLVED                                                          THE NORTHERN MARIANA
                                  93-A-336 KARIDAT (NORTHERN        ISLANDS PUBLIC SCHOOL
                                  MARIANAS CATHOLIC SOCIAL          SYSTEM, FISCAL YEAR ENDED
                                  SERVICES CORPORATION)             SEPTEMBER 30, 1992 (07/17/95) -
                                  (12/17/92) -                      15 RECOMMENDATIONS
                                  5 RECOMMENDATIONS                 UNRESOLVED
                                  UNRESOLVED




          Semiannual Report to the Congress: April 1, 1996 - September 30, 1996                   63
Federated States of               Pohnpei                           96-A-264 GUAM ECONOMIC
                                                                    DEVELOPMENT AUTHORITY,
Micronesia                                                          FISCAL YEAR ENDED
                                  91-A-398 POHNPEI STATE
                                                                    SEPTEMBER 30, 1994
95-A-1043 FEDERATED STATES        GOVERNMENT, FISCAL YEAR
                                                                    (1/11/96) -
OF MICRONESIA NATIONAL            ENDED SEPTEMBER 30, 1989
                                  (02/04/91) - 1 RECOMMENDATION     9 RECOMMENDATIONS
GOVERNMENT, FISCAL YEAR                                             UNRESOLVED
ENDED SEPTEMBER 10, 1993          & $98,216 UNRESOLVED
(06/27/95) -
10 RECOMMENDATIONS                94-A-491 POHNPEI COMMUNITY        Republic of the Marshall
                                  ACTION AGENCY, TWO FISCAL
UNRESOLVED
                                  YEARS ENDED SEPTEMBER 30,
                                                                    Islands
96-A-482 FEDERATED STATES OF      1992 (04/04/94) -
MICRONESIA, STATUS OF             5 RECOMMENDATIONS                 91-A-91 REPUBLIC OF THE
NATIONAL GOVERNMENT,              UNRESOLVED                        MARSHALL ISLANDS
FISCAL YEAR ENDED                                                   COMMUNITY ACTION AGENCY,
SEPTEMBER 30, 1994 (2/29/96) -    94-A-527 STATE OF POHNPEI,        FISCAL YEAR ENDED
19 RECOMMENDATIONS &              FEDERATED STATES OF               SEPTEMBER 30, 1988 (10/19/90) -
$57,000 UNRESOLVED                MICRONESIA, FISCAL YEAR           4 RECOMMENDATIONS & $43,023
                                  ENDED SEPTEMBER 30, 1992          UNRESOLVED
                                  (04/19/94) -
Chuuk                             21 RECOMMENDATIONS & $2,764       96-A-104 REPUBLIC OF THE
                                  UNRESOLVED                        MARSHALL ISLANDS, FISCAL
91-A-505 CHUUK STATE                                                YEAR ENDED SEPTEMBER 30,
GOVERNMENT, FISCAL YEAR           Yap                               1994 (11/1/95) -
ENDED SEPTEMBER 30, 1989                                            75 RECOMMENDATIONS &
(02/20/91) - 1 RECOMMENDATION                                       $1,068,317 UNRESOLVED
& $665,817 UNRESOLVED             94-A-371 STATE OF YAP,
                                  FEDERATED STATES OF               Republic of Palau
92-A-519 CHUUK STATE              MICRONESIA, FISCAL YEAR
GOVERNMENT, FISCAL YEAR           ENDED SEPTEMBER 30, 1992
ENDED SEPTEMBER 30, 1990          (02/25/94) -                      92-A-368 PALAU COMMUNITY
(02/25/92) - 1 RECOMMENDATION     22 RECOMMENDATIONS                ACTION AGENCY, FISCAL YEAR
& $1,940,938 UNRESOLVED                                             ENDED SEPTEMBER 30, 1990
                                  UNRESOLVED
                                                                    (01/24/92) -
94-A-374 STATE OF CHUUK,                                            2 RECOMMENDATIONS & $2,593
                                  95-A-57 YAP COMMUNITY             UNRESOLVED
FEDERATED STATES OF               ACTION PROGRAM FOR TWO
MICRONESIA, FISCAL YEAR           FISCAL YEARS ENDED
ENDED SEPTEMBER 30, 1992                                            92-A-885 REPUBLIC OF PALAU,
                                  SEPTEMBER 30, 1993 (10/19/94) -   FISCAL YEAR ENDED
(02/28/94) -
                                  5 RECOMMENDATIONS                 SEPTEMBER 30, 1989 (06/05/92) -
15 RECOMMENDATIONS
UNRESOLVED                        UNRESOLVED                        14 RECOMMENDATIONS &
                                                                    $40,262 UNRESOLVED
95-A-180 CHUUK ORGANIZATION       Guam
FOR COMMUNITY ACTION,                                               93-A-1053 PALAU COMMUNITY
FISCAL YEAR ENDED                                                   ACTION AGENCY, FISCAL YEAR
                                  96-A-44 GOVERNMENT OF GUAM,       ENDED SEPTEMBER 30, 1991
SEPTEMBER 30, 1993 (11/17/94) -
1 RECOMMENDATION                  FISCAL YEAR ENDED                 (05/11/93) -
UNRESOLVED                        SEPTEMBER 30, 1991                12 RECOMMENDATIONS
                                  (10/13/95) -                      UNRESOLVED
                                  51 RECOMMENDATIONS
Kosrae                            UNRESOLVED                        93-A-1629 REPUBLIC OF PALAU,
                                                                    FISCAL YEAR ENDED
94-A-367 STATE OF KOSRAE,                                           SEPTEMBER 30, 1990 (09/30/93) -
                                  96-A-45 GOVERNMENT OF GUAM,
FEDERATED STATES OF                                                 22 RECOMMENDATIONS &
                                  FISCAL YEAR ENDED
MICRONESIA, FISCAL YEAR                                             $401,843 UNRESOLVED
                                  SEPTEMBER 30, 1992 (10/13/95) -
ENDED SEPTEMBER 30, 1992
                                  62 RECOMMENDATIONS                94-A-499 REPUBLIC OF PALAU,
(02/24/94) -
                                  UNRESOLVED                        FISCAL YEAR ENDED
9 RECOMMENDATIONS
UNRESOLVED                                                          SEPTEMBER 30, 1991 (04/06/94) -
                                                                    11 RECOMMENDATIONS &
                                                                    $517,693 UNRESOLVED




64        Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
94-A-882 REPUBLIC OF PALAU,       96-A-156 BETHUNE MUSEUM
FISCAL YEAR ENDED                 AND ARCHIVES, INC., TWO
SEPTEMBER 30, 1992 (06/27/94) -   FISCAL YEARS ENDED
37 RECOMMENDATIONS & $4,085       SEPTEMBER 30, 1992 (11/14/95) -
UNRESOLVED                        2 RECOMMENDATIONS
                                  UNRESOLVED
95-A-1395 MICRONESIAN
OCCUPATIONAL COLLEGE,             OFFICE OF SURFACE
PALAU, TWO FISCAL YEARS
ENDED SEPTEMBER 30, 1992          MINING
(09/28/95) -                      RECLAMATION AND
6 RECOMMENDATIONS
UNRESOLVED                        ENFORCEMENT

96-A-193 REPUBLIC OF PALAU,       96-A-124 WYOMING
FISCAL YEAR ENDED                 DEPARTMENT OF
SEPTEMBER 30, 1994 (11/30/95) -   ENVIRONMENTAL QUALITY,
55 RECOMMENDATIONS                TWO FISCAL YEARS ENDED JUNE
UNRESOLVED                        30, 1994 (11/1/95) -
                                  2 RECOMMENDATIONS
Trust Territory of the            UNRESOLVED
Pacific Islands
                                  U.S. FISH AND
91-A-1112 TRUST TERRITORY OF
THE PACIFIC ISLANDS, FISCAL       WILDLIFE SERVICE
YEAR ENDED SEPTEMBER 30,
1990 (07/31/91) - $437,482        95-A-1304 GEORGIA, FISCAL
UNRESOLVED                        YEAR ENDED JUNE 30, 1994
                                  (09/07/95) -
U.S. Virgin Islands               1 RECOMMENDATION
                                  UNRESOLVED

92-A-107 VIRGIN ISLANDS           96-A-113 SOUTH DAKOTA,
WATER AND POWER AUTHORITY         FISCAL YEAR ENDED JUNE 30,
(10/16/91) -                      1994 (11/1/95) -
3 RECOMMENDATIONS                 1 RECOMMENDATION
UNRESOLVED                        UNRESOLVED

93-A-177 UNIVERSITY OF THE        96-A-372 DELAWARE, FISCAL
VIRGIN ISLANDS, TWO FISCAL        YEAR ENDED JUNE 30, 1994
YEARS ENDED SEPTEMBER 30,         (2/15/96) -
1991 (11/05/92) -                 4 RECOMMENDATIONS & $33,662
7 RECOMMENDATIONS                 UNRESOLVED
UNRESOLVED
                                  96-A-445 NORTH DAKOTA, TWO
                                  FISCAL YEARS ENDED JUNE 30,
MULTI-OFFICE                      1994 (2/22/96) -
                                  4 RECOMMENDATIONS &
                                  $5,384 UNRESOLVED
95-A-991 NORTH DAKOTA, TWO
FISCAL YEARS ENDED JUNE 30,       96-A-629 ARIZONA, FISCAL YEAR
1992 (06/01/95) -                 ENDED JUNE 30, 1994 (3/28/96) -
9 RECOMMENDATIONS                 4 RECOMMENDATIONS &
UNRESOLVED                        $30,392 UNRESOLVED

NATIONAL PARK                     96-A-630 ALASKA, FISCAL YEAR
SERVICE                           ENDED JUNE 30, 1994 (3/28/96) -
                                  4 RECOMMENDATIONS &
                                  $72,509 UNRESOLVED
95-A-1199 PORTER COUNTY,
INDIANA, FISCAL YEAR ENDED
DECEMBER 31, 1993 (08/02/95) -
1 RECOMMENDATION & $60,000
UNRESOLVED




           Semiannual Report to the Congress: April 1, 1996 - September 30, 1996   65
                                                         APPENDIX 6
     SUMMARY OF INTERNAL AUDIT REPORTS OVER 6 MONTHS
             OLD PENDING CORRECTIVE ACTION


     This is a listing of internal audit reports with management decisions over 6 months old for which corrective action has not bee  n
     completed. It provides report number, title, issue date, and the number of recommendations without final corrective action. These
     audits were included in the Department’s semiannual audit followup report for the period ended March 31, 1996, and continue to
     be monitored by the Focus Leader for Management Control and Audit Followup, Assistant Secretary - Policy, Management an          d
     Budget, for completion of corrective action. Note: The insular area reports contain recommendations made specifically to the insular
     area governors and other territorial officials, who do not report to the Secretary and are not subject to the policy, guidance, an
                                                                                                                                      d
     administrative oversight established by the Assistant Secretary - Policy, Management and Budget.



                                                  92-I-828 ONSHORE                                   95-I-747 RIGHT-OF-WAY
INTERNAL                                          GEOPHYSICAL EXPLORATION                            GRANTS, BUREAU OF LAND
                                                  PROGRAM (05/26/92) -                               MANAGEMENT (03/31/95) -
AUDITS                                            2 RECOMMENDATIONS                                  8 RECOMMENDATIONS

BUREAU OF INDIAN                                  94-I-1135 RENTAL FEES FOR                          BUREAU OF
                                                  UNPATENTED MINING CLAIMS
AFFAIRS                                           (08/22/94) -                                       RECLAMATION
                                                  1 RECOMMENDATION
94-I-427 REPAYMENT OF                                                                                90-I-106 IRRIGATION AND CROP
INVESTMENT IN INDIAN POWER                        94-I-1249 BUREAU OF LAND                           SUBSIDY PROGRAMS (09/28/90) -
PROJECTS (FLATHEAD                                MANAGEMENT FINANCIAL                               1 RECOMMENDATION
IRRIGATION PROJECT) (3/25/94)-                    STATEMENTS FOR FISCAL
1 RECOMMENDATION                                  YEARS 1992 AND 1993                                91-I-1085 ASSESSMENT OF USER
                                                  (08/31/94) -                                       CHARGES AFTER INITIAL
95-I-598 BUREAU OF INDIAN                         1 RECOMMENDATION                                   PROJECT REPAYMENT
AFFAIRS PRINCIPAL FINANCIAL                                                                          (08/05/91) -
STATEMENTS FOR FISCAL                             94-I-1351 LAW ENFORCEMENT                          1 RECOMMENDATION
YEARS 1993 AND 1994 (02/28/95) -                  ACTIVITIES (09/30/94) -
3 RECOMMENDATIONS                                 1 RECOMMENDATION &                                 91-I-1445 IMPLEMENTATION OF
                                                  $1,300,000                                         THE FEDERAL FINANCIAL
BUREAU OF LAND                                                                                       SYSTEM (09/30/91) -
                                                  95-I-379 FOLLOWUP OF                               2 RECOMMENDATIONS
MANAGEMENT                                        RECOMMENDATIONS
                                                  RELATING TO BUREAU OF                              92-I-887 MISCELLANEOUS
89-I-25 USER CHARGES FOR                          LAND MANAGEMENT USER                               REVENUE COLLECTION AND
MINERAL-RELATED DOCUMENT                          CHARGES FOR                                        DISTRIBUTION (06/12/92) -
PROCESSING (11/29/88) -                           MINERAL-RELATED DOCUMENT                           2 RECOMMENDATIONS
1 RECOMMENDATION &                                PROCESSING (01/23/95) -
$2,200,000                                        2 RECOMMENDATIONS                                  93-I-810 IMPLEMENTATION OF
                                                                                                     THE COLORADO RIVER BASIN
90-I-100 DRAINAGE                                 95-I-638 ONSHORE OIL AND                           SALINITY CONTROL PROGRAM
PROTECTION PROGRAM                                GAS LEASING ACTIVITIES,                            (03/31/93) -
(09/19/90) -                                      BUREAU OF LAND                                     3 RECOMMENDATIONS
1 RECOMMENDATION                                  MANAGEMENT (03/20/95) -
                                                  2 RECOMMENDATIONS                                  93-I-1416 FINANCING AND
92-I-140 COMPLIANCE WITH                                                                             REPAYMENT ARRANGEMENTS
THE FEDERAL MANAGERS'                             95-I-709 WIND ENERGY RIGHT-                        RELATED TO THE HOOVER DAM
FINANCIAL INTEGRITY ACT OF                        OF-WAY GRANTS, BUREAU OF                           POWERPLANT UPRATING
1982 FOR FISCAL YEAR 1991                         LAND MANAGEMENT (03/31/95)-                        PROGRAM (08/16/93) -
(11/18/91) -                                      4 RECOMMENDATIONS &                                3 RECOMMENDATIONS &
1 RECOMMENDATION                                  $2,837,296                                         $4,772,000

92-I-636 HARDROCK MINING
SITE RECLAMATION (03/30/92) -
2 RECOMMENDATIONS




66            Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
93-I-1641 PICK-SLOAN            Commonwealth of the             CONSTRUCTION PROJECT,
MISSOURI RIVER BASIN                                            REPUBLIC OF PALAU (9/30/91) - 1
PROGRAM COST ALLOCATION         Northern Mariana Islands        RECOMMENDATION
(09/30/93) -
5 RECOMMENDATIONS               94-I-1323 UTILITIES RATE
                                STRUCTURE, COMMONWEALTH
                                                                U.S. Virgin Islands
94-I-884 DEVELOPMENT            OF THE NORTHERN MARIANA
                                ISLANDS (09/30/94) -            91-I-1188 SECURITY AND
STATUS OF THE DOLORES AND                                       MAINTENANCE OF
THE ANIMAS-LA PLATA             3 RECOMMENDATIONS &
                                $16,400,000                     CORRECTIONAL FACILITIES,
PROJECTS (07/11/94) -                                           GOVERNMENT OF THE VIRGIN
1 RECOMMENDATION                                                ISLANDS (08/29/91) -
                                95-I-106 CONTRACTING AND
                                                                16 RECOMMENDATIONS &
94-I-930 IRRIGATION OF          CONTRACT ADMINISTRATION,
                                                                $1,000,000
INELIGIBLE LANDS (07/11/94) -   COMMONWEALTH UTILITIES
3 RECOMMENDATIONS               CORPORATION,
                                COMMONWEALTH OF THE             91-I-1431 FOLLOWUP ON AUDIT
                                NORTHERN MARIANA ISLANDS        OF THE GOVERNMENT
95-I-870 RECREATION                                             EMPLOYEES’ RETIREMENT
MANAGEMENT ACTIVITIES AT        (11/14/94) -
                                5 RECOMMENDATIONS &             SYSTEM, GOVERNMENT OF THE
SELECTED SITES (05/17/95) -                                     VIRGIN ISLANDS (09/30/91)- 1
2 RECOMMENDATIONS               $5,963,022
                                                                RECOMMENDATION
95-I-1204 FINANCIAL             Guam                            92-I-90 PRISON
MANAGEMENT OF THE                                               OVERCROWDING, BUREAU OF
COLUMBIA BASIN                  91-I-687 ASSESSMENT OF          CORRECTIONS (10/28/91) - 5
PROJECT, PACIFIC NORTHWEST      INCOME TAXES, DEPARTMENT        RECOMMENDATIONS
REGION (08/22/95) -             OF REVENUE AND TAXATION,
1 RECOMMENDATION & $7,000       GOVERNMENT OF GUAM              92-I-129 ECONOMIC
                                (4/22/91) -                     DEVELOPMENT PROGRAMS
95-I-1376 FOLLOWUP OF           13 RECOMMENDATIONS &            (11/12/91) - 4
RECOVERY OF OPERATION AND       $6,216,000                      RECOMMENDATIONS
MAINTENANCE PROGRAM
EXPENSES (09/29/95) -           91-I-969 PROCESSING AND         95-I-52 SELECTED
5 RECOMMENDATIONS &             COLLECTION OF INCOME            ADMINISTRATIVE FUNCTIONS,
$19,465,000                     TAXES, DEPARTMENT OF            ST. CROIX INTERIM HOSPITAL,
                                REVENUE AND TAXATION,           GOVERNMENT OF THE VIRGIN
95-I-1383 RECOVERY OF           GOVERNMENT OF GUAM              ISLANDS (10/31/94) - 2
OPERATION AND                   (6/28/91) -                     RECOMMENDATIONS
MAINTENANCE COSTS,              16 RECOMMENDATIONS &
COLUMBIA BASIN PROJECT          $15,873,000
(09/29/95) -                                                    MINERALS
5 RECOMMENDATIONS &             96-I-512 FEES, BILLINGS, AND    MANAGEMENT
$1,070,000                      COLLECTIONS, GUAM               SERVICE
                                MEMORIAL HOSPITAL
INSULAR AREAS                   AUTHORITY (3/3/92) - 6
                                                                92-I-130 OFFSHORE INSPECTION
                                RECOMMENDATIONS &
                                9,282,000                       PROGRAM (11/12/91) -
Amercian Samoa                                                  3 RECOMMENDATIONS
                                92-I-1360 GOVERNMENT OF
                                GUAM RETIREMENT FUND            92-I-657 GAS CONTRACT
96-I-533 AMERICAN               (0918/92) -                     SETTLEMENTS (03/30/92) -
SAMOA LEGISLATURE,              7 RECOMMENDATIONS &             1 RECOMMENDATION
AMERCAN SAMOA                   $11,100,000
GOVERNMENT (3/22/96) -                                          93-I-780 SURETY BONDS ISSUED
8 RECOMMENDATIONS &                                             IN LIEU OF DISPUTED
                                Republic of Palau               PAYMENTS (03/29/93) -
$1,707,308
                                                                1 RECOMMENDATION
                                92-I-1368 BILLINGS AND
                                COLLECTIONS OF THE
                                                                94-I-127 FOLLOWUP REVIEW OF
                                REPUBLIC OF PALAU’S GROSS
                                                                SELECTED ROYALTY AUDIT
                                REVENUE TAX (9/28/92) -
                                                                ACTIVITIES (12/9/93) -
                                3 RECOMMENDATIONS &
                                                                1 RECOMMENDATION
                                $4,035,095

                                91-I-1447 PROCUREMENT
                                PRACTICES AND PLANNING,
                                PALAU NATIONAL HOSPITAL




          Semiannual Report to the Congress: April 1, 1996 - September 30, 1996            67
MULTI-OFFICE                                                       96-I-270 OPERATION AND
                                OFFICE OF THE                      MAINTENANCE OF
                                SECRETARY                          GOVERNMENT FURNISHED
95-I-1320 PAYROLL/PERSONNEL                                        QUARTERS, U.S. FISH AND
SYSTEM, DEPARTMENT OF THE       92-I-641 HAWAIIAN HOMES            WILDLIFE SERVICE (01/29/96) - 8
INTERIOR (09/25/95) -           COMMISSION (3/31/92) -             RECOMMENDATIONS & $26,596
4 RECOMMENDATIONS &             4 RECOMMENDATIONS
$314,434
                                93-I-53 OFFICE OF
                                                                   U.S. GEOLOGICAL
NATIONAL PARK                   CONSTRUCTION                       SURVEY
                                MANAGEMENT, FACILITIES
SERVICE                         MANAGEMENT (10/23/92) -            92-I-1418 IMPLEMENTATION OF
                                2 RECOMMENDATIONS                  THE FEDERAL FINANCIAL
91-I-532 WASTE DISPOSAL                                            SYSTEM (09/30/92) -
ACTIVITIES AND HOUSEBOAT        94-I-38 FOLLOWUP OF                2 RECOMMENDATIONS
RENTAL OPERATIONS AT GLEN       RECOMMENDATIONS
CANYON NATIONAL                 PERTAINING TO THE OFFICE OF        95-I-582 U.S. GEOLOGICAL
RECREATION AREA (03/08/91) -    AIRCRAFT SERVICES (10/29/93) -     SURVEY PRINCIPAL FINANCIAL
2 RECOMMENDATIONS               2 RECOMMENDATIONS                  STATEMENTS FOR FISCAL
                                                                   YEARS 1993 AND 1994 (02/24/95) -
92-I-204 NATIONAL NATURAL                                          1 RECOMMENDATION
LANDMARKS PROGRAM
                                U.S. FISH AND
(12/05/91) -                    WILDLIFE SERVICE                   95-I-725 FEDERAL-STATE
4 RECOMMENDATIONS                                                  COOPERATIVE PROGRAM,
                                93-I-864 AUTOMATED DATA            WATER RESOURCES DIVISION,
93-I-1615 RECREATIONAL          PROCESSING MANAGEMENT              U.S. GEOLOGICAL SURVEY
ASSISTANCE PROVIDED TO          (03/31/93) -                       (03/31/95) -
STATE AND LOCAL                 1 RECOMMENDATION                   3 RECOMMENDATIONS &
GOVERNMENTS (09/30/93) -                                           $6,800,000
1 RECOMMENDATION                94-I-62 LAW ENFORCEMENT
                                SPECIAL FUNDS, U.S. FISH AND
94-I-7 NATIONAL PARK            WILDLIFE SERVICE (11/8/93) -
SERVICE GRANT TO THE CITY       1 RECOMMENDATION
OF CHESTER, PENNSYLVANIA
(10/5/93) - 1 RECOMMENDATION    94-I-408 FARMING OPERATIONS
& $199,999                      CONDUCTED BY THE U.S. FISH
                                AND WILDLIFE SERVICE
94-I-1211 CONCESSIONS           (03/21/94) -
MANAGEMENT IMPROVEMENT          1 RECOMMENDATION
(09/26/94) -
1 RECOMMENDATION                95-I-208 FOLLOWUP OF
                                RECOMMENDATIONS
95-I-647 SELECTED               CONCERNING USER CHARGES
ADMINISTRATIVE FUNCTIONS,       AND COLLECTIONS, U.S. FISH
U.S. VIRGIN ISLANDS NATIONAL    AND WILDLIFE SERVICE
PARK, NATIONAL PARK             (12/02/94) -
SERVICE (03/20/95) -            1 RECOMMENDATION
4 RECOMMENDATIONS
                                95-I-376 CONCESSION FEES,
96-I-49 SPECIAL USER FEES,      U.S. FISH AND WILDLIFE
NATIONAL PARK SERVICE           SERVICE (01/17/95) -
(10/27/95) -                    2 RECOMMENDATIONS
1 RECOMMENDATION
                                95-I-567 U.S. FISH AND
                                WILDLIFE SERVICE FINANCIAL
                                STATEMENTS FOR FISCAL
                                YEARS 1993 AND 1994 (02/24/95) -
                                2 RECOMMENDATIONS




68        Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
                                    APPENDIX 7

              NON-FEDERAL FUNDING INCLUDED IN
             MONETARY IMPACT OF AUDIT ACTIVITIES
              DURING THE 6-MONTH PERIOD ENDED
                      SEPTEMBER 30, 1996

No. 96-A-533 - "Grants for the Construction of Health Care Facilities, Government of the
Virgin Islands," dated May 3, 1996. Of the $1,702,000 reported as monetary impact,
$400,500 represents insular area funds.




        Semiannual Report to the Congress: April 1, 1996 - September 30, 1996          69
                                        APPENDIX 8
         STATUTORY AND ADMINISTRATIVE RESPONSIBILITIES

The Inspector General Act of 1978 (Public Law 95-452), as amended, sets forth specific requirements
for semiannual reports to be made to the Secretary for transmittal to the Congress. A selection of
other statutory and administrative responsibilities of the OIG follows:

                       STATUTORY AUDIT RESPONSIBILITIES

P.L. 96-510         Comprehensive Environmental Response, Compensation and Liability Act
                      (Superfund)
P.L.   97-357       Insular Areas Act of 1982
P.L.   97-451       Federal Oil and Gas Royalty Management Act of 1982
P.L.   98-502       Single Audit Act of 1984
P.L.   99-499       Superfund Amendments and Reauthorization Act of 1986
P.L.   101-576      Chief Financial Officers Act of 1990

General Accounting Office "Government Auditing Standards"

                        ADMINISTRATIVE RESPONSIBILITIES

Office of Management and Budget Circulars and Bulletin :

       A-21         Cost Principles for Educational Institutions
       A-25         User Charges
       A-50         Audit Followup
       A-70         Policies and Guidelines for Federal Credit Programs
       A-73         Audit of Federal Operations and Programs
       A-76         Performance of Commercial Activities
       A-87         Cost Principles for State and Local Governments
       A-88         Indirect Cost Rates, Audit, and Audit Followup at Educational Institutions
       A-102        Grants and Cooperative Agreements With State and Local Governments
       A-110        Uniform Administrative Requirements for Grants and Other Agreements
                      With Institutions of Higher Education, Hospitals, and Other Nonprofit
                      Organizations
       A-122        Cost Principles for Nonprofit Organizations
       A-123        Internal Control Systems
       A-127        Financial Management Systems
       A-128        Audits of State and Local Governments
       A-129        Managing Federal Credit Programs
       A-131        Value Engineering
       A-133        Audits of Institutions of Higher Education and Other Nonprofit
                      Institutions
       93-06        Audit Requirements for Federal Financial Statements (Bulletin)




70        Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
              CRIMINAL AND CIVIL INVESTIGATIVE AUTHORITIES

Criminal investigative authorities include:

  !    - Title 18, United States Code, section on crime and criminal procedures as they pertain to
       OIG’s oversight of DOI programs and employee misconduct.

Civil and administrative investigative authorities include civil monetary penalty authorities such as
those at:

       - Title 31, United States Code, Section 3801 et seq., the Program Fraud Civil Remedies Act.




          Semiannual Report to the Congress: April 1, 1996 - September 30, 1996                         71
                                         APPENDIX 9
                   CROSS-REFERENCES TO THE INSPECTOR GENERAL ACT

                                                                                  Page
Inspector General Act, as amended

Section 4(a)(2)                     Review of Legislation and                       16
                                    Regulations

Section 5(a)(1)                     Significant Problems,                         17-32
                                    Abuses, and Deficiencies

Section 5(a)(2)                     Recommendations With Respect                  17-32
                                    to Significant Problems,
                                    Abuses, and Deficiencies

Section 5(a)(3)                     Summary of Audits From Agency’s               66-68
                                    Previous Report on Which Corrective
                                    Action Has Not Been Completed

Section 5(a)(4)                     Matters Referred to                              v
                                    Prosecutive Authorities

Section 5(a)(5)                     Summary of Instances Where                     N/A
                                    Information Was Refused

Section 5(a)(6)                     List of Audit Reports                         34-56

Section 5(a)(7)                     Summary of Significant Reports                17-32

Section 5(a)(8)                     Statistical Table - Questioned Costs            58

Section 5(a)(9)                     Statistical Table - Recommendations That        59
                                    Funds Be Put To Better Use

Section 5(a)(10)                    Summary of Audit Reports Issued               61-65
                                    Before the Commencement of the
                                    Reporting Period for Which No
                                    Management Decision Has Been Made

Section 5(a)(11)                    Significant Revised Management                 N/A
                                    Decisions Made During the
                                    Reporting Period

Section 5(a)(12)                    Management Decisions With Which                N/A
                                    the Inspector General Is in Disagreement




72        Semiannual Report to the Congress: April 1, 1996 - September 30, 1996
             GENERAL INFORMATION


Send Requests for Publications to:

U.S. Department of the Interior      (202) 219-3840
Office of Inspector General
1849 C Street, NW.
Mail Stop 5341, MIB
Washington, DC 20240

Facsimile Number:                    (202) 208-4998

World Wide Web Site:                 www.access.gpo.gov/doi




HOTLINE
Toll Free Numbers:                   1-800-424-5081
                                     TDD 1-800-354-0996

FTS/Commercial Numbers:              (202) 208-5300
                                     TDD (202) 208-2420

U.S. Department of the Interior
Office of Inspector General
1849 C Street, NW.
Mail Stop 5341, MIB
Washington, DC 20240
I                                                    I

    ILLEGAL OR WASTEFUL ACTIVITIES
    SHOULD BE REPORTED TO THE
    OFFICE OF INSPECTOR GENERAL BY:
    Sending Written Documents to:   Calling:


             Within the Continental United States




             Outside the Continental United States

                        Caribbean Region




                       North Pacific Region
U.S. DEPARTMENT OF THE INTERIOR
Office of Inspector General
1849 C Street, N.W.
Washington, D.C. 20
